No. 19-278
IN THE

Supreme Court of the United States
PFIZER, INC. AND GREENSTONE LLC,
v.

Petitioners,

SUPERIOR COURT OF CALIFORNIA FOR THE
COUNTY OF LOS ANGELES et al.,

Respondents.
On Petition for a Writ of Certiorari to the
California Court of Appeal

RESPONDENTS’ BRIEF IN OPPOSITION
CHARLES G. ORR
BARON & BUDD, P.C.
3102 Oak Lawn Ave., #1100
Dallas, Texas 75219
(214) 521-3605

BURTON LEBLANC

Counsel of Record

BARON & BUDD, P.C.
2600 Citiplace Dr.
Baton Rouge, LA 70808
(225) 927-5441
bleblanc@baronbudd.com

Attorneys for respondents Alida Adamyan, et al.
October 23, 2019

i
QUESTIONS PRESENTED
The state trial court in this case held that “Pfizer
. . . acceded to the jurisdiction of the court by seeking
a ruling on the merits of the California cases [while
they were in federal court following removal.]” Pet.
App. 12. In its Petition for Review to the California
Supreme Court, Pfizer conceded that “federal law is
unmistakably clear that forfeiture occurs when a
party litigates on the merits, not jurisdiction.” Petition for Review, Pfizer Inc. v. Superior Court of California, No. S255942, at 10 (May 23, 2019). And in
this Court, Pfizer acknowledged that “a defendant
forfeits personal jurisdiction if it litigates on the merits.” Pet. 19.
Yet, Pfizer now claims that the California courts
“crafted” a new “forfeiture rule” under which a party
is held to forfeit its personal jurisdiction defense by
removing and litigating subject matter jurisdiction
without first moving to dismiss on personal jurisdiction grounds. E.g., Pet. i.
Thus, the questions presented are:
1. Did the state court hold, as Pfizer asserts, that
Pfizer waived its personal jurisdiction defense solely
by litigating subject matter jurisdiction first, or did
that court actually hold that, by litigating the merits
against Plaintiffs before asserting its personal
jurisdiction defense, Pfizer forfeited its personal
jurisdiction defense?
2. Does this Court’s decision in Ruhrgas AG v.
Marathon Oil Co., 526 U.S. 574 (1999), allow a party,
like Pfizer did here, to seek a merits determination
before moving to dismiss on personal jurisdiction
grounds?

ii
PARTIES TO THE PROCEEDING
AND RELATED CASES
The parties to the proceeding are listed in the petition for a writ of certiorari.
The following proceedings are directly related to
this case:
•

Lipitor Cases, No. JCCP 4761, in the Superior

Court of the State of California for the County
of Los Angeles, judgment not yet entered.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDING AND
RELATED CASES ..................................................... ii
INTRODUCTION ...................................................... 1
STATEMENT OF THE CASE................................... 3
I.

Plaintiffs began filing cases in California
state court in 2013 and early 2014. ................ 3

II.

In March 2014, Pfizer removed the California
cases but did not seek dismissal on personal
jurisdiction grounds. ....................................... 4

III.

Long before asserting its personal jurisdiction
defense, Pfizer litigated the merits against
Plaintiffs (including moving for summary
judgment against them). ................................. 6
A.

Pfizer sought discovery from Plaintiffs and
obtained an order requiring Plaintiffs to
participate in discovery............................... 6

B.

Pfizer sought summary judgment against
Plaintiffs. ..................................................... 7

IV.

Plaintiffs’ cases were transferred back to
California federal court, whereupon Pfizer
indicated personal jurisdiction was “moot”
if the California federal courts kept the
cases. ................................................................ 9

V.

Rather than asserting its personal jurisdiction
defense, Pfizer instead removed Plaintiffs’
cases a second time. ...................................... 11

iv
VI.

Pfizer finally moved to dismiss on personal
jurisdiction grounds. ..................................... 12

REASONS FOR DENYING THE WRIT ................. 14
I.

This case presents neither the question nor
the conflict in authority that Pfizer says it
does. ............................................................... 14
A.

The state court did not hold that Pfizer
forfeited its personal jurisdiction merely by
removing the cases or by litigating subjectmatter jurisdiction. ................................... 14

B.

Far from being “quite literally
unprecedented,” the state court’s ruling
was anchored in authorities from this
Court and the lower federal courts. ......... 16

II.

Neither Ruhrgas nor anything else precluded
Pfizer from timely moving to dismiss on
personal jursdiction grounds. ....................... 19

III.

The state court correctly held that Pfizer
waived or forfeited its personal jurisdiction
defense by litigating the merits against
Plaintiffs. ....................................................... 22
A.

Pfizer sought discovery from Plaintiffs
without asserting its personal jurisdiction
defense. ...................................................... 23

B.

Pfizer moved for summary judgment
against Plaintiffs without asserting its
personal jurisdiction defense. ................... 24

CONCLUSION......................................................... 28

v
APPENDIX
Appendix A Answer to Petition for Review in
the Supreme Court of the State of
California, No. S255942
(June 26, 2019) .............................. App. 1
Appendix B Plaintiffs’ Opposition to Defendant Pfizer Inc. and Greenstone
LLC’s Motion to (1) Quash Service of Summons with Regard to
the Claims of Non-California
Plaintiffs for Lack of Personal
Jurisdiction; or (2) Dismiss the
Claims of Non-California Plaintiffs for Forum Non Conveniens
in the Superior Court of the State
of California, County of Los Angeles, Central Civil West, No. JCCP
4761
(September 21, 2018)................... App. 41
Appendix C Defendants’ Omnibus Motion for
Summary Judgment and Memorandum in Support in the United
States District Court for the District of South Carolina, Charleston Division, MDL No. 2:14-mn02502-RMG
(June 24, 2016) ............................ App. 97

vi
TABLE OF AUTHORITIES
Cases

Pages

Bel-Ray Co. v. Chemrite (Pty) Ltd.,

181 F.3d 435 (3d Cir. 1999) ................................. 18

Brokerwood Prods. Int’l (U.S.), Inc. v.
Cuisine Crotone, Inc.,

104 F. App’x 376 (5th Cir. 2004) ......................... 17

Fidelity & Cas. Co. of N.Y. v. Tex. E.
Transmission Corp.,

15 F.3d 1230 (3d Cir. 1994) ................................. 17

In re “Agent Orange” Prod. Liab. Litig.,

818 F.2d 145 (2d Cir. 1987) ................................. 24

In re Asbestos Prods. Liab. Litig.,

921 F.3d 98 (3d Cir. 2019) ................................... 18

In re FMC Corp. Patent Litig.,

422 F. Supp. 1163 (J.P.M.L. 1976)...................... 24

In re Lipitor,

No. CV-18-01725-CJC (C.D. Cal.,
May 10, 2018) ...................................................... 12

In re: Pfizer

No. 8:17-mc-00005-CJC (C.D. Cal.,
May 23, 2017) ...................................................... 10

In re Testosterone Replacement
Therapy Prods. Liab. Litig.,

136 F. Supp. 3d 968 (N.D. Ill. 2015) ................... 24

vii

Insurance Corp. of Ireland, Ltd. v.
Compagnie des Bauxites de Guinee,

456 U.S. 694 (1982) ............................................ 17

PaineWebber Inc. v. Chase Manhattan
Private Bank (Switzerland),

260 F.3d 453 (5th Cir. 2001) ............................... 18

Ruhrgas AG v. Marathon Oil Co.,

526 U.S. 574 (1999) ............................... 2, 5, 19, 20

Wyrough & Loser, Inc. v. Pelmor Labs.,
Inc.,

376 F.2d 543 (3d Cir. 1967) ........................... 17, 21

Statutes
28 U.S.C. § 1332(d)(11)(B)(i) ...................................... 4
28 U.S.C. § 1332(d)(11)(C)(i) ...................................... 8
Cal. Code Civ. Pro. §§ 404-404.9 ................................ 3
Cal. Code Civ. Pro. § 418.10(a)(1) ............................ 12
Other Authorities
Cal. Rules of Court, Rule 3.501(8)-(9) ........................ 3

INTRODUCTION
There are at least three reasons why this Court
should deny Pfizer’s petition for writ of certiorari:
1. The case doesn’t present the question Pfizer
asks the Court to answer. Pfizer’s question presented
is premised on a false assertion: Pfizer says that the
state trial court ruled that Pfizer forfeited its right to
contest personal jurisdiction “because [it] did not file
a personal jurisdiction motion simultaneous with
[its] attempt to establish subject matter jurisdiction
in federal court.” Pet. i. The state court did no such
thing: It explicitly held that Pfizer waived its personal jurisdiction defense because it “litigat[ed] the ultimate merits” in a federal Multidistrict Litigation
(MDL) court by insisting it was entitled to summary
judgment against the Plaintiffs—not because it litigated subject matter jurisdiction before personal jurisdiction. Pet. App. 14. Pfizer’s assertion that the
case presents the question “whether, under federal
law, a defendant’s efforts to establish federal subject
matter jurisdiction can result in forfeiture of an otherwise fully preserved challenge to personal jurisdiction,” Pet.i, rests entirely on its mischaracterization
of the decision below. Pfizer’s claim that the state
court’s refusal to dismiss on personal jurisdiction
grounds “is quite literally unprecedented,” Pet. 2, is
similarly predicated on Pfizer’s miscasting of what
the state court actually held. The state court relied
on precedent from both this Court and lower federal
courts supporting its ruling that a party forfeits a jurisdiction defense by litigating the merits before
seeking dismissal on personal jurisdiction grounds.
Pfizer ignores those authorities, just as it ignores the
actual basis of the trial court’s ruling.

2
2. Ruhrgas AG v. Marathon Oil Co., 526 U.S. 574
(1999), supports the state court’s decision. Pfizer
strangely claims that it was excused from raising the
issue of personal jurisdiction even while litigating
the merits because the various federal courts to
which Plaintiffs’ claims were removed and transferred were precluded by Ruhrgas from deciding personal jurisdiction before deciding subject-matter jurisdiction. The argument makes no sense. Ruhrgas
held that both subject-matter and personal jurisdiction are threshold issues that should be decided early
in the litigation and that a trial court has broad discretion to decide it lacks personal jurisdiction before
determining whether it has subject-matter jurisdiction. The only reason the federal courts here couldn’t
decide personal jurisdiction first, before subjectmatter is that Pfizer chose never to raise personal
jurisdiction in those courts—Pfizer challenged personal jurisdiction only after years of litigation (including a summary judgment motion), and only to
avoid being in state court. While the federal courts
might have elected not to decide personal jurisdiction
first (had Pfizer bothered to ask), nothing in Ruhrgas
compelled such a result.
3. The trial court correctly found that Pfizer delayed asserting its personal jurisdiction defense
while it moved for summary judgment against Plaintiffs. Pfizer acknowledges that “a defendant forfeits
personal jurisdiction if it litigates on the merits” Pet.
19. Plaintiffs agree. Pfizer’s assertion that it didn’t
seek a merits disposition against Plaintiffs is belied
by its motion for summary judgment and reply in
support of that motion in the MDL. The state court
order denying Pfizer’s motion to dismiss on personal

3
jurisdiction grounds discussed Pfizer’s summary
judgment at length, yet Pfizer treats that order as if
it didn’t.
STATEMENT OF THE CASE
I. Plaintiffs began filing cases in California state
court in 2013 and early 2014.
Lipitor plaintiffs began filing claims in California
state court in mid-2013. R.Ex.Vol.2, at 167, ¶ 4. 1 In
September 2013, a handful of plaintiffs sought creation of a Judicial Council Coordination Proceeding
(JCCP) to manage the Lipitor cases efficiently. 2
R.Ex.Vol.2, at 206-29. The Judicial Council granted
the coordination petition in early December 2013.
R.Ex.Vol.2, at 231-32.
By the date of the first status conference in the
JCCP (February 25, 2014), about 1,800 plaintiffs (including hundreds of non-California residents) had
filed Lipitor personal injury claims in California
state court. R.Ex.Vol.2, at 240:25-28.

––––––––––––––––––––––––

References to “R.Ex.Vol._” are to the record in the California Court of Appeal.
1

In California state court, cases sharing common questions
of fact or law can be coordinated by the California Judicial
Council into JCCPs. See generally Cal. Code Civ. Pro. §§ 404404.9; Cal. Rules of Court, Rule 3.501(8)-(9).
2

4
II. In March 2014, Pfizer removed the California
cases but did not seek dismissal on personal jurisdiction grounds.
Pfizer responded to this wave of California filings
not by asserting a personal jurisdiction challenge but
by removing all cases to federal court, both on diversity grounds and as an alleged mass action under the
Class Action Fairness Act (CAFA). 3 R.Ex.Vol.2, at
268-301. Nowhere in any removal pleadings did Pfizer assert that the California federal courts to which
Pfizer was removing the cases lacked personal jurisdiction over Pfizer. R.Ex.Vol.2, at 167, ¶ 7.
Concurrently with its March 2014 removal, Pfizer
asked the Judicial Panel on Multidistrict Litigation
(JPML) to transfer the cases to the recently created
federal MDL for Lipitor cases. R.Ex.Vol.2, at 309-11.
Pfizer also filed motions to stay pending transfer.
R.Ex.Vol.6, at 1260-73. Again, nothing in these or
Pfizer’s other removal-related pleadings suggested
that Pfizer intended to raise personal jurisdiction.
R.Ex.Vol.2, at 167-68, ¶ 8. 4
Once in the JPML, many Plaintiffs filed motions
asking the JPML to send the cases back to California
––––––––––––––––––––––––

CAFA defines a “mass action” as “any civil action . . . in
which monetary relief claims of 100 or more persons are proposed to be tried jointly on the ground that the plaintiffs’ claims
involve common questions of law or fact . . . .” 28 U.S.C. §
1332(d)(11)(B)(i).
3

Pfizer later filed federal court answers that mention personal jurisdiction in a long list of boilerplate affirmative defenses. R.Ex.Vol.5, at 1212, 1255 (personal jurisdiction mentioned
as affirmative defense number 35 of 37).
4

5
federal court for resolution of Plaintiffs’ remand motions. R.Ex.Vol.2, at 319-25. Pfizer opposed such motions, urging that common issues raised across all
the cases should be decided by a single judge (the
MDL judge). R.Ex.Vol.2, at 327-38. Again, Pfizer neglected to mention any alleged lack of personal jurisdiction.
Pfizer’s strategic decision not to raise personal jurisdiction challenges at this stage is in sharp contrast
to what Pfizer did in Lipitor cases filed in Missouri
state court. In many of those cases (unlike the California cases), Pfizer moved concurrently with its removals to dismiss the claims of the non-Missouri residents for lack of personal jurisdiction. R.Ex.Vol.2, at
372-87. Pfizer then urged the MDL court to address
personal jurisdiction first, before deciding subjectmatter jurisdiction. 5 R.Ex.Vol.3, at 419-20. So even
while Pfizer was seeking a ruling that all California
state court Lipitor cases belonged in federal court
(without raising personal jurisdiction challenges to
those cases), Pfizer was simultaneously urging the
federal courts – Missouri and MDL – to dismiss the
claims of non-Missouri plaintiffs for lack of personal
jurisdiction before addressing subject-matter jurisdiction..
––––––––––––––––––––––––

When Missouri plaintiffs asserted that the federal court
should decide subject-matter jurisdiction first, before addressing personal jurisdiction, Pfizer replied that “[t]his Court can
and should decide Pfizer’s motion to dismiss for lack of personal
jurisdiction before deciding whether federal subject-matter jurisdiction exists because the Court ‘has before it a straightforward personal jurisdiction issue presenting no complex question
of state law.” R.Ex.Vol.2, at 389 (quoting Ruhrgas AG v. Marathon Oil Co., 526 U.S. 574, 588 (1999)).
5

6
III.

Long before asserting its personal jurisdiction
defense, Pfizer litigated the merits against
Plaintiffs (including moving for summary
judgment against them).
A. Pfizer sought discovery from Plaintiffs and
obtained an order requiring Plaintiffs to
participate in discovery.

Immediately upon landing in the MDL, Pfizer invoked the court’s power over the California cases by
seeking discovery from Plaintiffs. At the first status
conference after their cases arrived in the MDL,
Plaintiffs advised the MDL judge (Judge Gergel) that
they would seek to stay imminent discovery obligations—Plaintiff Fact Sheets (PFSs) that would otherwise be due 30 days from the date of transfer into
the MDL—pending determination of their forthcoming remand motions. R.Ex.Vol.3, at 478:22-481:2.
Pfizer’s counsel responded that “at a minimum”
Plaintiffs should be ordered to “provide [to Pfizer]
pharmacy information, proof of use, and, you know,
information.” Id. at 482:18-483:2. Pfizer said nothing
about any alleged lack of personal jurisdiction.
Pfizer then asked the MDL court to impose two
distinct discovery obligations on Plaintiffs (again,
without mentioning personal jurisdiction). First,
Pfizer asked the MDL court to require Plaintiffs to
“participat[e] in depositions of common witnesses in
the MDL.” R.Ex.Vol.6, at 1283 n.1. Second, Pfizer
sought an order from the MDL court compelling
Plaintiffs to “provide [to Pfizer and co-defendant
McKesson] (1) the identity and address of the pharmacies from which the Plaintiffs obtained Lipitor; (2)
the dates on which they purchased or obtained Lipi-

7
tor; and (3) a signed authorization to collect records
from their pharmacies.” Id. at 1-2. Pfizer acknowledged that it intended to use this discovery not just
for purposes of litigating subject-matter jurisdiction,
but “to evaluat[e] the viability of Plaintiffs’ claims
against McKesson and [the discovery] therefore bears
on . . . the merits of those claims.” Id. at 6.
Judge Gergel entered an order partially granting
Plaintiffs’ stay motion, holding that PFS discovery
was stayed but, as Pfizer requested, Plaintiffs “[we]re
NOT exempt from participation in the depositions of
common witnesses in the MDL.” R.Ex.Vol.6, at 1340,
¶ 2. 6 Judge Gergel denied Pfizer the discovery it
sought from Plaintiffs, without prejudice. R.Ex.Vol.6,
at 1343-46. But the fact that Pfizer did not get the
discovery it requested does not obviate the fact that
Pfizer invoked the MDL court’s power to order Plaintiffs to provide that discovery.
B. Pfizer sought summary judgment against
Plaintiffs.
In January 2015, the magistrate judge in the
MDL issued orders in the California cases rejecting
Pfizer’s diversity arguments but sending the question
of whether there was federal subject matter jurisdiction under CAFA’s mass action provision 7 back to the
California federal courts for them to resolve.
R.Ex.Vol.2, at 170, ¶ 25. 8 Pfizer appealed the magis––––––––––––––––––––––––

Nothing about the stay order precluded Pfizer from timely
raising and litigating its personal jurisdiction challenge.
6

7

See supra n.3.

The CAFA issue fell outside the MDL court’s jurisdiction
because the case could be properly included in the MDL only if
(Footnote continued)
8

8
trate’s orders to Judge Gergel but again failed to
raise or even mention personal jurisdiction in its appeals. R.Ex.Vol.3, at 536-72.
Meanwhile, Pfizer was litigating the claims of
thousands of plaintiffs whose claims were properly in
the MDL court. Pfizer ultimately persuaded Judge
Gergel that some trial pool plaintiffs failed to proffer
admissible expert testimony as to both general and
specific causation. R.Ex.Vol.2, at 170, ¶ 27. Judge
Gergel then entered a case management order stating that any MDL plaintiff who believed her case differed from those in which the causation experts were
struck must provide prompt notice to the court,
which would then enter a briefing schedule for expert
witness discovery. R.Ex.Vol.3, at 574-75.
Pfizer then filed an omnibus summary judgment
motion (MSJ) in the MDL court on June 24, 2016,
seeking summary judgment “in all cases” in the MDL
(including Plaintiffs’). App. 117 9 (emphasis added).
Pfizer’s reply in support of its MSJ reiterated that
Pfizer believed the MDL court could and should enter
summary judgment against Plaintiffs. Pet. App. 2154. In that brief, Pfizer included a section under the
heading “This Court Has Subject Matter Jurisdiction
in All Cases.” Pet. App. 51. The first sentence in that
section says, “This Court has subject matter jurisdiction over all cases in the MDL and the Court’s expert
––––––––––––––––––––––––

there was conventional diversity jurisdiction; CAFA expressly
excludes mass actions from MDL proceedings unless a majority
of the plaintiffs request transfer to the MDL. 28 U.S.C.
§ 1332(d)(11)(C)(i).
9

tion.

Citations to “App. _” are to the Appendix to this Opposi-

9
rulings warrant summary judgment in every case.”
Pet. App. 51-52. Although Pfizer’s MSJ and reply in
support clearly targeted Plaintiffs, Pfizer again failed
to raise or even mention its personal jurisdiction defense.
IV.

Plaintiffs’ cases were transferred back to California federal court, whereupon Pfizer indicated personal jurisdiction was “moot” if the California federal courts kept the cases.

On October 21, 2016, Judge Gergel heard oral argument on Plaintiffs’ remand motions (he also heard
argument on the Missouri plaintiffs’ remand motions, including personal jurisdiction contentions).
R.Ex.Vol.6, at 1396-1455. Judge Gergel then issued a
series of orders finding there was no conventional diversity jurisdiction over the California cases and
transferring them to the JPML with the suggestion
that it return them to the California federal court for
determination of the CAFA mass action issue.
R.Ex.Vol.2, at 171-72, ¶ 34.
During the first status conference in California
after remand from the MDL, on February 1, 2017
(nearly three years after Pfizer first removed the cases), Pfizer’s counsel brought up the personal jurisdiction issue to claim that Pfizer had not waived that
issue (even though Pfizer had spent years litigating
against Plaintiffs, including moving for summary
judgment against them, without ever attempting to
assert its personal jurisdiction defense). Pet. App. 65;
R.Ex.Vol.6, at 1488:9-17. In the same breath, however, Pfizer’s counsel also declared that the personal
jurisdiction issue would “be moot” – would “go away”
– if the California federal court determined that

10
there was CAFA subject-matter jurisdiction. Pet.
App. 66; R.Ex.Vol.6, at 1488:9-17, 1488:23-25. 10
California federal judge Cormac Carney heard
oral argument on Plaintiffs’ remand motion on May
22, 2017. R.Ex.Vol.3, at 608-49. The next day, Judge
Carney issued his order remanding these cases back
to California state court. R.Ex.Vol.6, at 1492-1507. 11

––––––––––––––––––––––––

Pfizer wrongly claims that the California federal court
“acknowledged that Pfizer had not ‘waived any . . . defenses or
arguments or issues.’” Pet. 8. The court made no such acknowledgment. Rather, the court simply stated that, by taking up
CAFA mass action jurisdiction first, it was not thereby holding
that Pfizer had waived any other defenses. Pet. App. 66 (“ . . . I
don’t mean to suggest that you’ve waived any of your other defenses or arguments or issues that might be there, but all I’m
saying is I don’t want to do anything about the case until I’ve
decided this CAFA is a jurisdictional issue [sic].”)
10

Judge Carney held that less than 100 plaintiffs had
sought coordination into the JCCP, either by initially moving to
create the JCCP or by seeking to add on to the existing JCCP.
No. 8:17-mc-00005-CJC, In re: Pfizer (C.D. Cal., May 23, 2017),
Dkt. 20. As of the date of the remand hearing (and equally true
today), only 65 plaintiffs asked for their cases to be part of the
JCCP. Pfizer petitioned the Ninth Circuit for permission to appeal Judge Carney’s remand order, which the Ninth Circuit denied. No. 17-80094, Dkt. 17. Pfizer neither moved for en banc
reconsideration nor filed a petition for writ of certiorari.
11

11
V.

Rather than asserting its personal jurisdiction
defense, Pfizer instead removed Plaintiffs’ cases a second time.

On remand to the JCCP court, instead of teeing
up a personal jurisdiction challenge, Pfizer chose to
jockey for position with Plaintiffs over how the cases
would be coordinated into the JCCP. Even while
Pfizer was stating, in pleadings and in open court,
that it wanted the benefits of coordination of all the
California cases into this JCCP, Pfizer was trying to
box Plaintiffs into seeking add-on in a way that arguably would trigger CAFA mass action jurisdiction
so that Pfizer could remove a second time. 12
After the JCCP court issued sua sponte add-on
orders bringing all the Plaintiffs into the JCCP, Pfizer again removed the cases en masse as an alleged
CAFA mass action (and again, Pfizer’s removal papers failed to mention any personal jurisdiction issue). R.Ex.Vol.4, at 730-46. On May 10, 2018, however, Judge Carney entered an order remanding the
cases back to the JCCP court because, he found,
there had been no proposal for a joint trial of claims
of more than 100 plaintiffs, as CAFA required for
mass action jurisdiction. R.Ex.Vol.4, at 753-63. 13 (Af––––––––––––––––––––––––

See, e.g., R.Ex.Vol.7, at 1567:26-27 (noting, in status report’s “Defendants’ position” section prepared by Pfizer several
months after cases had been remanded, that “[a]s of yet, Pfizer
has not filed any jurisdictional briefing as it has been waiting
for Plaintiffs to pick a path forward regarding coordination”).
12

13 More specifically, Judge Carney rejected Pfizer’s argument that the JCCP court’s sua sponte order coordinating
Plaintiffs’ claims into the JCCP was not a proposal for a joint
trial for two reasons: (1) judges don’t propose, they order; and
(Footnote continued)

12
ter the Ninth Circuit denied Pfizer’s petition for
permission to appeal this remand order, as well as
Pfizer’s motion for rehearing en banc, Pfizer filed a
petition for writ of certiorari asking this Court to reverse Judge Carney’s remand order. No. 18-1578,
Pfizer Inc. v. Adamyan, et al. This Court denied that
petition on October 7, 2019.)
VI. Pfizer finally moved to dismiss on personal jurisdiction grounds.
In August 2018 (five years after the first cases
were filed in California, four years after Pfizer’s first
unsuccessful removal, two years after Pfizer moved
for summary judgment against Plaintiffs, and shortly
after Pfizer’s unsuccessful second removal), Pfizer
finally filed its personal jurisdiction motion in the
JCCP court. R.Ex.Vol.1, at 90-117. 14 Plaintiffs filed
their Opposition [App. 41-96], 15 and the JCCP court
––––––––––––––––––––––––

(2) even if the sua sponte order could be a proposal for a joint
trial, it wasn’t here because the JCCP court made clear in both
a prior order and in remarks on the record in a prior hearing
that coordination of Plaintiffs’ claims almost certainly would
not result in a joint trial of the claims of even two plaintiffs,
much less 100 or more. In re Lipitor, No. CV-18-01725-CJC
(C.D. Cal., May 10, 2018). Just as Pfizer ignored in this case
what the state court actually held, it did the same in its petition
in No. 18-1578, which this Court denied on October 7, 2019.

Under California procedural law, a defendant challenges
the court’s personal jurisdiction over it by filing a motion to
quash service of process, which is what Pfizer filed here. Cal.
Code Civ. Pro. § 418.10(a)(1).
14

15 Pfizer misstates the content of Plaintiffs’ briefing in the
state court proceedings. Pfizer asserts that “[Plaintiffs] contended only that Pfizer had forfeited its right to assert [its personal jurisdiction defense] by removing the cases to federal
court and litigating subject-matter jurisdiction.” Pet. 9. Even a
(Footnote continued)

13
heard argument on the motion on February 13, 2019.
R.Ex.Vol.1, 21-58. One month later, on March 15,
2019, the JCCP court entered its Opinion and Order
denying Pfizer’s motion. Pet. App. 3-19. The JCCP
court held that, while the case was in the MDL, Pfizer, after passing on numerous opportunities to move
for dismissal on personal jurisdiction grounds, instead sought judgment on the merits against Plaintiffs, thereby forfeiting its personal jurisdiction challenge. Pet. App. 12-14.
Pfizer petitioned the Second Court of Appeal for a
Writ of Mandate. Pet. App. 68-122; No. B296917 (Petition for Writ of Mandate, filed April 12, 2019). After
Plaintiffs filed a preliminary opposition in response,
the Court of Appeal denied Pfizer’s petition. Pet.
App. 1-2; Order, May 13, 2019. Pfizer then petitioned
the California Supreme Court for review. No.
S255942 (Petition for Review, filed May 23, 2019).
The California Supreme Court denied that petition
on July 31, 2019. Pet. App. 20. This petition followed.

––––––––––––––––––––––––

cursory review of Plaintiffs’ opposition to Pfizer’s personal jurisdiction motion in the trial court [App. 51-52, 86-90 (“Pfizer . .
. waived/forfeited its [personal juridsdiction] challenge by seeking affirmative relief, in the form of merits discovery and summary judgment, against the California Plaintiffs.”)] and Plaintiffs’ opposition to Pfizer’s petition for review in the California
Supreme Court [App. 7, 8-9, 24-31 (“Pfizer forfeited its personal
jurisdiction defense against the JCCP Plaintiffs, first, by seeking discovery against them, and then (more importantly), by
moving for summary judgment against them.”)] demonstrates
the falsity of Pfizer’s assertion.

14
REASONS FOR DENYING THE WRIT
I. This case presents neither the question nor the
conflict in authority that Pfizer says it does.
Pfizer’s entire petition is predicated on red herrings. Pfizer wrongly claims that the California
courts’ decisions conflict with century-old precedents
holding that a party does not forfeit its personal jurisdiction defense merely by removing a case from
state court to federal court. Pfizer accordingly asks
this Court to decide one question, and one question
only: “whether, under federal law, a defendant’s efforts to establish federal subject matter jurisdiction
can result in forfeiture of an otherwise fully preserved challenge to personal jurisdiction.” Pet. i. But
neither that question, nor the claimed conflict with
precedents of this Court and other courts, is presented by this case, because neither Plaintiffs nor the
California courts posited mere removal as the basis
for finding Pfizer forfeited its personal jurisdiction
defense. Nor did Plaintiffs contend, or the California
courts hold, that Pfizer waived its personal jurisdiction defense by litigating subject-matter jurisdiction,
as Pfizer now asserts. The basis for the courts’ forfeiture holding was that, following removal, Pfizer delayed for years in raising personal jurisdiction and
instead litigated the merits against Plaintiffs.
A. The state court did not hold that Pfizer forfeited its personal jurisdiction merely by
removing the cases or by litigating subjectmatter jurisdiction.
The California state court’s order never once suggested that merely by removing, or by litigating subject-matter jurisdiction, Pfizer waived its personal

15
jurisdiction defense. Rather, the court closely analyzed Pfizer’s post-removal litigation conduct before
the federal courts to determine whether it met what
the court acknowledged is the “more forgiving”
standard of federal law “with respect to waiver or forfeiture of a defense of lack of personal jurisdiction.”
Pet. App. 5. And the conduct that the court focused
on was not Pfizer’s litigation of subject-matter jurisdiction in its effort to avoid remand to state court.
Rather, what the court found determinative was
that, without moving for dismissal on personaljurisdiction grounds, Pfizer sought a merits judgment
against the California Plaintiffs by moving for summary judgment against them together with the other
plaintiffs in the MDL.
In reaching that determination, the court painstakingly described the summary judgment proceedings, Pet. App. 5-8, and explained that Pfizer had explicitly requested summary judgment in “all cases,”
including Plaintiffs’. Id. at 6. The court cited repeated statements in Pfizer’s papers that had made clear
that what it wanted was a merits resolution in its favor as to the parties who sought remand as well as
all other plaintiffs. Id. at 6-7.
Based on its determination that Pfizer had sought
summary judgment on the merits against Plaintiffs
long before moving for dismissal on the basis of its
personal-jurisdiction defenses, the court held that,
under federal procedural law, Pfizer had forfeited the
personal jurisdiction defense. Pet. App. 8-15. In so
holding, the court relied only in part (and properly)
on Pfizer’s lengthy delay in moving to dismiss for
lack of personal jurisdiction while it participated in
pretrial proceedings that provided ample opportunity
for such a motion. See id. at 8-12.

16
B. Far from being “quite literally unprecedented,” the state court’s ruling was anchored in authorities from this Court and
the lower federal courts.
Importantly, “[b]eyond delay,” the trial court
found that Pfizer “acceded to the [personal] jurisdiction of the court by seeking a ruling on the merits of
the California cases before the transferee court.” Id.
at 12. Citing abundant authority from this and other
courts that parties waive personal-jurisdiction defenses when they fail to assert them by motion before
contesting the merits in motions for summary judgment, see id. at 12-14, the court concluded that Pfizer
had similarly failed to preserve its personaljurisdiction defense “while litigating the ultimate
merits of [the] case.” Id. at 14. In short, “the Pfizer
Defendants asked the transferee court to enter
judgment on their behalf against those Plaintiffs,
thus acquiescing in the jurisdiction of the court.” Id.
at 14.
Nothing in that holding conflicts in any way with
the many cases Pfizer cites asserting the uncontested
proposition that a party does not waive personal jurisdiction merely by removing a case to federal
court. 16 Nor does the state court’s holding conflict
––––––––––––––––––––––––

Nor did Plaintiffs claim that mere removal, without more,
equals waiver of a personal jurisdiction defense. App. 78-79 (“To
be clear, Plaintiffs do not contend that the act of removal alone
amounted to a waiver or forfeiture of personal jurisdiction by
Pfizer. . . But, by removing . . . and proceeding to attempt to litigate California Plaintiffs’ claims without advancing its [personal jurisdiction defense] in a timely manner, Pfizer
waived/forfeited th[at] [defense].”).
16

17
with the corollary that Pfizer seeks to tease out of
such cases (without any actual supporting case law)
that a party who removes a case may litigate subjectmatter jurisdiction indefinitely without waiving a
personal-jurisdiction defense that it has failed to assert in a timely motion. The state court’s ruling was
not based in any way on Pfizer’s litigation of subjectmatter jurisdiction.
As to the issue the state court actually decided,
Pfizer makes no pretense of asserting a conflict in
authority but attempts to obscure matters by claiming that the state court’s holding was “quite literally
unprecedented.” Pet. 2. This is not so. The state court
first noted this Court’s holding that the “actions of a
defendant may amount to a legal submission to the
jurisdiction of the court, whether voluntary or not.”
Pet. App. 12 (quoting Insurance Corp. of Ireland, Ltd.
v. Compagnie des Bauxites de Guinee, 456 U.S. 694,
704-05 (1982) (emphasis added)). The court then cited and relied on three circuit court opinions for the
proposition that party legally submits to the jurisdiction of a court by litigating the merits of the claim in
that court before moving to dismiss on personal jurisdiction grounds. 17 Pet. App. 12-13. The authorities
––––––––––––––––––––––––

17 Brokerwood Prods. Int’l (U.S.), Inc. v. Cuisine Crotone,
Inc., 104 F. App’x 376, 380 (5th Cir. 2004) (noting that party

forfeits personal jurisdiction defense by “manifest[ing] an intent
to submit to the court’s jurisdiction”); Fidelity & Cas. Co. of
N.Y. v. Tex. E. Transmission Corp., 15 F.3d 1230, 1236 (3d Cir.
1994) (holding that party waived personal jurisdiction challenge
by moving for summary judgment on counterclaim before moving to dismiss on personal jurisdiction grounds); Wyrough &
Loser, Inc. v. Pelmor Labs., Inc., 376 F.2d 543, 547 (3d Cir.
1967) (holding that party waived personal jurisdiction defense
by actively participating in preliminary injunction hearing and
(Footnote continued)

18
cited and relied on by the state court are but a few
examples of cases illustrating “the well-established
rule that parties who choose to litigate actively on
the merits thereby surrender any jurisdictional objections.” 18
While the state court grounded its ruling on
abundant federal authorities, Pfizer cites no cases
holding that a defendant may remove a case, litigate
the merits without moving to dismiss for lack of personal jurisdiction, and avoid a finding of waiver
merely because the federal court’s subject-matter jurisdiction had not yet been decided while the defendant was proceeding to litigate everything but personal jurisdiction.
Accordingly, even assuming Pfizer were correct
that a party doesn’t waive personal jurisdiction following removal so long as it only litigates the validity
of removal, nothing in the state courts’ decisions conflicts with that view. The state court based its decision on a principle Pfizer acknowledges to be correct:
“a defendant forfeits personal jurisdiction if it litigates on the merits.” Pet. at 19.
––––––––––––––––––––––––

waiting until after court ruled against it to assert personal jurisdiction defense).

PaineWebber Inc. v. Chase Manhattan Private Bank
(Switzerland), 260 F.3d 453, 459 (5th Cir. 2001); see also, e.g.,
In re Asbestos Prods. Liab. Litig., 921 F.3d 98, 105-07 (3d Cir.
18

2019) (“[A] party who requests affirmative relief and rulings
from a court is considered to have waived the personal jurisdiction defense.”); Bel-Ray Co. v. Chemrite (Pty) Ltd., 181 F.3d
435, 443-44 (3d Cir. 1999) (holding that defendant waived personal jurisdiction defense by moving for summary judgment on
counterclaim one month before contesting personal jurisdiction).

19
II. Neither Ruhrgas nor anything else precluded
Pfizer from timely moving to dismiss on personal
jursdiction grounds.
Pfizer also contends that it somehow was precluded by Ruhrgas AG v. Marathon Oil Co., 526 U.S. 574
(1999), from asserting its personal jurisdiction defense before subject-matter jurisdiction was decided.
See, e.g., Pet. 22 (stating Pfizer “was not only permitted, but required, to litigate subject matter jurisdictions before personal jurisdiction”). Oddly asserting
that the MDL court was “powerless” to decide personal jurisdiction, Pfizer claims to have been “punished” by the California courts for asking the MDL
court to dispose of Plaintiffs’ claims on the merits before moving to dismiss on personal jurisdiction
grounds. Pet. 23. Pfizer is wrong.

Ruhrgas is clear that jurisdiction, whether over

the subject matter or the litigant, is a threshold matter to be determined before a court reaches the merits. 526 U.S. at 577-78. Nothing in the state court’s
order has anything to do with second-guessing what
the MDL court did or didn’t decide regarding its jurisdiction over these cases, or with punishing Pfizer.
The state court’s discussion of Ruhrgas warrants
quotation:
[Pfizer’s] reliance on Ruhrgas . . . is
misplaced. The holding in Ruhrgas was
that district courts, which normally first
decide the issue of subject matter jurisdiction, may instead properly decide the
issue of personal jurisdiction at the outset. . . . The case does not address the
issue of when a defendant forfeits its de-

20
fense of lack of personal jurisdiction.
Quite the opposite, the case highlights
the fact that [Pfizer] could have asked
the federal courts to first decide the issue of personal jurisdiction before addressing the issue of subject matter jurisdiction raised by the Plaintiffs in the
California cases.
Pet. App. 15.
Under Ruhrgas, a court has considerable discretion to decide the order in which it takes up subjectmatter jurisdiction and personal jurisdiction, but a
court has no power to make a merits determination
without first resolving threshold jurisdictional issues. Ruhrgas, 526 U.S. at 577-78. Yet in the MDL
court, Pfizer did not feel constrained by Ruhrgas
from asserting merits arguments while subjectmatter jurisdiction remained undecided. How, then,
did Ruhrgas prevent Pfizer from asserting its personal jurisdiction arguments? Pfizer chose to present
the merits arguments and not personal jurisdiction
arguments, which (as Pfizer concedes) is the classic
situation in which a personal jurisdiction defense is
forfeited.
Far from “punish[ing]” Pfizer for “litigating subject-matter jurisdiction first,” the state court’s decision follows logically from the fact that Pfizer failed
to assert its personal jurisdiction defense while litigating not just subject-matter jurisdiction, but the
merits. Even if the federal court might have chosen
to sequence its jurisdictional decisions to address
subject-matter jurisdiction first, nothing in Ruhrgas
prevented Pfizer from moving to dismiss on personal

21
jurisdiction grounds while federal subject-matter jurisdiction remained unresolved. Indeed, in the cases
against it that were removed from the Missouri state
courts, Pfizer did just that, by moving to dismiss for
lack of personal jurisdiction at the same time it removed the cases.
This case well illustrates why courts adjudicating
the issue of whether a party has waived or forfeited
its personal jurisdiction defense must consider the
“strong policy to conserve judicial time and effort;
preliminary matters such as defective service, personal jurisdiction and venue should be raised and
disposed of before the court considers the merits or
quasimerits of a controversy.” Wyrough & Loser, Inc.
v. Pelmor Labs., Inc., 376 F.2d 543, 547 (3d Cir.
1967). The inefficiencies, and the great costs to judicial administration caused by Pfizer’s failure to timely move to dismiss on personal jurisdiction grounds
meant that fourteen different courts (or sets of
courts) and their respective staffs had to expend effort, in some instances very significant effort, on
these cases before Pfizer finally got around to asserting personal jurisdiction. 19
––––––––––––––––––––––––

19 These were, in order: (1) California state courts; (2) California federal courts; (3) the Judicial Panel on Multi-District
Litigation (JPML); (4) the MDL court; (5) the MDL magistrate
judge; (6) the MDL court again; (7) the JPML again; (8) the California federal courts again; (9) a Ninth Circuit panel; (10) the
California state courts again; (11) a California federal court
again; (12) a Ninth Circuit panel again; (13) the Ninth Circuit
en banc; and (14) this Court. Only while the courts in numbers
12-14 of this list were addressing Pfizer’s continued efforts to
get out of California state court did Pfizer finally move to dismiss on personal jurisdiction grounds. Plaintiffs note here the
(Footnote continued)

22
Finally, Pfizer seems to claim that it had the right
to waive its personal jurisdiction defense (and to so
advise the federal courts) to the extent it stayed in
federal court as a result of its CAFA removals yet retain the right to assert that defense if the cases were
remanded to state court. Pet. 24 and n.5. Pfizer cites
no authority for the proposition that a party can selectively waive personal jurisdiction where, as here,
the state and federal courts’ personal jurisdiction are
co-extensive. Under these circumstances (and especially in light of the fact that Pfizer sought a merits
ruling against Plaintiffs long before asserting its personal jurisdiction defense), the state courts did not
err in the slightest in holding that Pfizer forfeited its
personal jurisdiction defense.
III.

The state court correctly held that Pfizer
waived or forfeited its personal jurisdiction defense by litigating the merits against Plaintiffs.

Because Pfizer has no argument that the state
courts erred or created any form of precedential conflict in holding that extended merits litigation can
waive a personal jurisdiction defense, its argument
necessarily boils down to the assertion that the trial
––––––––––––––––––––––––

absurdity of Pfizer’s remark that “there is no doubt that plaintiffs’ counsel will pursue a similar tack in future cases if the
rulings in this case are allowed to stand.” Pet. 11; see also Pet.
17 (“[T]hat is precisely what Plaintiffs attempted here – to force
Pfizer to give up its right to removal or give up personal jurisdiction.”). Plaintiffs’ counsel assures this Court that Plaintiffs
did not pursue a tack of spending years tied up in federal court
following Pfizer’s faulty CAFA removals as part of a plot to
somehow force Pfizer to forfeit its personal jurisdiction defense.
Pfizer’s forfeiture was all its own.

23
court was wrong to find that it litigated on the merits. That assertion, however, is nothing more than a
fact-bound claim that the lower court erred in its understanding of the course of proceedings in this case.
Such a claim of error is not a ground for the exercise
of this court’s discretionary review—especially when
the asserted error was made in an unreported opinion by a state trial court and determined not to warrant discretionary appellate review in similarly unreported decisions of an intermediate appellate court
and state supreme court. In any event, the claim of
error is meritless: The state court’s ruling was correct.
A. Pfizer sought discovery from Plaintiffs
without asserting its personal jurisdiction
defense.
As detailed above, Pfizer asked Judge Gergel in
the MDL court to enter an order requiring Plaintiffs
to provide discovery regarding where and when they
obtained their Lipitor, including pharmacy records.
R.Ex.Vol.6, at 1283-91. Pfizer conceded that this discovery was directed at the merits of Plaintiffs’ claims.
Id. at 1288 (“The information at issue is important to
evaluating the viability of Plaintiffs’ claims against
McKesson and it therefore bears on both the merits
of those claims and the jurisdictional issues that this
Court will be deciding.”).
Pfizer also successfully sought to impose other
discovery obligations on Plaintiffs. At Pfizer’s request, Plaintiffs were require to participate in the
depositions of so-called “common witnesses” in the
MDL proceeding. Id. at 1283 n.1 (“Pfizer submits
that, to the extent the Court stays Plaintiffs’ discov-

24
ery obligations, it should not exempt Plaintiffs from
participation in depositions of common witnesses in
the MDL . . . ”); R.Ex.Vol.6, at 1340, ¶ 2 (granting
Plaintiffs’ motion to stay discovery in part only and
stating, “The Parties in these cases are NOT exempt
from participation in the depositions of common witnesses in the MDL”).
This requirement, sensible as it might seem, nevertheless reflected an affirmative request by Pfizer to
the MDL court – a court that possessed personal jurisdiction only if the California transferor court and
the California state court did 20 – for relief that presumed the MDL court’s power to afford that relief.
Moreover, the common witness depositions played a
significant role in the exclusion of the MDL plaintiffs’
general and specific causation experts, which in turn
formed the basis for Pfizer’s omnibus motion for
summary judgment against all plaintiffs, including
California Plaintiffs.
B. Pfizer moved for summary judgment
against Plaintiffs without asserting its personal jurisdiction defense.
Pfizer didn’t just seek discovery against Plaintiffs
in the MDL court – it moved for summary judgment
––––––––––––––––––––––––

See, e.g., In re Testosterone Replacement Therapy Prods.
Liab. Litig., 136 F. Supp. 3d 968, 973 (N.D. Ill. 2015) (“Follow20

ing a transfer [to an MDL], the transferee judge has all the jurisdiction and powers over pretrial proceedings in the actions
transferred to him that the transferor judge would have had in
the absence of transfer.”) (internal quotation omitted); see also
In re “Agent Orange” Prod. Liab. Litig., 818 F.2d 145,163 (2d
Cir. 1987); In re FMC Corp. Patent Litig., 422 F. Supp. 1163,
1165 (J.P.M.L. 1976).

25
against them. After Pfizer secured favorable rulings
from the MDL court on the admissibility of the MDL
plaintiffs’ causation experts, Pfizer filed an omnibus
motion for summary judgment (the MSJ) against all
plaintiffs in the MDL. App. 97-119.
Mischaracterizing both its own MSJ briefing and
the state court’s order denying its personal jurisdiction motion, Pfizer now claims that, in holding that
Pfizer forfeited its personal jurisdiction defense by
seeking a merits determination, the state court relied
solely on language in a footnote in Pfizer’s reply brief
and that the footnote didn’t reflect a request for
summary judgment. Pet. 10, 23-24:
In [the concluding] footnote [of Pfizer’s
reply], Pfizer stated that the MDL
judge, after finding subject matter jurisdiction in these cases, could ‘issue a
similar order’ commencing summary
judgment procedures in these cases as it
had done for the others in the MDL. . . .
The [state] court held that Pfizer’s
statement was ‘seeking a ruling on the
merits of the California cases’ that forfeited its jurisdictional defenses in California state court.
Pet. 23 (emphasis added). The state court’s order and
Pfizer’s MSJ and reply brief belie these assertions.
Pfizer was not merely advising the MDL court that it
could one day commence summary judgment proceedings against Plaintiffs – Pfizer was actively seeking summary judgment against Plaintiffs right then
and there.

26
When indicating which plaintiffs it sought summary judgment against, Pfizer’s MSJ referenced “all
Plaintiffs” eight separate times. 21 Then, as the state
court noted in its order denying Pfizer’s personal jurisdiction motion, Pfizer concluded its MSJ with
these words: “ . . . Defendants are entitled to summary judgment in all cases.” Pet. App. 5 (emphasis
added) (quoting App. 117). Having closely parsed
Pfizer’s MSJ, the state court had no trouble concluding that this MSJ was made against “all [p]laintiffs”
in the MDL, which included Plaintiffs. Pet. App. 5-6;
(“ . . . Pfizer . . . made no exception from [its] Omnibus Motion for Summary Judgment as to the nonCalifornia Plaintiffs in the California cases . . . .”).
Pfizer’s MSJ thus included Plaintiffs. 22
Pfizer’s reply brief in support of its MSJ reinforced the state court’s conclusion. The court’s order
noted that, in its reply brief, Pfizer “maintained [its]
position that ‘the record and the law . . . require en––––––––––––––––––––––––
21

App. 98, 105 (three times), 106, 114 (three times).

This holding could not have surprised Pfizer. During the
hearing on Pfizer’s motion to dismiss, before Pfizer’s counsel
began his prepared remarks, the state court judge expressed
concern that Pfizer was failing to give credence to Plaintiffs’
contention that, by moving for summary judgment, Pfizer forfeited its personal jurisdiction defense:
22

So I’m concerned about the summary judgment. So
[Pfizer] cite[s] federal authority that says that when
you submit the merits of the case to the court, you’ve
submitted to the jurisdiction of the court. [¶] And I’m
quite concerned about that in the context of the summary judgment proceeding, which in your reply [in
support of Pfizer’s motion to dismiss] is the [last] thing
you address. I think it’s probably [the last] because it’s
the hardest to address.

27
try of summary judgment in all cases.’” Pet. App. 6
(emphasis added). Pfizer stated in the reply brief
that the MDL court “has subject matter jurisdiction
over all cases in the MDL and the [c]ourt’s expert
rulings warrant summary judgment in every case.”
Pet. App. 51-52 (emphasis added). Making clear that
Pfizer was seeking summary judgment against
Plaintiffs as part of its omnibus MSJ, Pfizer’s reply
brief asked for alternative relief only if the MDL
court was not then willing to grant summary judgment against Plaintiffs: “To the extent the Court defers ruling on summary judgment in cases where
Plaintiffs have moved to remand, Defendants reserve
the right to renew their motion and seek other relief
at an appropriate time.” Pet. App. 52 (emphasis added). 23 And, as the state court indicated, in both its
MSJ and its reply brief, even as Pfizer sought summary judgment against all plaintiffs, Pfizer failed to
make any reference to its boilerplate personal jurisdiction defense. Pet. App. 5-6.
Pfizer is simply wrong in asserting now that it
didn’t try to take advantage of the MDL court’s rulings against the MDL plaintiffs’ causation experts to
obtain merits relief against Plaintiffs. Pfizer clearly
did so. Accordingly, Pfizer litigated the merits of
Plaintiffs’ claims in the MDL court and thereby forfeited its personal jurisdiction challenge.
––––––––––––––––––––––––

The language Pfizer employed in this sentence is incompatible with Pfizer’s contention in its petition that it was merely
alerting the MDL court that summary judgment proceedings
against Plaintiffs could be commenced sometime in the future.
A party does not reserve a right to renew its summary judgment motion should the court defer ruling on that motion if the
motion is not presently being made.
23

28
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be denied.
Respectfully submitted,
CHARLES G. ORR
BARON & BUDD, P.C.
3102 Oak Lawn Ave.,
#1100
Dallas, Texas 75219
(214) 521-3605

BURTON LEBLANC

Counsel of Record

BARON & BUDD, P.C.
2600 Citiplace Dr.
Baton Rouge, LA 70808
(225) 927-5441
bleblanc@baronbudd.com

Attorneys for respondents Alida Adamyan, et al.
October 23, 2019

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Answer to Petition for Review in the
Supreme Court of the State of
California, No. S255942
(June 26, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Plaintiffs’ Opposition to Defendant
Pfizer Inc. and Greenstone LLC’s
Motion to (1) Quash Service of
Summons with Regard to the Claims
of Non-California Plaintiffs for Lack of
Personal Jurisdiction; or (2) Dismiss
the Claims of Non-California Plaintiffs
for Forum Non Conveniens in the
Superior Court of the State of
California, County of Los Angeles,
Central Civil West, No. JCCP 4761
(September 21, 2018) . . . . . . . . . App. 41
Appendix C Defendants’ Omnibus Motion for
Summary
Judgment
and
Memorandum in Support in the
United States District Court for the
District of South Carolina, Charleston
Division, MDL No. 2:14-mn-02502-RMG
(June 24, 2016) . . . . . . . . . . . . . . App. 97

App. 1

APPENDIX A
IN THE
SUPREME COURT OF THE
STATE OF CALIFORNIA
Case No.: S255942
[Filed June 26, 2019]
_____________________________
PFIZER INC., et al.
)
)
Petitioners,
)
)
v.
)
)
THE SUPREME COURT OF
)
CALIFORNIA, COUNTY OF
)
LOS ANGELES,
)
)
Respondent;
)
)
NON-CALIFORNIA
)
RESIDENTS, et al.,
)
)
Real Parties in Interest.
)
_____________________________ )
After a Decision by the Court of Appeal
Second Appellate District, Division One
Court of Appeal No. B296917

App. 2
Superior Court, Los Angeles County,
JCCP 4761, Hon. Carolyn Kuhl, Judge
___________________________________________
ANSWER TO PETITION FOR REVIEW
___________________________________________
ROBINS CLOUD LLP
Bill Robins III (SBN 296101)
808 Wilshire Blvd., Suite 450
Santa Monica, CA 90401
Tel: (310) 929-4200
Fax: (310) 566-5900
robins@robinscloud.com
Attorneys for Real Parties in
Interest/Plaintiffs

App. 3
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . 4
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . 5
REASONS WHY REVIEW SHOULD BE DENIED. .6
BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
I.

Plaintiffs began filing cases in California
state court in 2013 and early 2014. . . . . . . 8

II.

In March 2014, Pfizer removed the
California cases without raising personal
jurisdiction or FNC challenges. . . . . . . . . . 9

III.

Pfizer litigated the merits against the
JCCP Plaintiffs (including moving for
summary judgment against them). . . . . . 11
A.

Pfizer sought discovery from the
JCCP Plaintiffs. . . . . . . . . . . . . . . . 11

B.

Pfizer sought summary judgment
against the JCCP Plaintiffs. . . . . . 13

IV.

The JCCP Plaintiffs’ cases were
remanded back to California federal
court, whereupon Pfizer indicated
personal jurisdiction is “moot” if the
California federal courts keep the cases. .15

V.

Rather than asserting its PJ/FNC motion,
Pfizer instead removed the JCCP
Plaintiffs’ cases a second time. . . . . . . . . 16

ARGUMENT AND AUTHORITIES . . . . . . . . . . . . 19

App. 4
I.

II.

Far from “unprecedented,” the JCCP
court’s decision followed federal case law
almost directly on point. . . . . . . . . . . . . . 20
A.

Hamilton discussed. . . . . . . . . . . . 21

B.

Hamilton applied. . . . . . . . . . . . . . 23

Pfizer litigated the merits against the
JCCP Plaintiffs before seeking dismissal
on PJ/FNC ground.. . . . . . . . . . . . . . . . . . 25
A.

Pfizer sought discovery from the
JCCP Plaintiffs without asserting
its PJ/FNC defenses. . . . . . . . . . . . 25

B.

Pfizer moved for summary
judgment against the JCCP
Plaintiffs without asserting its
PJ/FNC defenses. . . . . . . . . . . . . . 27
1.

Judge Kuhl relied on more
than just a single footnote. . 28

2.

The language in Pfizer’s
reply brief reflects that
Pfizer sought summary
judgment
against
the
JCCP Plaintiffs. . . . . . . . . . 29

III.

Neither Ruhrgas nor anything else
precluded Pfizer from timely moving to
dismiss on PJ/FNC grounds. . . . . . . . . . . 32

IV.

The JCCP court properly exercised its
broad discretion to deny Pfizer’s FNC
motion. . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

App. 5
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42
CERTIFICATE OF COMPLIANCE . . . . . . . . . . . . 44
CERTIFICATE OF SERVICE . . . . . . . . . . . . . . . . . 45

App. 6
TABLE OF AUTHORITIES
CASES
Bristol-Myers Squibb Co. v. Superior Court,
137 S. Ct. 1773 (2017). . . . . . . . . . . . . . . . . . . . . 35
Hamilton v. Atlas Turner, Inc.,
197 F.3d 58 (2d. Cir. 1999) . . . . . . . . . . . . . passim
In re “Agent Orange” Prod. Liab. Litig.,
818 F.2d 145 (2d Cir. 1987) . . . . . . . . . . . . . . . . . 6
In re FMC Corp. Patent Litig.,
422 F. Supp. 1163 (J.P.M.L. 1976) . . . . . . . . . . . . 6
In re Testosterone Replacement Therapy Prods.
Liab. Litig.,
136 F. Supp. 3d 968 (N.D. Ill. 2015). . . . . . . . . . . 6
Mansour v. Superior Court
(1995) 38 Cal. App. 4th 1750 . . . . . . . . . . . . . . . 27
Peterson v. Highland Music, Inc.,
140 F.3d 1313 (9th Cir. 1998). . . . . . . . . . . . . . . 20
Rice v. Nova Biomedical Corp.,
38 F.3d 909 (7th Cir. 1994). . . . . . . . . . . . . . . . . 20
Ruhrgas AG v. Marathon Oil Co.,
526 U.S. 574 (1999). . . . . . . . . . . . . . . 7, 11, 32, 33
STATUTES AND RULES
28 U.S.C. § 1332(d)(11)(C)(I) . . . . . . . . . . . . . . . . . . 17

App. 7
Real Parties in Interest (the JCCP Plaintiffs against
whom Pfizer waited five years to raise threshold
personal jurisdiction and forum non conveniens (FNC)
motions) respectfully submit this Answer to Pfizer’s
Petition for Review.
QUESTIONS PRESENTED
1. Did the Court of Appeal err in summarily
denying Pfizer’s Petition for Writ of Mandate where the
JCCP court, in evaluating Pfizer’s extensive litigation
conduct over a several-year period and across
numerous different courts, determined that Pfizer
forfeited its personal jurisdiction defense by failing to
raise it despite numerous opportunities to do so and by
moving for summary judgment against the JCCP
Plaintiffs?
JCCP Plaintiffs’ Answer: No.
Pfizer’s Answer: Yes.
2. Did the Court of Appeal err in summarily
denying Pfizer’s Petition for Writ of Mandate where the
JCCP court exercised considerable discretion in
declining to dismiss the JCCP Plaintiffs’ claims under
the equitable doctrine of FNC?
3. JCCP Plaintiffs’ Answer: No.
4. Pfizer’s Answer: Yes.
REASONS WHY REVIEW SHOULD BE DENIED
For five years, Pfizer did everything it could to avoid
litigating the JCCP Plaintiffs’ claims in California state
court except seek dismissal on personal jurisdiction or

App. 8
FNC grounds. Passing on numerous opportunities to
raise these issues, Pfizer chose instead to litigate
against the JCCP Plaintiffs in the MDL court (which,
although located in South Carolina, was a California
court for purposes of personal jurisdiction1) and in
California federal court. Moreover, Pfizer moved for
summary judgment against the JCCP Plaintiffs while
the cases were in the MDL court.
Accordingly, there are at least four reasons why this
Court should deny Pfizer’s Petition for Review:
1. Pfizer claims that the JCCP court’s refusal to
dismiss on personal jurisdiction grounds “is quite
literally unprecedented.” Pet. at 9. Pfizer is wrong.
Judge Kuhl relied on a remarkably similar case,
Hamilton v. Atlas Turner, Inc., 197 F.3d 58 (2d. Cir.
1999), in determining that Pfizer forfeited its personal
jurisdiction defense. Judge Kuhl described Hamilton at
length and noted that “[t]he facts of Hamilton are
similar to those presented here.” Order at 5:26-7:28.
Like the defendant in Hamilton, Pfizer chose to forego
numerous opportunities to assert its personal
jurisdiction defense, thereby forfeiting it.
2. Pfizer moved for summary judgment against the
JCCP Plaintiffs. Pfizer acknowledges that “federal law
1

See, e.g., In re Testosterone Replacement Therapy Prods. Liab.
Litig., 136 F. Supp. 3d 968, 973 (N.D. Ill. 2015) (“Following a
transfer [to an MDL], the transferee judge has all the jurisdiction
and powers over pretrial proceedings in the actions transferred to
him that the transferor judge would have had in the absence of
transfer.”) (internal quotation omitted); see also In re “Agent
Orange” Prod. Liab. Litig., 818 F.2d 145,163 (2d Cir. 1987); In re
FMC Corp. Patent Litig., 422 F. Supp. 1163, 1165 (J.P.M.L. 1976).

App. 9
is unmistakably clear that forfeiture occurs when a
party litigates on the merits, not jurisdiction.” Pet. at
10. JCCP Plaintiffs agree. Pfizer’s assertion that it
didn’t seek merits disposition against the JCCP
Plaintiffs is belied by the motion for summary
judgment and reply in support of that motion that
Pfizer filed in the MDL. Judge Kuhl discussed this at
length, yet Pfizer treats Judge Kuhl’s order as if she
didn’t.
3. Ruhrgas AG v. Marathon Oil Co., 526 U.S. 574
(1999), supports Judge Kuhl’s decision. Pfizer strangely
claims that the federal courts in this case were
precluded by Ruhrgas from deciding personal
jurisdiction before deciding subject matter jurisdiction.
This makes no sense. Ruhrgas held that both subject
matter and personal jurisdiction are threshold issues
that should be decided early in the litigation and that
a trial court is free to decide it lacks personal
jurisdiction before determining whether it has subject
matter jurisdiction. The only reason the federal court
here couldn’t decide personal jurisdiction first, before
subject matter, is because Pfizer never raised personal
jurisdiction in those courts, choosing instead to
challenge personal jurisdiction only after five years of
litigation, and only to avoid being in state court.
Nothing in Ruhrgas compels a different result than the
one Judge Kuhl and the Court of Appeal reached here.
4. Before it moved for dismissal on FNC grounds,
Pfizer invoked the benefits of coordination at every step
of the five-year journey it forced the JCCP Plaintiffs to
take through dozens of courts. The JCCP court was

App. 10
well within its broad discretion to deny Pfizer’s FNC
motion.
BACKGROUND
I.

Plaintiffs began filing cases in California
state court in 2013 and early 2014.

Lipitor plaintiffs began filing claims in California
state court in mid-2013. R. Ex. Vol. 2, at 167, ¶ 4. In
September 2013, a handful of plaintiffs sought creation
of a JCCP to manage the Lipitor cases efficiently. R.
Ex. Vol. 2, at 206-29. The Judicial Council granted the
coordination petition in early December 2013. R. Ex.
Vol. 2, at 231-32.
By the date of the first status conference in the
JCCP (February 25, 2014), about 1,800 plaintiffs
(including hundreds of non-California residents) had
filed Lipitor personal injury claims in California state
court. R. Ex. Vol. 2, at 240:25-28.
II.

In March 2014, Pfizer removed the
California cases without raising personal
jurisdiction or FNC challenges.

Pfizer responded to this wave of California filings
not by asserting a personal jurisdiction or forum
challenge but by removing all cases to federal court as
an alleged CAFA mass action. R. Ex. Vol. 2, at 268301.2 Nowhere in any removal pleadings did Pfizer say

2

In the record below, Plaintiffs provided pleadings from individual
cases that are substantially similar to those the parties filed in all
the removed California state court actions in the California and
federal MDL courts. R. Ex. Vol. 2, at 167, ¶ 7.

App. 11
the California federal courts to which Pfizer was
removing the cases lacked personal jurisdiction over
Pfizer or were inconvenient forums. R. Ex. Vol. 2, at
167, ¶ 7.
Concurrently with removal, Pfizer sought transfer
of the cases to the recently created federal MDL. R. Ex.
Vol. 2, at 309-11. Pfizer also filed motions to stay
pending transfer. R. Ex. Vol. 6, at 1260-73. Again,
nothing in these or Pfizer’s other removal-related
pleadings suggested that Pfizer intended to raise
personal jurisdiction or forum challenges. R. Ex. Vol. 2,
at 167-68, ¶ 8.3
Once in the JPML, many JCCP Plaintiffs filed
motions asking the JPML to send the cases back to
California federal court for resolution of Plaintiffs’
remand motions. R. Ex. Vol. 2, at 319-25. Pfizer
opposed such motions, urging that the common issues
raised across all the cases should be decided by a single
judge (the MDL judge). R. Ex. Vol. 2, at 327-38.
Pfizer’s strategic decision to not raise personal
jurisdiction challenges at this stage is in sharp contrast
to what Pfizer did in Lipitor cases filed in Missouri
state court. In many of those cases (unlike the
California cases), concurrent with its removals, Pfizer
moved to dismiss the claims of the non-Missouri
residents alleging lack of personal jurisdiction. R. Ex.

3

Pfizer filed federal court answers in which they mention personal
jurisdiction and forum in a long list of boilerplate affirmative
defenses. R. Ex. Vol. 5, at 1212, 1254-55 (FNC mentioned as
affirmative defense number 34 of 37, and personal jurisdiction
mentioned as affirmative defense number 35 of 37).

App. 12
Vol. 2, at 372-87.4 Pfizer then urged the MDL court to
address personal jurisdiction first, before deciding
subject matter jurisdiction. R. Ex. Vol. 3, at 419-20. So
even while Pfizer was seeking a ruling that all
California state court Lipitor cases belonged in federal
court (without raising personal jurisdiction challenges
to those cases), Pfizer was simultaneously urging the
federal courts – Missouri and MDL – to dismiss the
claims of non-Missouri plaintiffs for lack of personal
jurisdiction.
III.

Pfizer litigated the merits against the
JCCP Plaintiffs (including moving for
summary judgment against them).
A.

Pfizer sought discovery from the
JCCP Plaintiffs.

Once in federal court, Pfizer invoked the court’s
power over the cases by seeking discovery from the
JCCP Plaintiffs. At the first status conference after
their cases arrived in the MDL, Plaintiffs advised the
MDL judge (Judge Gergel) that they would seek to stay
imminent discovery obligations (Plaintiff Fact Sheets
[PFSs] would be due 30 days from the date of transfer
into the MDL) pending determination of their
4

When Missouri plaintiffs asserted that the federal court should
decide subject matter jurisdiction first, before addressing personal
jurisdiction, Pfizer replied that “[t]h[e] [c]ourt can and should
decide Pfizer’s motion to dismiss for lack of personal jurisdiction
before deciding whether federal subject-matter jurisdiction exists
because the [c]ourt ‘has before it a straightforward personal
jurisdiction issue presenting no complex question of state law.” R.
Ex. Vol. 2, at 389 (quoting Ruhrgas AG v. Marathon Oil Co., 526
U.S. 574, 588 (1999)).

App. 13
forthcoming remand motions. R. Ex. Vol. 3, at 478:22481:2. Pfizer’s counsel responded that “at a minimum”
the California state court Lipitor Plaintiffs should be
ordered to “provide [to Pfizer] pharmacy information,
proof of use, and, you know, information.” Id. at 482:18483:2.
Pfizer asked the MDL court to impose two distinct
discovery obligations on the JCCP Plaintiffs. First,
Pfizer asked the MDL court to require the JCCP
Plaintiffs to “participat[e] in depositions of common
witnesses in the MDL.” R. Ex. Vol. 6, at 1283 n.1.
Second, Pfizer sought an order from the MDL court
compelling the JCCP Plaintiffs to “provide [to Pfizer
and McKesson] (1) the identity and address of the
pharmacies from which the Plaintiffs obtained Lipitor;
(2) the dates on which they purchased or obtained
Lipitor; and (3) a signed authorization to collect records
from their pharmacies.” Id. at 1-2. Pfizer acknowledged
that it intended to use this discovery “to evaluat[e] the
viability of Plaintiffs’ claims against McKesson and
[the discovery] therefore bears on . . . the merits of
those claims.” Id. at 6.
Judge Gergel entered an order partially granting
Plaintiffs’ stay motion, holding that PFS discovery was
stayed but, as Pfizer requested, the JCCP Plaintiffs
“[we]re NOT exempt from participation in the
depositions of common witnesses in the MDL.” R. Ex.
Vol. 6, at 1340, ¶ 2.5 Judge Gergel denied Pfizer the
discovery it sought from the JCCP Plaintiffs, without

5

Nothing about the stay order precluded Pfizer from timely raising
and litigating its PJ/FNC challenge.

App. 14
prejudice. R. Ex. Vol. 6, at 1343-46. But the fact that
Pfizer did not succeed in getting the discovery it
requested does not obviate the fact that Pfizer invoked
the MDL court’s power to order Plaintiffs to provide
that discovery.
B.

Pfizer sought summary judgment
against the JCCP Plaintiffs.

In January 2015, the magistrate judge issued orders
in the California cases rejecting Pfizer’s diversity
arguments but sending the CAFA mass action issue
back to the California federal courts for them to
resolve. R. Ex. Vol. 2, at 170, ¶ 25. Pfizer appealed the
magistrate’s orders to Judge Gergel but failed to raise
personal jurisdiction or FNC in its appeals. R. Ex. Vol.
3, at 536-72.
Meanwhile, Pfizer was litigating the claims of
thousands of plaintiffs whose claims were properly in
the MDL court. Pfizer ultimately persuaded Judge
Gergel that bellwether plaintiffs failed to proffer
admissible expert testimony as to both general and
specific causation. R. Ex. Vol. 2, at 170, ¶ 27. Judge
Gergel then entered a CMO stating that any MDL
plaintiff who believed her case differed from those in
which the causation experts were struck must provide
prompt notice to the court, which would then enter a
briefing schedule for expert witness discovery. R. Ex.
Vol. 3, at 574-75.
Pfizer then filed its omnibus summary judgment
motion (MSJ) in the MDL court on June 24, 2016,
seeking summary judgment “in all cases” in the MDL
(including the JCCP Plaintiffs). R. Ex. Vol. 6, at 1362.

App. 15
Pfizer’s reply in support of its MSJ reiterated that
Pfizer believed the MDL court could and should enter
summary judgment against the JCCP Plaintiffs. R. Ex.
Vol. 6, at 1366-94. In that brief, Pfizer included a
section under the heading “This Court Has Subject
Matter Jurisdiction in All Cases.” Id. at 1391. The first
sentence in that section says, “This Court has subject
matter jurisdiction over all cases in the MDL and the
Court’s expert rulings warrant summary judgment in
every case.” Id.
IV.

The JCCP Plaintiffs’ cases were remanded
back to California federal court,
whereupon Pfizer indicated personal
jurisdiction is “moot” if the California
federal courts keep the cases.

On October 21, 2016, Judge Gergel heard oral
argument on the JCCP Plaintiffs’ remand motions (he
also heard argument on the Missouri plaintiffs’ remand
motions, including personal jurisdiction contentions).
R. Ex. Vol. 6, at 1396-1455. Judge Gergel then issued
a series of remand orders sending the Missouri cases
back to Missouri state court and the California cases to
the JPML with the MDL court’s suggestion that the
cases be returned to California federal court for
determination of the CAFA issue. R. Ex. Vol. 2, at 17172, ¶ 34.
During the first status conference in California after
remand from the MDL, Pfizer’s counsel brought up the
personal jurisdiction issue to claim that Pfizer had not
waived that issue (even though Pfizer had spent years
litigating against the JCCP Plaintiffs without ever
attempting to assert its personal jurisdiction defense).

App. 16
R. Ex. Vol. 6, at 11488:9-17. In the same breath,
however, Pfizer’s counsel also declared that the
personal jurisdiction issue would “be moot” – would “go
away” – if the California federal court determined that
there was CAFA subject matter jurisdiction. Id. at
1488:9-17, 1488:23-25.
California federal judge Cormac Carney heard oral
argument on the California Plaintiffs’ remand motion
on May 22, 2017. R. Ex. Vol. 3, at 608-49. The next day,
Judge Carney issued his order remanding these cases
back to California state court. R. Ex. Vol. 6, at 14921507.
V.

Rather than asserting its PJ/FNC motion,
Pfizer instead removed the JCCP Plaintiffs’
cases a second time.

On remand to the JCCP court, instead of teeing up
a personal jurisdiction/FNC challenge, Pfizer chose to
jockey for position with the JCCP Plaintiffs over how
the cases would be coordinated into the JCCP. Even
while Pfizer was stating, in pleadings and in open
court, that it wanted the benefits of coordination of all
the California cases into this JCCP, Pfizer was trying
to box Plaintiffs into seeking add-on in a way that
arguably would trigger CAFA mass action jurisdiction
so that Pfizer could remove a second time.6

6

See, e.g., R. Ex. Vol. 7, at 1567:26-27 (noting, in status report’s
“Defendants’ position” section prepared by Pfizer several months
after cases had been remanded, that “[a]s of yet, Pfizer has not
filed any jurisdictional briefing as it has been waiting for Plaintiffs
to pick a path forward regarding coordination”).

App. 17
Pfizer’s strategy worked, in a manner of speaking.
After the JCCP court issued sua sponte add-on orders
bringing all the Plaintiffs into the JCCP, Pfizer again
removed the cases en masse as an alleged CAFA mass
action. R. Ex. Vol. 4, at 730-46. Two points merit
mention here: First, the sole basis for federal subject
matter jurisdiction alleged by Pfizer in this second
removal was CAFA mass action, and under CAFA, this
means the cases would stay in California even if
Plaintiffs’ remand motion had proven unsuccessful.7
Second, even assuming Plaintiffs would acquiesce in
the cases being transferred out of California, Judge
Gergel already had closed the MDL to new or
transferred cases, having entered CMOs that
(1) precluded direct filing in the MDL [R. Ex. Vol. 4, at
748], and (2) suggested to the JPML that it no longer
transfer any more cases into the MDL. R. Ex. Vol. 4, at
750-51. So by removing a second time without raising
personal jurisdiction or FNC in its removal notice,
Pfizer was effectively asserting to Judge Carney that
the cases should be litigated in his courtroom, in
Orange County, California.
On May 10, 2018, Judge Carney entered an order
remanding the cases back to the JCCP court. R. Ex.
Vol. 4, at 753-63. Pfizer petitioned for permission to
appeal that order to the Ninth Circuit. R. Ex. Vol. 4, at
765-856. On August 22, 2018, about two weeks after
Pfizer finally filed its PJ/FNC motion in the JCCP

7

Under 28 U.S.C. § 1332(d)(11)(C)(I), a case removed on CAFA
mass action grounds cannot be transferred to an MDL unless 50%
or more of plaintiffs consent to the transfer. Plaintiffs had long
since made clear they would not so consent.

App. 18
court, the Ninth Circuit entered a one-sentence order
denying Pfizer’s petition for permission to appeal. R.
Ex. Vol. 4, at 858. Pfizer filed a petition for en banc
rehearing of the denial of Pfizer’s petition for
permission to appeal [R. Ex. Vol. 4, at 860-85], which
was summarily denied. No. 18-80059, Dkt. 13 (Jan. 22,
2019). Pfizer recently filed a petition for writ of
certiorari in the U.S. Supreme Court. No. 18-1578
(Pfizer Inc. v. Adamyan, et al., pet. filed June 21, 2019).
Meanwhile, in August 2018 (five years after the
first cases were filed in California), Pfizer finally got
around to filing its PJ/FNC motion in the JCCP court
after its second removal proved as unsuccessful as its
first. R. Ex. Vol. 1, at 90-117. Plaintiffs filed their
Opposition [R. Ex. Vol. 2, at 131-65], and the JCCP
court heard argument on the PJ/FNC motion on
February 13, 2019. R. Ex. Vol. 1, 21-58. One month
later, on March 15, 2019, the JCCP court entered its
Opinion and Order denying Pfizer’s PJ/FNC motion. R.
Ex. Vol. 1, at 7-19. Pfizer petitioned the Second Court
of Appeal for a Writ of Mandate. No. B296917 (Petition
for Writ of Mandate, filed April 12, 2019); Pet. at 17.
After the JCCP Plaintiffs filed a preliminary opposition
(but not a full brief) in response, the Court of Appeal
summarily denied the petition on May 13, 2019,
holding, “The respondent court did not err in denying
the motion to quash service of summons for lack of
personal jurisdiction, and the respondent court was
within its discretion in denying the motion to dismiss

App. 19
the action of the ground of FNC.” Order, May 13, 2019;
Pet. at 17.8
ARGUMENT AND AUTHORITIES
Pfizer wants this Court to see this case as BristolMyers redux. It isn’t. Unlike the defendants in BristolMyers, who timely moved to dismiss the cases on
personal jurisdiction grounds after the cases were
coordinated into a JCCP, Pfizer elected to forego its
personal jurisdiction defense and try instead to win the
case on the merits in the MDL court. Only after that
didn’t work as to the JCCP Plaintiffs did Pfizer blow
the dust off its boilerplate personal jurisdiction and
FNC claims and, after having passed on opportunity
after opportunity to raise those defenses, finally assert
them. The JCCP court was correct that, five years in
and fourteen courts (or sets of courts) later, it was too
late for Pfizer to assert a threshold PJ/FNC challenge.
I.

Far from “unprecedented,” the JCCP
court’s decision followed federal case law
almost directly on point.

Pfizer strangely claims that the JCCP court’s
“ruling [that Pfizer forfeited its personal jurisdiction
defense], issued under federal law, is quite literally
unprecedented.” Pet. at 9. The JCCP court not only
followed a long line of federal cases regarding waiver of

8

Pfizer states that “a divided panel of the Court of Appeal affirmed
over a dissent by Judge Baker.” Pet. at 9. Actually, Judge Baker
only noted that he “would issue an order to show cause” requiring
a full brief from the JCCP Plaintiffs. He did not take a position on
the merits.

App. 20
personal jurisdiction through extensive litigation
activity without asserting that defense,9 it discussed at
length and relied on Hamilton v. Atlas Turner, Inc.,
197 F.3d 58 (2d. Cir. 1999), a case almost directly on
point (which is remarkable, given the unique posture of
this coordinated proceeding).
A.

Hamilton discussed.

In Hamilton, the plaintiff filed an asbestos claim in
New York federal district court in June 1994. Id. at 60.
Defendant Atlas’s answer included a personal
jurisdiction defense. Id. That November, the case was
transferred to an MDL proceeding in Pennsylvania. Id.
After more than three years of litigation in the MDL,

9

Federal law on waiver/forfeiture of personal jurisdiction
challenges differs in some significant respects from California law.
Federal Rule of Civil Procedure 12(h)(1) provides that a party
prevents waiver of a personal jurisdiction challenge by including
that defense in its answer. But “Rule 12(h)(1) [only] specifies the
minimum steps that a party must take . . . to preserve a [personal
jurisdiction] defense. It does not follow . . . that a party’s failure to
satisfy those minimum steps constitutes the only circumstance
under which the party [can] waive[] [the] defense. Most defenses,
including . . . lack of personal jurisdiction, may be waived as a
result of the course of conduct pursued by a party during
litigation.” Peterson v. Highland Music, Inc., 140 F.3d 1313, 1318
(9th Cir. 1998). As Judge Posner explained, this is because “[i]t
would defeat the purpose of requiring prompt assertion of the
defense of lack of personal jurisdiction if the defendant, having
raised an objection to personal jurisdiction at the outset as
required, could without any penalty fail or refuse to press it,
creating the impression that he had abandoned it, and not seek to
correct that impression until he appealed from an adverse final
judgment on the merits.” Rice v. Nova Biomedical Corp., 38 F.3d
909, 914 (7th Cir. 1994).

App. 21
the case was transferred back to New York. Id. In
August 1998, more than four years after the case was
filed, Atlas moved to dismiss for lack of personal
jurisdiction. Id. The district court granted that motion.
Id.
While acknowledging that Atlas had “met the
formal requirements of [Rule] 12(h)(1),” the Second
Circuit noted that “a delay in challenging personal
jurisdiction by motion to dismiss may result in waiver
even where . . . the defense was asserted in a timely
answer.” Id. (internal quotation omitted, ellipses in
original). The court then indicated “that the issue is
more properly considered one of forfeiture than of
waiver. The term ‘waiver’ is best reserved for a
litigant’s intentional relinquishment of a known right.
Where a litigant’s action or inaction is deemed to incur
the consequence of loss of a right, or, as here, a defense,
the term ‘forfeiture’ is more appropriate.” Id. at 61.
Noting that review of whether the district court
abused its discretion in holding that Atlas did not
forfeit its personal jurisdiction challenge should involve
“consider[ation] [of] all the relevant circumstances,” the
Second Circuit began its analysis “with the
considerable length of time – four years – between the
assertion of the defense in the answer and the
litigation of the defense in a motion.” Id. Significantly,
the court stated, “Although the passage of time alone is
generally not sufficient to indicate forfeiture of a
procedural right, the time period provides the context
in which to assess the significance of the defendant’s
conduct, both the litigation activity that occurred and

App. 22
the opportunities to litigate the jurisdictional issue that
were foregone.” Id.
The Second Circuit noted that “[c]onsiderable
pretrial activity occurred in this case” during the four
years between Atlas’s answer and its motion to
dismiss. Id. While in the MDL court, Atlas participated
in both merits discovery and settlement conferences.
Id. “Most significantly, Atlas had four distinct
opportunities to move to dismiss during the four-yearinterval [but failed to do so].” Id. Atlas could have
asserted, but chose not to assert, its personal
jurisdiction defense: (1) during the time period before
MDL transfer; (2) by way of objection to MDL transfer
when that was proposed; (3) during the three years the
case was in the MDL; and (4) immediately upon
transfer back to the New York federal court. Id. at 6162. “In sum, Atlas participated in pretrial proceedings
but never moved to dismiss for lack of personal
jurisdiction despite several clear opportunities to do so
during the four-year interval after filing its answer.
These circumstances establish a forfeiture.” Id. at 62.
Thus, the Second Circuit concluded not merely that
Atlas had forfeited its personal jurisdiction challenge,
“but also that this is the rare case where a district
judge’s contrary ruling exceeds the bounds of allowable
discretion.” Id. at 62-63.
B.

Hamilton applied.

Judge Kuhl correctly noted that “[t]he facts of
Hamilton are similar to those presented here.” Order
at 6:17. Like Atlas, Pfizer did not move to dismiss the
claims of the JCCP Plaintiffs upon removal but instead
sought transfer of the cases to the MDL. Pfizer did not

App. 23
seek dismissal for lack of personal jurisdiction during
the lengthy period that the claims of the JCCP
Plaintiffs were in the MDL, but instead sought and
obtained an order requiring the JCCP Plaintiffs to
participate in depositions and sought discovery against
the JCCP Plaintiffs to establish that their claims
lacked merit as to McKesson. And, as discussed below,
Pfizer sought summary judgement against the JCCP
Plaintiffs in the MDL. Finally, upon transfer of the
cases back to California federal court, Pfizer again did
not seek dismissal based on lack of personal
jurisdiction (or on FNC grounds) but instead told the
Orange County-based federal court that the personal
jurisdiction issue would be mooted by an order denying
the JCCP Plaintiffs’ remand motion.10
The JCCP court discussed Hamilton (and other
federal authorities also on point) at length in
concluding that Pfizer’s extensive litigation conduct in
the federal courts amounted to a forfeiture of its
personal jurisdiction defense. Order at 5:26-7:28. Pfizer
tries to portray the JCCP court’s order as
“unprecedented” by belatedly trying to re-frame the
issue, arguing that all it did (during the five-yearperiod between when the JCCP Plaintiffs first began
filing claims and when it finally got around to asserting

10

“[W]e have a personal jurisdiction affirmative defense that
. . . we think it will be moot frankly to the extent that we’re
here before Your Honor in this Court, as we think we
should be under CAFA. . . . The [personal] jurisdictional
issue goes away to the extent that Your Honor determines
that there’s CAFA jurisdiction.”

R. Ex. Vol. 6, at 1488:9-25.

App. 24
its personal jurisdiction defense) was “litigate subject
matter jurisdiction.” Pet. at 9-10, 22, 23. But as shown
below, that is not what Pfizer did.
II.

Pfizer litigated the merits against the
JCCP Plaintiffs before seeking dismissal on
PJ/FNC ground.

Pfizer acknowledges that “federal law is
unmistakably clear that forfeiture [of a defendant’s
personal jurisdiction defense] occurs when a party
litigates on the merits, not jurisdiction.” Pet. at 10. The
JCCP Plaintiffs agree. And Pfizer forfeited its personal
jurisdiction defense against the JCCP Plaintiffs, first,
by seeking discovery as to them, and then (more
importantly), by moving for summary judgment against
them.
A.

Pfizer sought discovery from the
JCCP Plaintiffs without asserting its
PJ/FNC defenses.

As detailed above, Pfizer asked Judge Gergel in the
MDL court to enter an order requiring the JCCP
Plaintiffs to provide discovery regarding where and
when they obtained their Lipitor, including pharmacy
records. R. Ex. Vol. 6, at 1283-91. Pfizer conceded that
this discovery was directed at the merits of the JCCP
Plaintiffs’ claims. Id. at 1288 (“The information at issue
is important to evaluating the viability of Plaintiffs’
claims against McKesson and it therefore bears on both
the merits of those claims and the jurisdictional issues
that this Court will be deciding.”).
Pfizer also sought, and was granted, additional
discovery requirements against the JCCP Plaintiffs.

App. 25
Specifically, at Pfizer’s request, the JCCP Plaintiffs
were obligated to participate in the depositions of socalled “common witnesses” in the MDL proceeding. Id.
at 1283 n.1 (“Pfizer submits that, to the extent the
Court stays Plaintiffs’ discovery obligations, it should
not exempt Plaintiffs from participation in depositions
of common witnesses in the MDL . . . ”); R. Ex. Vol. 6,
at 1340, ¶ 2 (granting JCCP Plaintiffs’ motion to stay
discovery in part only and stating, “The Parties in
these cases are NOT exempt from participation in the
depositions of common witnesses in the MDL”). This
requirement, while seemingly sensible since the JCCP
Plaintiffs were either going to litigate their claims in
the MDL or in California courts and might as well
participate in common witness depositions for the sake
of comity and efficiency, nevertheless reflected an
affirmative request by Pfizer to the MDL court – a
court with that level of personal jurisdiction only that
the California transferor courts had – for relief that
presumed the MDL court’s power to afford that relief.
Seeking a court order requiring the JCCP Plaintiffs to
participate in discovery is both a general appearance
under California law and a forfeiture of personal
jurisdiction under federal law. Mansour v. Superior
Court (1995) 38 Cal. App. 4th 1750, 1757 (California
law); Hamilton, 197 F.3d at 61 (federal law).
B.

Pfizer moved for summary judgment
against the JCCP Plaintiffs without
asserting its PJ/FNC defenses.

Pfizer didn’t just seek discovery against the JCCP
Plaintiffs in the MDL court – it also included the JCCP
Plaintiffs in an omnibus summary judgment motion

App. 26
(MSJ). After Pfizer secured favorable rulings from the
MDL court on the admissibility of the MDL plaintiffs’
causation experts, Pfizer asked Judge Gergel to grant
summary judgment against all plaintiffs in the MDL.
R. Ex. Vol. 6, at 1348-64. Pfizer didn’t just make it
clear once in its MSJ that it was seeking summary
judgment against all plaintiffs then in the MDL (which
included the JCCP Plaintiffs): When indicating which
plaintiffs it sought summary judgment against, Pfizer’s
MSJ references “all Plaintiffs” seven separate times.11
Then, as Judge Kuhl noted, Pfizer ended its MSJ with
these words: “ . . . Defendants are entitled to summary
judgment in all cases.” R. Ex. Vol. 1, at 9:5-6 (emphasis
added) (quoting R. Ex. Vol. 6, at 1362).
1.

Judge Kuhl relied on more than
just a single footnote.

Pfizer now claims that Judge Kuhl relied only on
language in a footnote in Pfizer’s reply brief in holding
that Pfizer forfeited its personal jurisdiction challenge
by moving for summary judgment against the JCCP
Plaintiffs: “Nor is there merit to the Superior Court’s
alternate basis for finding forfeiture – that Pfizer
showed intent to litigate the merits by referring to
these cases in a single footnote of a reply brief in
support of summary judgment in other cases in the
Lipitor MDL.” Pet. at 10. Pfizer further asserts that the
footnote at issue “specifically stated that any future
summary judgment motion in these cases was
contingent on the court finding it had subject matter

11

R. Ex. Vol. 6, at 1349, 1353 (twice), 1354 (twice), and 1360
(twice).

App. 27
jurisdiction proper, which it did not.” Pet. at 10. Close
analysis of Pfizer’s Reply Brief, as well as the JCCP
court’s order, belies these assertions.
Judge Kuhl recognized that Pfizer’s MSJ was made
against “all Plaintiffs” in the MDL, which included the
JCCP Plaintiffs. R. Ex. Vol. 1, at 9:5-14 (“. . . Pfizer . . .
made no exception from [its] Omnibus Motion for
Summary Judgment as to the non-California Plaintiffs
in the California cases . . . .”). Then, Judge Kuhl noted
that in its reply brief, Pfizer “maintained [its] position
that ‘the record and the law . . . require entry of
summary judgment in all cases.’” R. Ex. Vol. 1, at 9:2025 (quoting R. Ex. Vol. 6, at 1374). Judge Kuhl noted
that in both instances, even as Pfizer sought summary
judgment against all plaintiffs, Pfizer failed to make
any reference to the boilerplate affirmative defense
that the MDL court lacked personal jurisdiction over
Pfizer. R. Ex. Vol. 1, at 9:5-25.
2.

The language in Pfizer’s reply
brief reflects that Pfizer sought
summary judgment against the
JCCP Plaintiffs.

Here is a cut-and-paste of what Pfizer actually said
in its reply in support of its omnibus MSJ:
IV.

THIS COURT HAS SUBJECT MATTER
JURISDICTION IN ALL CASES

This Court has subject matter jurisdiction over all
cases in the MDL and the Court’s expert rulings
warrant summary judgment in every case.9 Certain
Plaintiffs contend that their cases should not be subject
to Defendants’ motion because they moved to remand.

App. 28
[1583, 1584] Pfizer incorporates its oppositions to
Plaintiffs’ remand motions and its objections to
recommendations by the Magistrate Judge. To the
extent the Court defers ruling on summary judgment
in cases where Plaintiffs have moved to remand,
Defendants reserve the right to renew their motion and
seek other relief at an appropriate time.
9

As to Plaintiffs with remand motions who
asserted that they did not intend to act under
CMO 65, the Court can issue a similar order
after addressing the remand motions. . . .
R. Ex. Vol. 6, at 1391. A sentence-by-sentence analysis
of this section demonstrates that Pfizer was indeed
seeking entry of summary judgment against the JCCP
Plaintiffs:
The Heading – “THIS COURT HAS SUBJECT
MATTER JURISDICTION IN ALL CASES.”
• Subject matter jurisdiction was not at issue for
the 3,000 plaintiffs who either chose to be in the
MDL or who acquiesced in transfer to the MDL.
So this section isn’t about them. This section is
about the JCCP Plaintiffs, who asserted the
MDL court did not have subject matter
jurisdiction over them. Pfizer is taking the
position that the MDL court has jurisdiction
over the JCCP Plaintiffs.
The First Sentence – “This Court has subject matter
jurisdiction over all cases in the MDL and the Court’s
expert rulings warrant summary judgment in every
case.”

App. 29
• This sentence sets forth Pfizer’s position that the
MDL court has the power to grant summary
judgment against every case in the MDL, which
included the JCCP Plaintiffs, and that summary
judgment is warranted in every case.
The Second Sentence – “Certain Plaintiffs contend that
their cases should not be subject to Defendants’ motion
because they moved to remand. [1583, 1584].”
• This sentence identifies the JCCP Plaintiffs as
asserting that summary judgment against them
would be improper because of their pending
remand motions. The citation to Dkt. # 1583 is a
citation to the JCCP Plaintiffs’ response to
Pfizer’s omnibus MSJ. (Orr Decl. at Ex. CC)
The Third Sentence – “Pfizer incorporates its
oppositions to Plaintiffs’ remand motions and its
objections to recommendations by the Magistrate
Judge.”
• This sentence incorporates Pfizer’s briefing on
the JCCP Plaintiffs’ remand motions. Why
would Pfizer do this – incorporate its opposition
to the remand motions – except to alert the MDL
court that it should deny the remand motions as
part of Pfizer’s summary judgment request?
The Fourth Sentence – “To the extent the Court defers
ruling on summary judgment in cases where Plaintiffs
have moved to remand, Defendants reserve the right to
renew their motion and seek other relief at an
appropriate time.”

App. 30
• This is a request for alternative relief. “To the
extent the Court defers ruling on summary
judgment” is another way of saying Pfizer
doesn’t think the MDL court needs to do that,
but should grant summary judgment against the
JCCP Plaintiffs now. But if the court disagrees
and “defers” the decision against the JCCP
Plaintiffs Pfizer was seeking here, Pfizer wants
the court to know it is seeking summary
judgment against those Plaintiffs now and will
“renew” that motion once the remand issue is
decided. This sentence says, “We want it now
but if the Court feels like it needs to wait, we’ll
renew it later on.”
The Footnote – “As to Plaintiffs with remand motions
who asserted that they did not intend to act under
CMO 65, the Court can issue a similar order after
addressing the remand motions. . . .”
• This footnote really says that there is another
path to summary judgment against the JCCP
Plaintiffs if the MDL court is hesitant to go
there now. It does not say that Pfizer agreed
with those Plaintiffs that summary judgment
would be improper as to those Plaintiffs given
the posture of the case.
In a word, Pfizer is simply wrong in asserting now
that it didn’t try to take advantage of the MDL court’s
rulings against the MDL plaintiffs’ causation experts to
obtain merits relief against the JCCP Plaintiffs. Pfizer
clearly did so. Accordingly, Pfizer litigated the merits
of the JCCP Plaintiffs’ claims in the MDL court,
thereby forfeiting its personal jurisdiction challenge

App. 31
finally made years later once Pfizer realized it was
stuck in California state court.
III.

Neither Ruhrgas nor anything else
precluded Pfizer from timely moving to
dismiss on PJ/FNC grounds.

Pfizer contends that it was precluded, somehow,
from asserting its personal jurisdiction defense by
Ruhrgas AG v. Marathon Oil Co., 526 U.S. 574 (1999).
This argument is as odd as it is wrong.
Pfizer claims that Ruhrgas mandates a sequencing
of threshold jurisdictional issues in these cases (the
MDL court had to decide subject matter first), even as
it made clear that federal courts enjoy discretion to
decide personal jurisdiction before subject matter. Pet.
at 25-26. Pfizer was deliberate in how it framed this
issue, making it appear as though Pfizer is being
punished:
Because “[t]he federal design” affords courts
discretion to sequence their resolution of
jurisdictional issues, [Ruhrgas], at 586-87, it
would be a truly draconian result to penalize
with forfeiture a litigant’s invocation of judicial
discretion to decide one jurisdictional basis
before another. [¶] Thus, by requiring Pfizer to
have litigated the issue of personal jurisdiction
first or lose its right to do so, the [California]
courts below rejected Ruhrgas’s flexible
jurisdictional sequencing in favor of a rigid
hierarchy. They effectively placed themselves in

App. 32
the shoes of the MDL court to compel the
retroactive exercise of its Ruhrgas discretion.
Pet. at 26.
This passage is stunning. It is not even close to
what actually happened. First, Ruhrgas is clear that
jurisdiction, whether over the subject matter or the
litigant, is a threshold matter to be determined before
a court reaches the merits. 526 U.S. at 577-78. Here, as
shown, Pfizer sought a merits determination against
the JCCP Plaintiffs. In so doing, Pfizer not only passed
the threshold, it crossed the Rubicon. See id., 526 U.S.
at 584 (noting that personal jurisdiction is based in
individual liberty and, “[t]herefore, a party may insist
that the limitation [on judicial power] be observed, or
he may forgo that right, effectively consenting to the
court’s exercise of adjudicatory authority”).
Second, nothing in the JCCP court’s order has
anything to do with second-guessing what the MDL
court did or didn’t decide regarding its jurisdiction over
these cases. The JCCP court’s discussion of Ruhrgas
warrants quotation:
[Pfizer’s] reliance on Ruhrgas . . . is misplaced.
The holding in Ruhrgas was that district courts,
which normally first decide the issue of subject
matter jurisdiction, may instead properly decide
the issue of personal jurisdiction at the
outset. . . . The case does not address the issue of
when a defendant forfeits its defense of lack of
personal jurisdiction. Quite the opposite, the
case highlights the fact that [Pfizer] could have
asked the federal courts to first decide the issue

App. 33
of personal jurisdiction before addressing the
issue of subject matter jurisdiction raised by the
Plaintiffs in the California cases.
R. Ex. Vol. 1, at 15:20-27.
Judge Kuhl’s allusion to the fact that Pfizer did not
assert personal jurisdiction in the federal courts is
well-placed. Far from “draconian punishment” of Pfizer
for litigating subject matter first, the JCCP court’s
decision follows logically from the fact that Pfizer failed
to assert its personal jurisdiction defense at all in the
federal courts. Pfizer did not “invoke” the federal
court’s “discretion” to “sequence” its determination of
subject matter jurisdiction before personal jurisdiction
here. It didn’t assert its personal jurisdiction defense
against the JCCP Plaintiffs until long after the federal
courts had twice remanded the cases back to it, almost
five years after the JCCP Plaintiffs began filing their
cases in California state court. (And this, in sharp
contrast to the Missouri state court cases, where Pfizer
moved to dismiss for lack of personal jurisdiction at the
same time it removed the cases.)
Moreover, it’s odd for Pfizer to claim that the federal
courts would have been powerless in any event to
decide personal jurisdiction first (assuming Pfizer had
actually asserted that defense in the federal courts).
Pfizer seems to treat the JCCP Plaintiffs as a monolith
here, claiming that “Pfizer’s personal jurisdiction
defense regarding the non-resident Plaintiffs would
neither dispose of the whole case nor simplify the
consideration of subject matter jurisdiction (given the
presence of a non-diverse forum defendant).” Pet. at 26
(emphasis added). This makes no sense. If the courts

App. 34
(federal or state) lacked personal jurisdiction over the
claims of non-resident Plaintiffs against Pfizer, then an
order so stating would end those cases as to those
Plaintiffs’ claims against Pfizer. See, e.g., Bristol-Myers
Squibb Co. v. Superior Court, 137 S. Ct. 1773 (2017).
What would Pfizer care that those Plaintiffs might
proceed against a co-defendant? And given Pfizer’s
strenuous assertions that BMS compels the same
result here, how can Pfizer plausibly claim that the
personal jurisdiction issues are somehow more complex
than those under CAFA (which has triggered two
removals and years of extensive litigation)?
Finally, the JCCP Plaintiffs feel compelled to
comment on Pfizer’s claim that its willingness to waive
its personal jurisdiction if the cases remain in federal
court raises far different considerations than its
apprehension about being in state court (and thus
neither the JCCP Plaintiffs nor the California state
courts could reasonably infer that Pfizer forfeited its
personal jurisdiction defense by its actions in federal
court). Pet. at 28. There is a reason both federal law
and California state law treat personal jurisdiction as
a threshold issue that must be asserted early or else it
is waived or forfeited. The inefficiencies, and the great
costs to judicial administration, are well illustrated
here by what happens when a party, like Pfizer, waits
several years to finally assert this threshold issue.
Here, Pfizer’s failure to timely move to dismiss on
personal jurisdiction grounds meant that fourteen
different courts (or sets of courts) had to expend
effort, in some instances very significant effort, on
these cases before Pfizer finally got around to
asserting personal jurisdiction:

App. 35
1.

California state courts

2.

California federal courts

3.

The Judicial Panel on Multi-District
Litigation (JPML)

4.

The MDL court

5.

The MDL magistrate judge

6.

The MDL court again

7.

The JPML again

8.

The California federal courts again

9.

A Ninth Circuit panel

10.

The California state courts again

11.

California federal court again

12.

A Ninth Circuit panel again

13.

The Ninth Circuit en banc

14.

The U.S. Supreme Court

Only while the courts in numbers 12-14 above were
addressing Pfizer’s continued attempts to get out of
California state court (and some five years or so after
the first California state court Lipitor cases were filed)
did Pfizer finally move to dismiss on personal
jurisdiction grounds.
Far from treating personal jurisdiction as the
threshold issue that Ruhrgas and long lines of
California state court precedent make clear it is, Pfizer
caused dozens of courts and their staffs to have to

App. 36
expend countless hours on these matters before it
asserted its personal jurisdiction defense. Under these
circumstances, Judge Kuhl did not err in the slightest
in holding that Pfizer forfeited its personal jurisdiction
defense.
IV.

The JCCP court properly exercised its
broad discretion to deny Pfizer’s FNC
motion.

Judge Kuhl did not abuse her considerable
discretion in declining to dismiss the JCCP Plaintiffs
under the equitable doctrine of FNC. At virtually every
step in the long, tortured path that these cases have
taken, Pfizer invoked the efficiencies and conveniences
for the courts, the parties, and the witnesses that flow
from litigating all Lipitor claims in coordinated
proceedings before California courts (or in the MDL,
which is functionally a California court for personal
jurisdiction purposes). Having repeatedly invoked the
benefits that flow from coordination, Pfizer should not
be heard to complain now that California isn’t a
convenient forum after all and the claims of nonresident JCCP Plaintiffs should be scattered across the
other 49 states.
For example, immediately after Pfizer removed the
cases in early 2014, Pfizer filed motions to stay some of
the actions in California federal court pending transfer
of the cases to the MDL. In such motions, Pfizer argued
that a stay pending transfer would “promote efficiency
by allowing joint determination of common issues,” and
would “prevent prejudice to Pfizer, including the risk of
inconsistent rulings from different courts and being
forced to litigate the same issues in multiple forums.”

App. 37
R. Ex. Vol. 6, at 1261. Similarly, when Plaintiffs
objected to Pfizer’s notices of related case, Pfizer’s
response, while recognizing that Plaintiffs raised
jurisdictional objections that other Lipitor cases did not
have, nonetheless urged, “[T]here are . . . substantial
efficiencies to be gained by determination of common
substantive issues, such as causation and warnings, by
a single judge [in a coordinated proceeding].” R. Ex.
Vol. 4, at 912. Pfizer thereafter opposed the JCCP
Plaintiffs’ efforts to prevent transfer of the cases to the
MDL, arguing that the California cases “share common
questions of fact with the Lipitor products liability
actions already pending in the MDL, [and] the
resolution of those common questions in the MDL
would further the convenience of the parties and
witnesses.” R. Ex. Vol. 2, at 327.
Then, once the cases made their way back to the
JCCP court after Judge Carney’s first remand order,
Pfizer established a pattern of invoking the benefits of
coordinating the cases even while resisting being the
party to move for that coordination (so that it could
continue its strategy of trying to get these cases into
federal court). For example, at the July 11, 2017 status
conference in this Court, Pfizer’s counsel told this
Court that “[Pfizer] fully support[s] the coordination
petition. It makes sense. We think there’s a lot of
reasons to have coordination. We’re not looking for
multiple types of litigation around the state or take up
different courts.” R. Ex. Vol. 4, at 929:16-20. During
that same status conference, Pfizer’s counsel reiterated
this point: “We have a different view of what
coordination would be like. [But] [w]e all agree with
coordination.” Id. at 942:6-8. Then again at the August

App. 38
4, 2017 JCCP status conference, Pfizer’s counsel stated,
“We do want coordination, your Honor. You know, and
we’ve all been, you know, candid with the Court.” R.
Ex. Vol. 5, at 1113:6-7.
Pfizer cannot have it both ways. Pfizer cannot claim
on the one hand that it promotes efficiency and
convenience for the parties and witnesses for all the
Lipitor cases to be coordinated into an MDL in
Charleston, South Carolina, but on the other, a JCCP
in Los Angeles County District Court is so inconvenient
that it warrants, five years into the litigation, dismissal
of Plaintiffs’ claims and scattering them across the
country in thousands of different courts. Just as failure
to timely assert personal jurisdictional challenges
results in forfeiture, such unreasonable delay by Pfizer
in asserting a forum defense forfeits its forum
challenge.
Judge Kuhl was appropriately skeptical of Pfizer’s
offer to toll limitations because that offer was laden
with conditions that arguably made it unreasonable
(which included Pfizer’s insistence that Plaintiffs
should have to file their now-coordinated cases as
single-plaintiff actions). R. Ex. Vol. 1, at 16:19-18:1.
Judge Kuhl detailed the “strong reasons in favor of
litigating all of these similar cases in [the] coordinated
proceeding of a complex court,” reasons that Pfizer
itself endorsed for four years and abandoned only upon
filing its PJ/FNC motion:
[Pfizer] repeatedly endorsed the benefits of
litigating all of these claims together. [Pfizer]
twice removed this group of California cases
under [CAFA] without expressing concern that

App. 39
individual evidence (testimony from individual
physicians) would not be able to be effectively
presented. Indeed, . . . [Pfizer] expressed to
[California federal judge] Cormac J. Carney
that, if he kept the cases in federal court,
[Pfizer] would not assert a lack of personal
jurisdiction as to the non-California Plaintiffs.
Thus, [Pfizer] ha[s] endorsed a procedural
posture giving rise to the circumstances [Pfizer]
now argue[s] would create an inconvenient
forum. [Pfizer] ha[s] always, up until now,
advocated for keeping these cases in one forum.
Requiring [Pfizer] to try all, instead of some, of
the cases in California will not pose a great
burden, as [Pfizer] now attempt[s] to assert.
Plaintiffs would greatly benefit from managing
the cases in a coordinated fashion. Plaintiffs
have waited years while their cases have been
removed, transferred, and remanded. It would
be inequitable at this time to require them to
start the process over again in other states.
R. Ex. Vol. 1, at 17:12-18:1. Far from an abuse of
discretion, Judge Kuhl’s FNC decision is equitable,
sound, and well within her substantial discretion, and
there is no reason for this Court to disturb Judge
Kuhl’s or the Court of Appeal’s decisions.
CONCLUSION
For the foregoing reasons, the JCCP Plaintiffs
respectfully request that this Court enter an order
denying Pfizer’s Petition for Review. The JCCP
Plaintiffs further request such other relief to which
they may be entitled.

App. 40
Dated: June 26, 2019

Respectfully submitted,
/s/ Bill Robins III
Bill Robins III
ROBINS CLOUD LLP
808 Wilshire Blvd., Suite 450
Santa Monica, CA 90401
Tel: (310) 929-4200
Fax: (310) 566-5900
robins@robinscloud.com
Attorneys for Real Parties in
Interest/Plaintiffs
***

[Certificate of Compliance and Certificate of Service
Omitted in the Printing of this Appendix]

App. 41

APPENDIX B
Charles G. Orr (admitted pro hac vice)
corr@mulliganlaw.com
THE MULLIGAN LAW FIRM
3710 Rawlins Street, #901
Dallas, Texas 75219
Tel: 214-219-9779
Fax: 214-520-8789
Attorney for JCCP Plaintiffs
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
COUNTY OF LOS ANGELES,
CENTRAL CIVIL WEST
Case No. JCCP 4761
[Filed September 21, 2018]
________________________________
COORDINATION PROCEEDING )
SPECIAL TITLE (RULE 3.550)
)
)
LIPITOR CASES
)
________________________________ )
This document relates to:
)
)
ALL CASES IN WHICH
)
NON-CALIFORNIA RESIDENTS )
HAVE ASSERTED CLAIMS
)
________________________________ )

App. 42
PLAINTIFFS’ OPPOSITION TO DEFENDANT
PFIZER INC. AND GREENSTONE LLC’S MOTION
TO (1) QUASH SERVICE OF SUMMONS WITH
REGARD TO THE CLAIMS OF NON-CALIFORNIA
PLAINTIFFS FOR LACK OF PERSONAL
JURISDICTION; OR (2) DISMISS THE CLAIMS
OF NON-CALIFORNIA PLAINTIFFS FOR
FORUM NON CONVENIENS
Date: Nov. 7, 2018
Time: 1:45 p.m.
Judge: Hon. Carolyn Kuhl
Dept.: 12

App. 43
TABLE OF CONTENTS
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . 2
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . 4
PRELIMINARY STATEMENT . . . . . . . . . . . . . . . . . 6
BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
I.

Plaintiffs began filing cases in California
state court in 2013 and early 2014 . . . . . . 8

II.

In early March 2014, Pfizer executed its
strategic decision to remove the cases as
a mass action (without raising personal
jurisdiction or forum challenges like
Pfizer did in the Missouri state court
cases). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

III.

Pfizer sought relief from the MDL court
and the California federal courts that
those courts could only afford Pfizer if
they had the power to adjudicate the
cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
A.

Pfizer sought discovery from
Plaintiffs . . . . . . . . . . . . . . . . . . . . 11

B.

Pfizer enjoyed success against
plaintiffs in the MDL while the
California Plaintiffs’ remand
motions awaited consideration by
Judge Gergel . . . . . . . . . . . . . . . . . 13

C.

Pfizer sought summary judgment
against Plaintiffs . . . . . . . . . . . . . . 14

App. 44
IV.

Only after Pfizer’s strategic decision to
remove these cases as a CAFA mass
action failed (i.e., after years of litigation)
did Pfizer suddenly decide to mention its
personal jurisdiction and forum
challenges . . . . . . . . . . . . . . . . . . . . . . . . . 15

V.

Even though Pfizer purported to
“preserve” its personal jurisdiction and
forum defenses following the return of the
cases to California, Pfizer was (and still
is) trying to wedge the cases into
California federal court on CAFA
grounds. . . . . . . . . . . . . . . . . . . . . . . . . . . 16

ARGUMENT AND AUTHORITIES . . . . . . . . . . . . 19
I.

Applicable law . . . . . . . . . . . . . . . . . . . . . 19
A.

California law on waiver/forfeiture
of personal jurisdiction and forum
challenges. . . . . . . . . . . . . . . . . . . 19

B.

Federal law on waiver/forfeiture of
personal jurisdiction and forum
challenges. . . . . . . . . . . . . . . . . . . . 21

II.

Pfizer waived/forfeited its PJ/FNC
challenge by removing and answering in
federal court . . . . . . . . . . . . . . . . . . . . . . . 23

III.

Pfizer waived/forfeited its PJ/FNC
challenge by attempting, and continuing
to attempt, to have all the California
JCCP Plaintiffs’ claims litigated in a

App. 45
coordinated proceeding in a California
forum. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

IV.

A.

The Lipitor MDL court had
personal jurisdiction to the extent
the transferor courts – California
courts – had personal jurisdiction .24

B.

Pfizer urged the MDL court to
exercise jurisdiction over the
California Plaintiffs’ claims against
it and have those claims litigated
in that coordinated proceeding. . . 25

C.

Pfizer continues to this day to
claim the California state court
cases all belong in California
federal court in coordinated
proceedings. . . . . . . . . . . . . . . . . . . 26

Pfizer waived/forfeited its PJ/FNC
challenge, not merely by acknowledging
the authority of courts in California
forums over the Lipitor claims of the
California Plaintiffs, but by seeking relief
from those courts against all California
Plaintiffs. . . . . . . . . . . . . . . . . . . . . . . . . . 29
A.

Pfizer sought discovery from
California Plaintiffs without
raising PJ/FNC. . . . . . . . . . . . . . . . 29

B.

Pfizer sought summary judgment
against California Plaintiffs
without raising PJ/FNC. . . . . . . . . 31

App. 46
V.

Pfizer waived/forfeited its PJ/FNC
challenge by repeatedly recognizing the
convenience afforded to the courts and the
parties from litigating the claims of all
California Plaintiffs in California
forums. . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

CONCLUSION AND REQUEST FOR RELIEF . . . 34

App. 47
TABLE OF AUTHORITIES
Federal Cases
Continental Bank, N.A. v. Meyer,
10 F.3d 1293 (7th Cir. 1993). . . . . . . . . . . . . . . . 21
Hamilton v. Atlas Turner, Inc.,
197 F.3d 58 (2d Cir. 1999) . . . . . 22, 23, 29, 30, 32
In re “Agent Orange” Prod. Liab. Litig.,
818 F.2d 145 (2d Cir. 1987) . . . . . . . . . . . . . . . . 25
In re “Agent Orange” Prod. Liab. Litig.,
996 F.2d 1425 (2d Cir. 1993) . . . . . . . . . . . . . . . 23
In re FMC Corp. Patent Litig.,
422 F. Supp. 1163 (J.P.M.L. 1976) . . . . . . . . . . . 25
In re Testosterone Replacement Therapy Prods.
Liab. Litig.,
136 F. Supp. 3d 968 (N.D. Ill. 2015). . . . . . . . . . 25
In re: Helicopter Crash Near Wendle Creek, British
Columbia, on August 8, 2002,
542 F. Supp. 2d 1362 (J.P.M.L 2008) . . . . . . . . . 25
Minemyer v. R-Boc Representatives, Inc.,
283 F.R.D. 392 (N.D. Ill. 2012). . . . . . . . . . . . . . 21
Peterson v. Highland Music, Inc.,
140 F.3d 1313 (9th Cir. 1998). . . . . . . . . . . . 20, 21
Rice v. Nova Biomedical Corp.,
38 F.3d 909 (7th Cir. 1994). . . . . . . . . . . . . . . . . 22
Ruhrgas AG v. Marathon Oil Co.,
526 U.S. 574 (1999). . . . . . . . . . . . . . . . . . . . . . . 10

App. 48
Sirius America Ins Co. v. SCPIE Indem. Co.,
461 F. Supp. 2d 155 (S.D.N.Y. 2006) . . . . . . . . . 24
State Cases
Cal. Overseas Bank v. French Am. Banking Corp.
(1984) 154 Cal. App. 3d 179 . . . . . . . . . . . . . 30, 31
Fireman’s Fund Ins. Co. v. Sparks Constr., Inc.
(2004) 114 Cal. App. 4th 1135 . . . . . . . . . . . . . . 20
Hamilton v. Asbestos Corp.
(2000) 22 Cal. 4th 1127. . . . . . . . . . . . . . . . . . . . 20
Hernandez v. Nat’l Dairy Prods.
(1945) 126 Cal. App. 2d 490 . . . . . . . . . . . . . . . . 30
In re Marriage of Obrecht
(2016) 245 Cal. App. 4th 1 . . . . . . . . . . . . . . 21, 24
In re S.B.
(2004) 32 Cal. 4th 1287. . . . . . . . . . . . . . . . . . . . 20
Lexecon Inc. v. Milberg Weiss Bershad Hynes &
Lerach,
523 U.S. 26 (1998). . . . . . . . . . . . . . . . . . . . . . . . 33
Mansour v. Superior Court
(1995) 38 Cal. App. 4th 1750 . . . 20, 24, 29, 30, 31
Martinez v. Ford Motor Co.
(2010) 185 Cal. App. 4th 9 . . . . . . . . . . . . . . . . . 21
Platt Pacific, Inc. v. Andelson
(1993) 6 Cal. 4th 307. . . . . . . . . . . . . . . . . . . 20, 21
Pullar v. Cappelli,
148 A.3d 551, 556-57 (R.I. 2016) . . . . . . . . . . . . 21

App. 49
Roy v. Superior Court
(2005) 127 Cal. App. 4th 337 . . . 19, 20, 26, 29, 32
Federal Statutes
28 U.S.C. § 1332(d)(11)(C)(I) . . . . . . . . . . . . . . . 15, 17
State Rules
Code Civ. Proc. § 410.50. . . . . . . . . . . . . . . . . . . . . . 19

App. 50
Five years after this JCCP was created, Pfizer
realized that its strategy of claiming these cases belong
in federal court as a CAFA “mass action” is unlikely to
succeed. So now, almost five years after the cases at
issue were filed, Pfizer suddenly claims that California
courts lack personal jurisdiction, and that California is
an inconvenient forum for these cases.
It’s too late. It was too late years ago, but it’s
definitely too late now. This Court should deny Pfizer’s
PJ/FNC motion.1 Pfizer forfeited its PJ/FNC challenges
long ago.
PRELIMINARY STATEMENT
In early 2014, when the Plaintiffs subject to Pfizer’s
August 2018 PJ/FNC motion began filing their claims
in California state court, Pfizer had a choice. Like
Pfizer did in Missouri state court Lipitor cases that
included claims of non-Missouri residents, Pfizer could
have asserted, immediately, that California courts
don’t have personal jurisdiction over the claims of nonCalifornia residents and sought dismissal of those
claims. Instead, Pfizer chose to go all in on CAFA mass
action removal, seeking a ruling from the federal courts
that all of the Plaintiffs who asserted claims in
California state court – California and non-California
resident Plaintiffs alike – belong in federal court, not

1

Pfizer’s “Motion to (1) Quash Service of Summons With Regard
to the Claims of Non-California Plaintiffs for Lack of Personal
Jurisdiction; or (2) Dismiss the Claims of Non-California Plaintiffs
for Forum Non Conveniens” is referred to in this Opposition as
Pfizer’s PJ/FNC motion.

App. 51
state court. Indeed, Pfizer is still making that claim
today.2
The consequence of Pfizer’s choice to go all in on
CAFA mass action jurisdiction – and to seek discovery
from Plaintiffs and then try to get summary judgment
against them in the MDL – is that Pfizer has forfeited
its PJ/FNC motion. There are several reasons for this:
• The federal courts in which Pfizer has spent
years now trying to litigate these cases are, for
purposes of personal jurisdiction, California
courts. As Pfizer well knows (since Pfizer cited
the law so holding when it sought dismissal on
personal jurisdiction grounds against nonMissouri residents in Missouri-state-court-filed
cases), the MDL court only has that level of
personal jurisdiction over claims transferred to
it that the transferor court (here, a California
court) has. And Pfizer’s efforts, including its

2

Pfizer twice has removed every Lipitor case filed in California
state court under CAFA. Both times, Judge Carney remanded the
cases because Pfizer was wrong and there was no CAFA mass
action jurisdiction. Both times, Pfizer appealed to the Ninth
Circuit. Both times, the Ninth Circuit determined, in summary
one-sentence orders, that the appeals did not present any issue
sufficient to warrant exercise of the appellate court’s discretionary
jurisdiction to hear the appeal. The most recent such ruling came
on August 22, 2018, after Pfizer filed its PJ/FNC motion. See
Declaration of Charles G. Orr (Orr Decl.) at ¶ 2, Ex. A (Order
denying permission to appeal, Adamyan, et al. v. Pfizer, Inc., No.
18-80059, Aug. 22, 2018). On September 5, Pfizer petitioned the
Ninth Circuit en banc to rehear this order. Orr Decl. at ¶ 3, Ex. B
(Pfizer’s Aug. 22, 2018 en banc petition). Pfizer’s en banc petition
contains nary a peep about personal jurisdiction.

App. 52
most recent (and ongoing) one, to force these
claims into California federal court, necessarily
presume the power of California federal courts
for litigation of these claims. Pfizer should not
be heard to now claim that California state court
lacks personal jurisdiction or is “inconvenient.”
• Not only has Pfizer, for years, vigorously
pursued litigation of these claims in a California
forum, Pfizer sought relief from those (federal)
California forums against all California state
court Plaintiffs, resident and non-resident alike,
including both merits discovery and summary
judgment. By seeking such relief from California
(federal) courts against Plaintiffs, Pfizer
forfeited its PJ/FNC motion.
• Pfizer has repeatedly acknowledged, in
pleadings and on the record in open court, the
convenience afforded to the courts and the
parties from litigating the claims of all
California Plaintiffs, resident and non-resident
alike, in coordinated proceedings in California
forums. Pfizer should not be heard now to
suddenly shift 180 degrees and assert the
opposite.
For five years now, Pfizer’s litigation strategy – and
Pfizer’s own words – has belied the claims Pfizer now
tries to make in its PJ/FNC motion. This Court should
hold Pfizer to its choices – and its word. This Court
should deny Pfizer’s PJ/FNC motion.3
3

At the August 4, 2017 status conference in this JCCP, Plaintiffs’
counsel advised Pfizer and the Court that Plaintiffs would be

App. 53
BACKGROUND
Before launching into a discussion of the many ways
that Pfizer forfeited its PJ/FNC motion, an
examination of how we got here is appropriate.
I.

Plaintiffs began filing cases in California
state court in 2013 and early 2014.

Lipitor plaintiffs began filing claims in California
state court in mid-2013. Orr Decl. at ¶ 4. In September
2013, a handful of plaintiffs sought creation of a JCCP
to manage the Lipitor cases efficiently. Orr Decl. at ¶ 4,
Ex. C (amended coordination petition). The Judicial
Council granted the coordination petition in early
December 2013. Orr Decl. at ¶ 5, Ex. D (order assigning
coordination trial judge for Lipitor JCCP).
By the date of the first status conference in this
JCCP (February 25, 2014), about 1,800 plaintiffs
(including hundreds of non-California residents) had
filed Lipitor personal injury claims in California state

arguing waiver in response to Pfizer’s forthcoming PJ/FNC motion.
Orr Decl. at ¶ 57, Ex. BBB (transcript) at 19:12-22 (“A preview of
things to come. We’re going to be arguing waiver [in response to
the PJ/FNC challenge].”). Yet Pfizer’s PJ/FNC motion contains not
one word about how Pfizer preserved its PJ/FNC challenge, or any
argument that its motion is timely. Instead, Pfizer argues PJ/FNC
as if it had raised and presented these challenges at the outset of
this litigation as the threshold issues that they are. Plaintiffs note
this so that the Court can contextualize why Pfizer’s PJ/FNC
challenge and this Opposition feel like the proverbial ships passing
in the night. Plaintiffs have been aware for years that Pfizer
waived/forfeited its PJ/FNC challenge, yet Pfizer still appears not
to have given the matter any thought.

App. 54
court. Orr Decl. at ¶ 6, Ex. E (Lipitor JCCP status
conference transcript, Feb. 25, 2014).
II.

In early March 2014, Pfizer executed its
strategic decision to remove the cases as a
mass action (without raising personal
jurisdiction or forum challenges like Pfizer
did in the Missouri state court cases).

Pfizer responded to this wave of California filings
not by asserting a personal jurisdiction or forum
challenge but by removing all filed cases – including
several actions involving the claims of Californiaresident plaintiffs only – to federal court as an alleged
CAFA mass action. Orr Decl. at ¶ 7, Ex. F (notice of
removal).4 Nowhere in any notice of removal did Pfizer
say anything about the California federal court to
which Pfizer was removing the cases being an
inconvenient forum or lacking in personal jurisdiction
over Pfizer. Orr Decl. at ¶ 7.
Concurrently with removal, Pfizer sought
immediate transfer of the cases to the recently created

4

The notice of removal attached to the Orr Declaration is from
Banks, et al. v. Pfizer Inc., et al., No. 2:14-cv-01908, United States
District Court for the Central District of California. This notice is
substantially similar to those Pfizer filed for all the California
state court Plaintiffs, both at this time and as to California state
court cases filed thereafter between 2014 and Judge Carney’s
remand following Pfizer’s initial removal. Orr Decl. at ¶ 7.
Through this Opposition, Plaintiffs provide pleadings from this
particular case and represent that these pleadings are
substantially similar to those Pfizer filed in all the removed
California state court actions in the California and federal MDL
courts. Orr Decl. at ¶ 7.

App. 55
federal MDL. Orr Decl. at ¶ 8, Ex. G (Pfizer’s notice of
potential tag-along actions, seeking transfer of Banks
and other cases to federal MDL court in South
Carolina). Pfizer also filed motions to stay pending
transfer to the MDL court in cases that it wrongfully
removed from California state court. See, e.g., Orr Decl.
at ¶ 10, Ex. I (Pfizer stay motion in Little).5 Again,
nothing in these or any of Pfizer’s other removalrelated pleadings suggested that Pfizer intended to
raise personal jurisdiction or forum challenges. Orr
Decl. at ¶ 8.6
Once in the JPML and awaiting transfer, many if
not most California state court Lipitor Plaintiffs filed
motions to vacate conditional transfer orders, asking
the JPML to send the cases back to California federal
court for resolution of Plaintiffs’ remand motions. Orr
5

Because the Lipitor cases removed the Central District were all
assigned to Judge Carney at the outset, and because Judge Carney
had already established a pattern of staying Lipitor cases pending
transfer to the MDL Judge Carney entered sua sponte stay orders
in many of the California state court cases, including Banks. Orr
Decl. at ¶ 9, Ex H (sua sponte stay order in Banks).

6

Pfizer filed an answer in federal court in Banks in which they
mention personal jurisdiction and forum in a long list of boilerplate
affirmative defenses. Orr Decl. at ¶ 11, Ex. I (Pfizer answer in
Banks, filed March 17, 2014, Dkt. #22) (FNC mentioned as
affirmative defense number 34 of 37, and personal jurisdiction
mentioned as affirmative defense number 35 of 37, at pages 44-45).
But as shown below, this is the only time Pfizer even mentioned
either of these defenses as to the California state court Plaintiffs
until December 30, 2016, after Judge Gergel rejected removal on
fraudulent joinder grounds and the JPML remanded the cases
back to California federal court for consideration of the CAFA
mass action issue. Orr Decl. at ¶ 10.

App. 56
Decl. at ¶ 12, Ex. K (motion to vacate transfer and
memorandum in support filed in Banks in the JPML on
April 9, 2014). Pfizer opposed these motions to vacate
on efficiency grounds, urging that the common issues
raised across all the cases filed by the California state
court Lipitor Plaintiffs should be decided by a single
judge – the MDL judge. Orr Decl. at ¶ 13, Ex. L (Pfizer
opposition to motion to vacate transfer order in Banks,
filed in the JPML on April 30, 2014). Pfizer also
rejected the notion that Plaintiffs would be unduly
prejudiced by delay resulting from transfer to the MDL
court before resolution of Pfizer’s claim that these cases
belonged in a single coordinated proceeding in federal
court. Id. at 7 (“Finally, Plaintiffs cannot avoid MDL
transfer based on their generalized assertion, again
without support, that it will delay their case. All
transfer involves some delay, but that delay is
warranted where, as here, transfer will produce greater
benefits through the coordinated, efficient resolution of
actions that share common questions of law or fact
. . . .”).
Pfizer’s strategic decision to not raise personal
jurisdiction or forum challenges at this stage is in
sharp contrast to the strategic decisions Pfizer made
for Lipitor cases filed in Missouri state court. In those
cases, Pfizer predicated its removal on the Missouri
courts’ lack of personal jurisdiction over Pfizer as to the
claims of the non-Missouri resident plaintiffs, leaving
only Missouri plaintiffs over whom the federal courts
would have subject matter jurisdiction by way of
diversity. Orr Decl. at ¶ 14, Ex. M (notice of removal
filed March 27, 2015, in Scotino, et al. v. Pfizer Inc., No.
4-15-cv-00540, United States District Court for the

App. 57
Eastern District of Missouri, Dkt. #1 (Scotino)).7
Indeed, simultaneously with its removal of Scotino,
Pfizer moved to dismiss the claims of the non-Missouri
residents alleging lack of personal jurisdiction. Orr
Decl. at ¶ 15, Ex. N (memo in support of Pfizer’s motion
to dismiss claims of out-of-state plaintiffs in Scotino,
Dkt. #7).8 Pfizer continued this strategy in the Missouri
state court cases (like Scotino) that were transferred to
the MDL before disposition of the plaintiffs’ remand
motions. In the MDL, Pfizer renewed its motion to
dismiss [Orr Decl. at ¶ 17, Ex. P (Pfizer’s MDL motion
to dismiss in Scotino, which simply identified by docket
number Pfizer’s motion to dismiss that it filed
concurrently with removing Scotino)], and urged the
MDL court to address personal jurisdiction first, before
deciding subject matter jurisdiction. Orr Decl. at ¶ 18,
Ex. Q (Pfizer’s appeal of magistrate judge’s decision
recommending grant of Scotino’s motion to remand) at
4 (“Th[e] [MDL] Court should first address, and grant,
Pfizer’s pending motions to dismiss the out-of-state
7

Pfizer made its no-personal-jurisdiction-as-to-claims-of-nonresident-plaintiffs argument in other Missouri state court cases as
well. Orr Decl. at ¶ 14. The Scotino case is typical of how Pfizer
raised the issue in these cases. Orr Decl. at ¶ 14.

8

When the Scotino plaintiffs asserted that the federal court should
decide subject matter jurisdiction first, before addressing personal
jurisdiction, Pfizer replied that “[t]h[e] [c]ourt can and should
decide Pfizer’s motion to dismiss for lack of personal jurisdiction
before deciding whether federal subject-matter jurisdiction exists
because the [c]ourt ‘has before it a straightforward personal
jurisdiction issue presenting no complex question of state law.” Orr
Decl. at ¶ 15, Ex. O (Pfizer’s reply in support of motion to dismiss
on personal jurisdiction grounds in Scotino, Dkt. #22) (quoting
Ruhrgas AG v. Marathon Oil Co., 526 U.S. 574, 588 (1999)).

App. 58
Plaintiffs due to lack of personal jurisdiction, as that
ruling would necessarily dispense with any question as
to its subject matter jurisdiction over the remaining
Missouri Plaintiffs, who are completely diverse from
Pfizer.”). So even while Pfizer was seeking a ruling that
all California state court Lipitor cases belonged in
federal court as a CAFA mass action (without raising
personal jurisdiction or forum challenges to those
cases), Pfizer was simultaneously urging the federal
courts – Missouri and MDL – to dismiss the claims of
non-Missouri plaintiffs for lack of personal jurisdiction
(while keeping the Missouri resident plaintiffs on
diversity grounds).
III.

Pfizer sought relief from the MDL court
and the California federal courts that those
courts could only afford Pfizer if they had
the power to adjudicate the cases.

Immediately after the JPML transferred the
California state court Lipitor cases to the MDL, Pfizer
began an over-two-year effort to not only secure a
ruling that the California state court Plaintiffs –
California and non-California resident alike – belonged
in the MDL, but to obtain various forms of relief that
presumed the MDL court’s power to adjudicate the
California state court Plaintiffs’ claims.
A.

Pfizer sought
Plaintiffs.

discovery

from

First, Pfizer invoked the Court’s power over all
parties by seeking discovery from the California state
court Plaintiffs. Because an MDL CMO obligated
plaintiffs to serve a verified PFS along with signed

App. 59
authorizations and medical and pharmacy records
within 30 days from the date their case was transferred
to the MDL, Plaintiffs appeared by telephone at the
first status conference after their cases arrived in the
MDL to advise the MDL judge (Judge Gergel) that they
would seek to stay their PFS obligations pending
determination of their forthcoming remand motions.
Orr Decl. at ¶ 19, Ex. R (transcript of June 13, 2014
status conference in Lipitor MDL) at 46:22-49:2. Judge
Gergel advised that he would be assigning the remand
motions to a magistrate judge and that they would be
decided quickly, so he was inclined to grant the stay
once Plaintiffs filed their motion. Id. at 55:21-56:6. In
response to Judge Gergel’s inquiry about Plaintiffs’
stay request, Pfizer’s counsel indicated that “at a
minimum” the California state court Lipitor Plaintiffs
should be ordered to “provide [to Pfizer] pharmacy
information, proof of use, and, you know, information.”
Id. at 50:18-51:2.
Plaintiffs filed their motion to stay their PFS
obligations pending determination of their remand
motions. Orr Decl. at ¶ 20, Ex. S (stay motion). Pfizer’s
response [Orr Decl. at ¶ 21, Ex. T (Pfizer response to
stay motion)] asked the MDL court to impose two
distinct discovery obligations on the California
Plaintiffs. First, Pfizer asked the MDL court to require
the California Plaintiffs to “participat[e] in depositions
of common witnesses in the MDL.” Id. at 1 n.1. Second,
Pfizer sought an order from the MDL court compelling
the California Plaintiffs to “provide [to Pfizer and
McKesson] (1) the identity and address of the
pharmacies from which the Plaintiffs obtained Lipitor;
(2) the dates on which they purchased or obtained

App. 60
Lipitor; and (3) a signed authorization to collect records
from their pharmacies.” Id. at 1-2. Pfizer sought this
discovery to try to show that some California Plaintiffs
took Lipitor that hadn’t been distributed by McKesson,
which Pfizer alleged would demonstrate that McKesson
was fraudulently joined, establishing the federal court’s
subject matter jurisdiction over those Plaintiffs’ claims.
Importantly, Pfizer sought this so-called “jurisdictional
discovery” not to establish the lack of jurisdiction over
California Plaintiffs, but to demonstrate the existence
of the court’s power to adjudicate Plaintiffs’ claims
against Pfizer in that forum. Moreover, Pfizer expressly
acknowledged that it intended to use this discovery “to
evaluat[e] the viability of Plaintiffs’ claims against
McKesson and [the discovery] therefore bears on . . .
the merits of those claims.” Id. at 6.
Judge Gergel thereafter issued CMO 10, in which
he partially granted Plaintiffs’ stay motion, holding
that PFS discovery was stayed but, as Pfizer requested,
the California Plaintiffs “are NOT exempt from
participation in the depositions of common witnesses in
the MDL.” Orr Decl. at ¶ 22, Ex. U (MDL CMO 10) at
1, ¶ 2.9 Judge Gergel also ordered Plaintiffs to respond
to Pfizer’s request for so-called jurisdictional discovery.
Id. at 1, ¶ 3. Plaintiffs’ reply noted that Pfizer was
wrong in asserting that its discovery requests were
narrowly tailored and limited, as they would
“necessitate full-scale discovery by both Plaintiffs and
Defendants of the merits of Plaintiffs’ claims arising
9

To be clear, Judge Gergel stayed discovery only. Nothing about
Judge Gergel’s stay order precluded Pfizer in any way from timely
raising and litigating its PJ/FNC challenge.

App. 61
out of McKesson’s role in the promotion, marketing and
distribution of Lipitor.” Orr Decl. at ¶ 23, Ex. V
(Plaintiffs’ reply to Pfizer’s discovery request) at 1.
Judge Gergel denied Pfizer the discovery it sought
from the California Plaintiffs, without prejudice. Orr
Decl. at ¶ 24, Ex. W (MDL CMO 11).10 But the fact that
Pfizer did not succeed in getting the discovery it
requested does not obviate the fact that Pfizer invoked
the MDL court’s power to order Plaintiffs to provide
that discovery.
B.

Pfizer enjoyed success against
plaintiffs in the MDL while the
California Plaintiffs’ remand motions
awaited consideration by Judge
Gergel.

Although the MDL court suggested that Plaintiffs’
remand motions would be promptly resolved, they
weren’t. This was true for the California Plaintiffs
(about whom Pfizer never raised personal jurisdiction
or forum challenges) and the Missouri plaintiffs (about
whom Pfizer did raise personal jurisdiction challenges).
In January 2015, the magistrate judge issued orders in
the California cases rejecting Pfizer’s fraudulent
joinder/procedural misjoinder arguments but sending
the CAFA mass action issue back to the California
federal courts for them to resolve. Orr Decl. at ¶ 25.

10

Judge Gergel reasoned that Plaintiffs’ remand motions may be
resolvable without need of the requested discovery, but if it became
apparent that the discovery was needed to properly consider those
motions, the Court could revisit its decision. Orr Decl. at ¶ 24, Ex.
W.

App. 62
Pfizer appealed the magistrate’s order to Judge Gergel.
Orr Decl. at ¶ 26, Ex. X (Pfizer appeal of magistrate
remand orders, filed February 6, 2015). Again, despite
comprehensively briefing the many reasons Pfizer
claimed the MDL court had jurisdiction over all
California Plaintiffs – resident and non-resident alike
– Pfizer neglected to raise personal jurisdiction or
forum concerns. To the contrary, Pfizer was
affirmatively seeking a ruling that jurisdiction and
forum over all California Plaintiffs was proper in the
MDL court.
Meanwhile, Pfizer was litigating the claims of
thousands of plaintiffs whose claims were properly in
the MDL court. Indeed, Pfizer enjoyed great success
against those plaintiffs, ultimately persuading Judge
Gergel that the bellwether plaintiffs failed to proffer
admissible expert testimony as to both general and
specific causation. Orr Decl. at ¶ 27. Ultimately, Judge
Gergel entered a CMO stating that any MDL plaintiff
who believed her case differed from the cases in which
the causation experts were struck must provide prompt
notice to the court, which would then enter a briefing
schedule for expert witness identification, and expert
reports and depositions. Orr Decl. at ¶ 27, Ex. Y (MDL
CMO 65). The California Plaintiffs filed a notice
advising Judge Gergel that they did not intend to
respond to this CMO because discovery in their cases
remained stayed and their cases were still subject to
Pfizer’s appeal of the magistrate’s remand orders. Orr
Decl. at ¶ 28, Ex. Z (notice filed February 9, 2016).

App. 63
C.

Pfizer sought summary judgment
against Plaintiffs.

Pfizer filed its omnibus summary judgment motion
(MSJ) in the MDL court on June 24, 2016. Orr Decl. at
¶ 29. Ex. AA (Pfizer omnibus MSJ). This motion
included a cryptic reference to the California Plaintiffs,
leaving ambiguity as to whether Pfizer intended its
MSJ to apply to those Plaintiffs. Orr Decl. at ¶ 29, Ex.
AA at 2 and n.1.11 Plaintiffs, accordingly, filed a brief
response to the MSJ advising the MDL court that
Plaintiffs did not believe their cases should be included
within the scope of the MSJ. Orr Decl. at ¶ 31, Ex. CC
(Plaintiffs’ response to MSJ).
Pfizer’s reply made clear that Pfizer believed Judge
Gergel could and should enter summary judgment
against the California Plaintiffs. Orr Decl. at 32, Ex.
DD (Pfizer reply in support of MSJ). In that brief,
Pfizer included a section under the heading “This Court
Has Subject Matter Jurisdiction in All Cases.” Id. at
19. The first sentence in that section says, “This Court
has subject matter jurisdiction over all cases in the
MDL and the Court’s expert rulings warrant summary
judgment in every case.” Id. Lest there be any doubt
that, through this section, Pfizer was telling Judge

11

It should be noted here that McKesson, which was not a
defendant in most, if not all, cases that were properly in the MDL
but is a defendant in all the California cases, filed a joinder to
Pfizer’s omnibus MSJ. Orr Decl. at ¶ 30, Ex. BB (McKesson notice
of joinder to Pfizer MSJ). The attachment to McKesson’s joinder
leaves no room for ambiguity – it listed the cases in which
McKesson was seeking summary judgment via Pfizer’s omnibus
MSJ and it included all the California cases then pending.

App. 64
Gergel he should enter summary judgment against the
California Plaintiffs, Pfizer included a footnote directly
referencing those Plaintiffs: “As to Plaintiffs with
remand motions who asserted that they did not intend
to act under CMO 65, the Court can issue a similar
order after addressing the remand motions.” Id. at 1
n.9.
IV.

Only after Pfizer’s strategic decision to
remove these cases as a CAFA mass action
failed (i.e., after years of litigation) did
Pfizer suddenly decide to mention its
personal jurisdiction and forum challenges.

On October 21, 2016, more than two years after the
California Plaintiffs filed their remand motions in the
MDL, Judge Gergel finally heard oral argument on
those motions (the MDL court also heard argument on
the Missouri plaintiffs’ remand motions, where Pfizer
raised personal jurisdiction challenges). Orr Decl. at
¶ 33, Ex. EE (transcript of hearing on California
Plaintiffs and Missouri plaintiffs’ remand motions).
Pfizer urged Judge Gergel to conclude that all the
California cases belonged in the MDL. This was in
sharp contrast to what Pfizer asserted as to the
Missouri plaintiffs, namely, that Judge Gergel should
decide personal jurisdiction first as to the non-Missouri
resident plaintiffs and then, after dismissing those
plaintiffs, should conclude that complete diversity
exists as to the remaining Missouri resident plaintiffs.
Judge Gergel was unpersuaded, however, and
ultimately issued a series of remand orders sending the
Missouri cases back to Missouri state court and the
California cases to the JPML with the MDL court’s

App. 65
suggestion that the cases be returned to California
federal court for determination of the CAFA issue. Orr
Decl. at ¶ 34.12
Upon the JPML’s transfer of the California cases
back to California federal courts, suddenly, for the first
time in years, Pfizer decided to raise personal
jurisdiction and forum as issues. This, Pfizer did by
filing, on December 30, 2016, status reports for the
California federal judges in most, if not all, of the
California cases. Orr Decl. at ¶ 35, Ex. FF (Pfizer
“status report” in Banks). In these pleadings, Pfizer
“request[ed] a status conference with [the California
federal] [c]ourt[s] to address certain threshold
jurisdictional and venue issues, such as: (1) th[e]
[federal] [c]ourt’s [CAFA mass action] jurisdiction;
(2) transfer of venue . . . ; (3) severance . . . ; and
(4) dismissal of claims by non-residents against Pfizer
for lack of personal jurisdiction.” Id. at 2:18-23
(emphasis added). It took Pfizer nearly three years
(following significant and protracted litigation of
Pfizer’s claim that the California Plaintiffs belonged in

12

Judge Gergel elected not to decide the merits of Pfizer’s CAFA
mass action contention because of 28 U.S.C. § 1332(d)(11)(C)(I),
which states that any “mass action” removed under CAFA “shall
not thereafter be transferred to any other court pursuant to section
1407 [the MDL statue], or the rules promulgated thereunder,
unless a majority of the plaintiffs in the action request transfer
pursuant to section 1407.” Having denied Pfizer’s alternate bases
for alleged federal subject matter jurisdiction so that the mass
action issue was the only remaining issue, and because no
California Plaintiff consented to transfer to the MDL, Judge
Gergel determined that the mass action issue should be decided in
the California transferor courts.

App. 66
the MDL court, or at least in California federal court)
to identify its desire to litigate the “threshold” issues of
personal jurisdiction and forum.
Judge Carney set a status conference for February
1, 2017. Orr Decl. at ¶ 36, Ex. GG (status conference
transcript). Consistent with the choice Pfizer made in
March 2014 to go all in on CAFA, Judge Carney
indicated at the outset of this status conference that he
would decide subject matter jurisdiction before any
other issue. Id. at 3:14-21. Later in the conference,
Pfizer’s counsel brought up the personal jurisdiction
issue to claim that Pfizer had not waived that issue
(even though Pfizer had spent years litigating its claim
that the federal courts did have subject matter
jurisdiction without ever attempting to litigate the
personal jurisdiction defense). Id. at 11:9-17. In the
same breath, however, Pfizer’s counsel also declared
that the personal jurisdiction issue would “be moot” –
would “go away” – if Judge Carney determined that
there was CAFA subject matter jurisdiction. Id. at
11:9-17, 11:23-25.
Judge Carney heard oral argument on the
California Plaintiffs’ remand motion on May 22, 2017.
Orr Decl. at ¶ 37, Ex. HH (remand argument
transcript). The next day, Judge Carney issued his
order remanding these cases back to California state
court. Orr Decl. at ¶ 38, Ex. II (remand order).

App. 67
V.

Even
though
Pfizer
purported to
“preserve” its personal jurisdiction and
forum defenses following the return of the
cases to California, Pfizer was (and still is)
trying to wedge the cases into California
federal court on CAFA grounds.

Pfizer’s first pleading in this JCCP after the first
remand order was its opposition to Plaintiffs’ proposed
amended order for add-on procedures, filed July 7,
2017. Orr Decl. at ¶ 39, Ex. JJ (Pfizer opposition). In
this pleading, for the first time in the JCCP court,
Pfizer included an express statement that, by filing in
the JCCP, it does not waive its personal jurisdiction
defense. Id. at 2 n.1. Yet Pfizer previously filed no
fewer than ten pleadings in this JCCP, none of which
so much as mentioned a personal jurisdiction or forum
challenge.13

13

These included: (1) Defendant Pfizer Inc.’s Status Report, filed
March 24, 2014; (2) Defendant Pfizer Inc.’s Status Report, filed
July 24, 2014; (3) Defendant Pfizer Inc.’s Status Report, filed Dec.
29, 2014; (4) Joint Status Report, filed May 4, 2015; (5) Joint
Status Report Regarding Removed Cases, filed January 4, 2016;
(6) Status Report, filed May 19, 2016; (7) Joint Status Report
Regarding Removed Cases, filed Nov. 21, 2016; (8) Joint Status
Report Regarding Removed Cases, filed April 14, 2017l (9) Joint
Status Report Regarding Removed Cases, filed May 30, 2017; and
(10) Joint Status Report Regarding Removed Cases, filed June 1,
2017. True and correct copies of each of these pleadings are
attached to the Orr Declaration. Orr Decl. at ¶ 40, Ex. KK. None
of these pleadings “reserves” Pfizer’s personal jurisdiction or forum
challenges. To the contrary, several expressly state that Pfizer
intends to litigate these cases collectively – California and nonCalifornia resident Plaintiffs alike – in the MDL court.

App. 68
Instead of teeing up the threatened personal
jurisdiction/forum challenge, though, Pfizer chose to
jockey for position with the California Plaintiffs over
how the cases would be coordinated into this JCCP. All
the while Pfizer was stating, in pleadings and in open
court, that it wanted the benefits of coordination of all
the California cases into this JCCP,14 Pfizer was trying
to box Plaintiffs into seeking add-on in a way that
arguably would trigger CAFA mass action jurisdiction
so that Pfizer could remove a second time.15
Pfizer’s strategy worked, in a manner of speaking.
After this Court’s sua sponte add-on orders brought all
the Plaintiffs into this JCCP, Pfizer again removed the
cases en masse as an alleged CAFA mass action. Orr
Decl. at ¶ 41, Ex. LL (Pfizer’s notice of removal filed
March 1, 2018). Nothing in Pfizer’s removal notice
suggested in any way that Pfizer contests the personal
jurisdiction of the California federal court over
Plaintiffs’ claims against Pfizer; to the contrary, the
thrust of the removal is that the cases belong in
California federal court as a CAFA mass action. Two
points merit mention here: First, the sole basis for
federal subject matter jurisdiction alleged by Pfizer in
this second removal was CAFA mass action, and under
14

Examples of Pfizer invoking the benefits of JCCP coordination
will be provided infra.
15

See, e.g., Orr Decl. at ¶ 51, Ex. VV (joint status report filed Oct.
12, 2017) at 5:26-27 (noting, in “Defendants’ position” section
prepared by Pfizer several months after cases had been remanded,
that “[a]s of yet, Pfizer has not filed any jurisdictional briefing as
it has been waiting for Plaintiffs to pick a path forward regarding
coordination”).

App. 69
CAFA, this means the cases would stay in California
even if Plaintiffs’ remand motion had proven
unsuccessful.16 Second, even assuming Plaintiffs would
acquiesce in the cases being transferred out of
California, Judge Gergel already had shut down the
MDL to new or transferred cases, having entered
CMOs that (1) precluded direct filing in the MDL,17 and
(2) suggested to the JPML that it no longer transfer
any more cases into the MDL.18 So by removing a
second time without raising personal jurisdiction in its
removal notice, Pfizer was effectively asserting to
Judge Carney that the cases should be litigated in his
courtroom, in Orange County, California.
On May 10, 2018, Judge Carney entered an order
remanding the cases back to this Court. Orr Decl. at
¶ 44, Ex. OO (remand order). Pfizer petitioned for
permission to appeal that order to the Ninth Circuit,
thereby continuing to seek to litigate Plaintiffs’ claims
in California federal court, even while claiming this
JCCP court (a California state court) lacks personal
jurisdiction over the non-California resident Plaintiffs.
Orr Decl. at ¶ 45, Ex. PP (Pfizer petition for permission
to appeal second remand order). On August 22, 2018,

16

As noted above, under 28 U.S.C. § 1332(d)(11)(C)(I), a case
removed on CAFA mass action grounds cannot be transferred to an
MDL unless 50% or more of plaintiffs consent to the transfer.
Plaintiffs had long since made clear they would not so consent.
17

Orr Decl. at ¶ 42, Ex. MM (MDL CMO precluding direct filing,
entered in Jan. 2017).
18

Orr Decl. at ¶ 43, Ex. NN (MDL CMO suggesting no further
transfer of cases into MDL, entered in Jan. 2017).

App. 70
about two weeks after Pfizer filed its PJ/FNC motion in
this Court, the Ninth Circuit entered a one sentence
order denying Pfizer’s petition for permission to appeal.
Orr Decl. at ¶ 46, Ex. QQ (order denying petition to
appeal). Unwilling to finally give up its claim that
these cases belong in California federal court, Pfizer
has now filed a petition for en banc rehearing of the
denial of Pfizer’s petition for permission to appeal. Orr
Decl. at ¶ 47, Ex. RR (Pfizer petition for rehearing en
banc). Pfizer is still trying to litigate these cases in a
California court in Orange County even while it claims
this JCCP has no power over it and isn’t the right
forum for these cases.
ARGUMENT AND AUTHORITIES
Pfizer’s counsel to Judge Carney, in Orange County,
California, on February 1, 2017:
“[W]e have a personal jurisdiction affirmative
defense that . . . we think it will be moot frankly to
the extent that we’re here before Your Honor in this
Court, as we think we should be under CAFA. . . .
The [personal] jurisdictional issue goes away to the
extent that Your Honor determines that there’s
CAFA jurisdiction.”
Reporter’s Transcript of Status Conference, Feb. 1,
2017, No. 8:17-mc-00005, Central District of California,
at 11:9-25 (Orr Decl. at ¶ 36, Ex. GG)
Pfizer answered and litigated against Plaintiffs,
long before moving to quash service for lack of personal
jurisdiction or for dismissal based on forum non
conveniens. Under long-standing California law, Pfizer
waived its PJ/FNC motion.

App. 71
Federal law is equally unavailing for Pfizer. Pfizer
might not have waived PJ/FNC under federal
procedural law, if one were to apply federal procedural
law to Pfizer’s actions in California federal courts, the
MDL, and the JPML. But Pfizer definitely forfeited its
PJ/FNC challenge. Pfizer has vigorously litigated (and
is continuing to litigate) its assertion that these cases
should proceed in California federal court (or in the
MDL, which as Pfizer knows has personal jurisdiction
only to the extent the transferor courts – California
courts – have personal jurisdiction). Moreover, Pfizer
has foregone several opportunities to seek dismissal on
PJ/FNC grounds during the four-plus years that these
cases have been extant, instead seeking rulings that
the cases should be tried in California federal court.
Finally, Pfizer’s counsel stated, on the record in open
court to Judge Carney, that personal jurisdiction would
be moot if Judge Carney determined there was federal
subject matter jurisdiction under CAFA.
I. Applicable law.
A.

California law on waiver/forfeiture of
personal jurisdiction and forum
challenges.

Under well-settled California law, a party waives
any personal jurisdiction defense when that party
makes a general appearance. “[I]t has long been the
rule in California that a party waives any objection to
the court’s exercise of personal jurisdiction when the
party makes a general appearance in the action.” Roy
v. Superior Court (2005) 127 Cal. App. 4th 337, 341. A
party’s general appearance is the same as personal
service of a summons on that party. Code Civ. Proc.

App. 72
§ 410.50; Hamilton v. Asbestos Corp. (2000) 22 Cal. 4th
1127, 1147. A party makes a general appearance when,
“either directly or through counsel, [that party]
participates in an action in some manner which
recognizes the authority of the court to proceed. It does
not require any formal or technical act.” Mansour v.
Superior Court (1995) 38 Cal. App. 4th 1750, 1756. “If
the defendant raises any other questions, or asks for
any relief which can only be granted upon the
hypothesis that the court has jurisdiction of his person,
his appearance is general.” Id. at 1756-57 (internal
quotation omitted). A defendant’s answer, even if it
raises personal jurisdiction, does not preserve the
issue, which must be raised at the outset of litigation,
before any other pleading, by a motion to quash service.
Roy, 127 Cal. App. 4th at 345. (This differs from federal
procedural law, where a defendant that includes a
personal jurisdiction defense in its answer avoids
waiver at the outset. See, e.g., Peterson v. Highland
Music, Inc., 140 F.3d 1313, 1318 (9th Cir. 1998). But as
will be shown below, this is of no use to Pfizer, which
waived PJ/FNC whether California or federal law
applies.)
Even where a party technically does not “waive” a
defense like personal jurisdiction or FNC in the sense
of intentionally relinquishing a known right, that party
can forfeit the right through its litigation conduct,
and/or by failing to raise the issue in a timely fashion.
See, e.g., Platt Pacific, Inc. v. Andelson (1993) 6 Cal.
4th 307, 314-15 (distinguishing “waiver,” which refers
to intentional relinquishment of known right, from
“forfeiture,” which is failure to make timely assertion
of right, and noting that some cases use “waiver” when

App. 73
they really mean “forfeiture”).19 “The rule that a
general appearance ‘waives’ objections to defective
service [like lack of personal jurisdiction] is actually a
matter of forfeiture, not waiver.” Fireman’s Fund Ins.
Co. v. Sparks Constr., Inc. (2004) 114 Cal. App. 4th
1135, 1147. A party forfeits its personal jurisdiction
challenge when that party “takes part in the action or
in some manner recognizes the authority of the court to
proceed.” In re Marriage of Obrecht (2016) 245 Cal.
App. 4th 1, 7. This is so even if the party “is unaware
that a jurisdictional objection is available.” Id. at 8; see
also Platt Pacific, 6 Cal. 4th at 314-15 (party can
waive/forfeit right “regardless of the party’s intent to
abandon or relinquish the right”). FNC, like personal
jurisdiction, is waived or forfeited when a defendant
fails to timely assert it while instead litigating issues
unrelated to the propriety of the California forum.
Martinez v. Ford Motor Co. (2010) 185 Cal. App. 4th 9,
17-18.

19

See also In re S.B. (2004) 32 Cal. 4th 1287, 1293 n.2 (“Although
the loss of the right to challenge a ruling on appeal because of the
failure to object in the trial court is often referred to as a ‘waiver,’
the correct legal term for the loss of a right based on failure to
timely assert it is ‘forfeiture,’ because a person who fails to
preserve a claim forfeits that claim. In contrast, a waiver is ‘the
intentional relinquishment or abandonment of a known right.’”)
(internal quotation omitted).

App. 74
B.

Federal law on waiver/forfeiture of
personal jurisdiction and forum
challenges.

Because Pfizer removed these cases before the
deadline for Pfizer to have either filed a motion to
quash service or otherwise answer, much of the
“waiver/forfeiture” conduct by Pfizer occurred in federal
court. Federal law on waiver/forfeiture of personal
jurisdiction challenges differs in some significant
respects from California law. In particular, Federal
Rule of Civil Procedure 12(h)(1) provides that a party
prevents waiver of a personal jurisdiction challenge by
including that defense in its answer. But “Rule 12(h)(1)
[only] specifies the minimum steps that a party must
take . . . to preserve a [personal jurisdiction] defense. It
does not follow . . . that a party’s failure to satisfy those
minimum steps constitutes the only circumstance
under which the party [can] waive[] [the] defense. Most
defenses, including . . . lack of personal jurisdiction,
may be waived as a result of the course of conduct
pursued by a party during litigation.” Peterson v.
Highland Music, Inc., 140 F.3d 1313, 1318 (9th Cir.
1998).20 As Judge Posner explained for the Seventh

20

See also, e.g., Continental Bank, N.A. v. Meyer, 10 F.3d 1293,
1297 (7th Cir. 1993) (holding that while Defendants raised
personal jurisdiction defense in answer and thereby did not
“waive” it under Rule 12(h)(1), Defendants waived personal
jurisdiction by “fully participat[ing] in litigation of the merits for
over two-and-a-half years without actively contesting personal
jurisdiction . . . The district court could properly conclude that the
defendants’ delay in urging this threshold issue manifest[ed] an
intent to submit to the court’s jurisdiction”); Minemyer v. R-Boc
Representatives, Inc., 283 F.R.D. 392, 395-97 (N.D. Ill. 2012)

App. 75
Circuit Court of Appeals, this is because “[i]t would
defeat the purpose of requiring prompt assertion of the
defense of lack of personal jurisdiction if the defendant,
having raised an objection to personal jurisdiction at
the outset as required, could without any penalty fail
or refuse to press it, creating the impression that he
had abandoned it, and not seek to correct that
impression until he appealed from an adverse final
judgment on the merits.” Rice v. Nova Biomedical
Corp., 38 F.3d 909, 914 (7th Cir. 1994).
A particularly apt federal case on this matter is
Hamilton v. Atlas Turner, Inc., 197 F.3d 58 (2d Cir.
1999). In Hamilton, the plaintiff filed an asbestos claim
in New York federal district court in June 1994. Id. at
60. Defendant Atlas answered the following month and
included a personal jurisdiction defense in its answer.
Id. That November, the case was transferred to an
MDL proceeding in the Eastern District of
Pennsylvania. Id. After more than three years of
litigation in the MDL, the case was then transferred
back to the Southern District of New York. Id. Then, in
August 1998, more than four years after the case was

(noting that defendant raised personal jurisdiction objection at
outset but failed to press that objection for four-and-a-half years,
thereby waiving it through “sandbagging,” “[w]hether intended or
not”); cf. Pullar v. Cappelli, 148 A.3d 551, 556-57 (R.I. 2016)
(adopting federal court distinction between “waiver” and
“forfeiture” in personal jurisdiction context and noting, “Federal
courts consistently invoke the doctrine of forfeiture when a
defendant fails seasonably to argue for application of the
jurisdictional defense, or submits to the jurisdiction of the court
through conduct, even when the defendant asserted the defense in
its answer.”).

App. 76
filed, Atlas moved to dismiss for lack of personal
jurisdiction. Id. The district court ultimately granted
that motion. Id.
While acknowledging that Atlas had “met the
formal requirements of [Rule] 12(h)(1),” the Second
Circuit noted that “a delay in challenging personal
jurisdiction by motion to dismiss may result in waiver
even where . . . the defense was asserted in a timely
answer.” Id. (internal quotation omitted, ellipses in
original). The court then indicated “that the issue is
more properly considered one of forfeiture than of
waiver. The term ‘waiver’ is best reserved for a
litigant’s intentional relinquishment of a known right.
Where a litigant’s action or inaction is deemed to incur
the consequence of loss of a right, or, as here, a defense,
the term ‘forfeiture’ is more appropriate.” Id. at 61.
Noting that its review of whether the district court
abused its discretion in holding that Atlas did not
forfeit its personal jurisdiction challenge should involve
“consider[ation] [of] all the relevant circumstances,” the
Second Circuit began its analysis “with the
considerable length of time – four years – between the
assertion of the defense in the answer and the
litigation of the defense in a motion.” Id. Significantly,
the court stated, “Although the passage of time alone is
generally not sufficient to indicate forfeiture of a
procedural right, the time period provides the context
in which to assess the significance of the defendant’s
conduct, both the litigation activity that occurred and
the opportunities to litigate the jurisdictional issue that
were foregone.” Id.

App. 77
The Second Circuit noted that “[c]onsiderable
pretrial activity occurred in this case” during the four
years between Atlas’s answer and its motion to
dismiss. Id. While in the MDL court, Atlas participated
in both merits discovery and settlement conferences.
Id. “Most significantly, Atlas had four distinct
opportunities to move to dismiss during the four-yearinterval [but failed to do so].” Id. Atlas could have
asserted, but chose not to assert, its personal
jurisdiction defense: (1) during the time period before
MDL transfer; (2) by way of objection to MDL transfer
when that was proposed; (3) during the three years the
case was in the MDL;21 and (4) immediately upon
transfer back to the New York federal court. Id. at 6162. “In sum, Atlas participated in pretrial proceedings
but never moved to dismiss for lack of personal
jurisdiction despite several clear opportunities to do so
during the four-year interval after filing its answer.
These circumstances establish a forfeiture.” Id. at 62.
Thus, the Second Circuit concluded not merely that
Atlas had forfeited its personal jurisdiction challenge,
“but also that this is the rare case where a district
judge’s contrary ruling exceeds the bounds of allowable
discretion.” Id. at 62-63.

21

The Second Circuit noted in this context that an MDL court “has
all the pretrial jurisdiction the transferor [court] would have had
if the transfer had not occurred.” Id. at 62 (quoting In re “Agent
Orange” Prod. Liab. Litig., 996 F.2d 1425, 1435 (2d Cir. 1993)). As
will be shown infra, Pfizer cited Agent Orange for this very same
principle in urging Judge Gergel in the Lipitor MDL to dismiss on
personal jurisdiction grounds the claims of non-Missouri resident
plaintiffs in the Missouri cases.

App. 78
Whether viewed through the California lens of
waiver via general appearance, or through the federal
lens of forfeiture through considerable litigation
activity while foregoing opportunity after opportunity
to raise the threshold issue, Pfizer’s conduct here
forecloses its PJ/FNC motion.
II.

Pfizer waived/forfeited its PJ/FNC
challenge by removing and answering in
federal court.

By removing this case on CAFA and diversity
grounds and answering without first moving to quash
in California state court or without promptly moving to
dismiss in federal court, Pfizer waived or forfeited its
PJ/FNC challenge. Pfizer’s motion should be evaluated
under California state procedural law, which provides
that a party who answers a lawsuit without first
moving to quash service of process on grounds of lack
of personal jurisdiction waives that challenge. Roy, 127
Cal. App. 4th at 345. Pfizer did this here, and it doesn’t
matter that Pfizer filed its answers to the California
Plaintiffs’ lawsuits in federal court as opposed to state
court, since by removing and asserting that the federal
courts should exercise their power to adjudicate these
claims, Pfizer generally appeared in the cases.
Mansour, 38 Cal. App. 4th at 1756-57; Obrecht, 245
Cal. App. 4th at 7. To be clear, Plaintiffs do not contend
that the act of removal alone amounted to a waiver or
forfeiture of personal jurisdiction by Pfizer. See, e.g.,
Sirius America Ins Co. v. SCPIE Indem. Co., 461 F.
Supp. 2d 155, 159 (S.D.N.Y. 2006) (removal alone,
without more, does not waive personal jurisdiction
defense). But, by removing on the grounds that the

App. 79
cases belong in federal court, then answering and
proceeding to attempt to litigate California Plaintiffs’
claims without advancing its PJ/forum challenges in a
timely manner, Pfizer waived/forfeited those challenges
under longstanding California law. This is especially
true when one contrasts Pfizer’s strategy in the
California state cases with the strategy Pfizer
employed in the Missouri state cases, where Pfizer’s
removal was predicated on lack of personal jurisdiction
and was done concurrently with a motion to dismiss
the claims of the non-Missouri resident plaintiffs.
III.

Pfizer waived/forfeited its PJ/FNC
challenge by attempting, and continuing to
attempt, to have all the California JCCP
Plaintiffs’ claims litigated in a coordinated
proceeding in a California forum.

Pfizer’s litigation conduct in the California state
court cases has been four years of asking federal courts
to decide they have the power to adjudicate the
California Plaintiffs’ cases. Since March 2014, when
Pfizer first began removing these cases, Pfizer has
repeatedly asked, first, the MDL court and, then,
California federal courts to hold that these cases belong
in those courts, not California state court.
A.

The Lipitor MDL court had personal
jurisdiction to the extent the
transferor courts – California courts
– had personal jurisdiction.

At the outset, it is noteworthy that the personal
jurisdiction the Lipitor MDL court had over the claims
of the California Plaintiffs against Pfizer was precisely

App. 80
that level of personal jurisdiction that the transferor
courts – all of which were California federal courts –
had over those claims and parties. See, e.g., In re
Testosterone Replacement Therapy Prods. Liab. Litig.,
136 F. Supp. 3d 968, 973 (N.D. Ill. 2015) (“Following a
transfer [to an MDL], the transferee judge has all the
jurisdiction and powers over pretrial proceedings in the
actions transferred to him that the transferor judge
would have had in the absence of transfer.”) (internal
quotation omitted).22 This has been the law since 1976
at the latest. In re FMC Corp. Patent Litig., 422 F.
Supp. 1163, 1165 (J.P.M.L. 1976). And Pfizer did not
hesitate to exploit this law to advance its position in
the Missouri state cases that the non-Missouri resident
plaintiffs should be dismissed for lack of personal
jurisdiction in those cases. Orr Decl. at ¶ 48, Ex. SS
(Pfizer reply brief in support of Pfizer’s appeal to Judge
Gergel of magistrate judge’s order granting remand in
Scotino), at 4 (“[A] transferee court can exercise
personal jurisdiction over a defendant to the extent
that the transferor court could.”) (citing In re “Agent
Orange”, 818 F.2d at 163).

22

See also In re “Agent Orange” Prod. Liab. Litig., 818 F.2d
145,163 (2d Cir. 1987); In re: Helicopter Crash Near Wendle Creek,
British Columbia, on August 8, 2002, 542 F. Supp. 2d 1362, 1363
(J.P.M.L 2008).

App. 81
B.

Pfizer urged the MDL court to
exercise jurisdiction over the
California Plaintiffs’ claims against it
and have those claims litigated in
that coordinated proceeding.

When Pfizer removed the California cases en masse
on March 12, 2014, Pfizer did not claim that the
California federal courts to which it was removing
those cases lacked personal jurisdiction over Pfizer in
these cases. Orr Decl. at ¶ 7, Ex. F (removal notice in
Banks). Instead, Pfizer promptly noticed the cases for
transfer to the MDL court. Orr Decl. at ¶ 8, Ex. G
(motion to transfer in Banks). Pfizer then spent years
trying to persuade the MDL court that the California
Plaintiffs’ claims against Pfizer should be litigated in
the MDL.
Because the MDL court only had that level of
personal jurisdiction over Pfizer in these cases that the
California transferor courts had, Pfizer’s efforts to have
the claims adjudicated in the MDL were tantamount to
Pfizer asserting that the claims belonged in a
California forum. Far from claiming that the MDL
court lacks jurisdiction, like it did with the Missouri
non-resident plaintiffs, Pfizer strenuously sought a
holding by the MDL court that it had jurisdiction over
the California Plaintiffs’ claims.
It is no answer to this that Pfizer was seeking a
subject matter jurisdiction determination rather than
a personal jurisdiction determination, for both are
threshold issues that should be determined at the
outset. See, e.g., Roy, 127 Cal. App. 4th at 493 (noting
that requirement for early resolution of personal

App. 82
jurisdiction challenges “serves the cause of judicial
economy . . . because all other objections become moot
if the motion to quash [for lack of personal jurisdiction]
is granted”). It is inconsistent with Pfizer’s long,
tenacious efforts to obtain a finding that the cases all
belonged in the MDL court – California and nonCalifornia Plaintiffs alike – for Pfizer to now claim that
the MDL court never had personal jurisdiction over
these cases in the first place.
Similarly, Pfizer should not now be heard to
complain that California state court is an inhospitable,
inconvenient forum in which to adjudicate all these
cases. Pfizer has long touted the efficiencies and
conveniences that the parties would all enjoy from
having all Lipitor cases, including those of all
California Plaintiffs, litigated in the MDL court. See,
e.g., Orr Decl. at ¶ 10, Ex. I (Pfizer motion to stay
pending transfer in Little); Orr Decl. at ¶ 13, Ex. L
(Pfizer opposition to motion to vacate conditional
transfer order in Banks). Pfizer’s sudden shift in
position on the convenience of the forum is misplaced
and should be rejected.
C.

Pfizer continues to this day to claim
the California state court cases all
belong in California federal court in
coordinated proceedings.

After Judge Gergel granted California Plaintiffs’
remand motions in part as to Pfizer’s fraudulent
joinder/diversity arguments and sent the cases back to
California federal courts for resolution of the CAFA
mass action jurisdiction issue, Pfizer abandoned the
diversity argument but continued to vigorously assert

App. 83
that the California federal courts should keep the cases
for litigation there. While Pfizer paid lip service to its
personal jurisdiction and forum defenses,23 Pfizer told
Judge Carney (in whose court the vast majority of the
California Plaintiffs’ cases were):
[W]e have a personal jurisdiction affirmative
defense that . . . we think it will be moot frankly
to the extent that we’re here before Your Honor
in this Court, as we think we should be under
CAFA. . . . The [personal] jurisdictional issue
goes away to the extent that Your Honor
determines that there’s CAFA jurisdiction.
Orr Decl. at ¶ 48, Ex. SS (status conference transcript,
February 1, 2017). Then, after Judge Carney and the
other California federal judges rejected Pfizer’s CAFA
mass action claim,24 Pfizer petitioned the Ninth Circuit
for permission to appeal those decisions, again urging
that the cases belonged in California federal court. Orr
Decl. at ¶ 52, Ex. WW (Pfizer’s petition for permission

23

See, e.g., Orr Decl. at ¶ 35, Ex. FF (Pfizer “status report” in
Banks case, filed in Judge Carney’s court on Dec. 30, 2016) at 2:1823 (mentioning “threshold” issues of personal jurisdiction and
venue).

24

Orr Decl. at ¶ 38, Ex. II (Judge Carney remand order for first
removal). Judges in the Northern District and Eastern District of
California issued similar remand orders in the handful of
California Plaintiffs’ cases that were transferred back from the
MDL to those courts. See Little v. Pfizer Inc., No. 3:14-cv-01177,
N.D. Cal., Dkt. #138 (remand order entered August 9, 2017);
Alanis v. Pfizer Inc., No. 1:14-cv-00365, E.D. Cal. Dkt. #42 (remand
order entered August 16, 2017).

App. 84
to appeal, filed June 2, 2017).25 The Ninth Circuit
summarily denied this request. Orr Decl. at ¶ 55, Ex.
ZZ.
Undaunted, Pfizer spent the next several months in
California state court litigating the way in which
California Plaintiffs’ claims would be added on to the
JCCP, hoping for another crack at a CAFA removal.
Pfizer did advise this Court that someday, in the
future, it would raise personal jurisdiction and forum
challenges, but first Pfizer wanted the cases
coordinated (which belies Pfizer’s claim that the
coordinated forum in California is inconvenient). Orr
Decl. at ¶ 50, Ex. UU (status conference transcript) at
12:16-20; Orr Decl. at ¶ 51, Ex. VV (joint status report
filed Oct. 12, 2017) at 5:26-27. Pfizer’s goal all along, as
this Court well knows, was to get Plaintiffs (and short
of that, this Court) to add the cases on, so that Pfizer
could remove them a second time to California federal
court. Indeed, Pfizer did just that on the heels of this
Court’s sua sponte add-on orders. Orr Decl. at ¶ 41, Ex.
LL (removal notice, filed March 1, 2018). Nothing in
Pfizer’s removal papers even hinted that Pfizer would

25

Before filing its appeal, Pfizer first attempted to invoke the
power of the California federal court to stay the proceedings in
California state court while Pfizer continued to pursue a holding
that the cases belonged in California federal court. Orr Decl. at
¶ 53, Ex. XX (Pfizer motion to stay state court proceedings during
Ninth Circuit appeal of first remand order). Judge Carney denied
this motion. Orr Decl. at ¶ 54, Ex. YY. But the important point for
present purposes is that Pfizer was trying to use the power of one
California court to halt proceedings in another California court,
not for the purpose of challenging personal jurisdiction in
California, but to establish that the cases should stay in California.

App. 85
contest the personal jurisdiction of the federal court in
Orange County, California, or the convenience of
litigating the cases in Orange County, California.
Judge Carney again remanded the cases. Orr Decl.
at ¶ 44, Ex. OO. Pfizer again petitioned the Ninth
Circuit for permission to appeal. Orr Decl. at ¶ 45, Ex.
PP.26 The Ninth Circuit again denied Pfizer’s petition
in a single-sentence order. Orr Decl. at ¶ 46, Ex. QQ.
This time, Pfizer petitioned the Ninth Circuit for
rehearing en banc. Orr Decl. at ¶ 47, Ex. RR. That
rehearing request remains pending as of the time this
Opposition brief is being filed, which means Pfizer is
telling one court (the Ninth Circuit) that these cases
should be litigated in a California federal court while
telling another court (this Court) that these cases don’t
belong in California state court.
This is the very sort of sandbagging that the
Hamilton opinion counseled against. Pfizer has had
opportunity after opportunity to timely raise its
personal jurisdiction and forum defenses (like Pfizer
did in the Missouri cases). But instead of timely
asserting those defenses and securing a ruling on them
as to California Plaintiffs, as required under both
California and federal law, Pfizer has tried to have it
both ways: Get a ruling that these cases belong in
California federal court but have in the wings the
26

Pfizer filed its PJ/FNC challenge while this petition for
permission to appeal was pending. So while Pfizer was telling the
Ninth Circuit that the claims of the California state court
Plaintiffs – California resident and non-resident alike – against
Pfizer belong in a California court, it was simultaneously telling
this Court that the claims don’t belong in a California court.

App. 86
backup argument, should Pfizer find itself stuck in
state court, that California courts don’t have power
over Pfizer after all and California isn’t the right place
for these cases after all. The law is clear: Pfizer
forfeited its PJ/FNC challenges long ago and over and
over again during the past four-plus years.
IV.

Pfizer waived/forfeited its PJ/FNC
challenge, not merely by acknowledging
the authority of courts in California forums
over the Lipitor claims of the California
Plaintiffs, but by seeking relief from those
courts against all California Plaintiffs.

Pfizer also waived/forfeited its PJ/FNC challenge by
seeking affirmative relief, in the form of merits
discovery and summary judgment, against the
California Plaintiffs. Such acts constitute a general
appearance under California law and therefore amount
to a waiver of personal jurisdiction. Mansour, 38 Cal.
App. 4th at 1756-57; see also Roy, 127 Cal. App. 4th at
345. Such acts also constitute a forfeiture of Pfizer’s
PJ/FNC challenge, as Pfizer undertook them during the
four-year period after the cases were filed but well
before Pfizer sought any relief on its PJ/FNC challenge.
Hamilton, 197 F.3d at 61-62.
A.

Pfizer sought discovery from
California Plaintiffs without raising
PJ/FNC.

As detailed above, Pfizer asked Judge Gergel in the
MDL court to enter an order requiring every California
state court Plaintiff, without regard to residency, to
provide discovery regarding where and when they

App. 87
obtained their Lipitor, including pharmacy records. Orr
Decl. at ¶ 21, Ex. T (Pfizer response to California
Plaintiffs’ motion to stay discovery, seeking discovery
against California Plaintiffs). Pfizer couched this
request as one for “jurisdictional discovery,” but also
conceded that this discovery was directed at the merits
of Plaintiffs’ claims. Id. at 6 (“The information at issue
is important to evaluating the viability of Plaintiffs’
claims against McKesson and it therefore bears on both
the merits of those claims and the jurisdictional issues
that this Court will be deciding.”). Indeed, Pfizer
sought this discovery not to contest the MDL court’s
jurisdiction over Pfizer, but to establish that court’s
jurisdiction. Id. Pfizer wanted to prove that at least
some, and hopefully for Pfizer most, California
Plaintiffs took Lipitor that was not distributed by
McKesson, thereby establishing McKesson’s
“fraudulent joinder” by those Plaintiffs and thus the
MDL court’s diversity jurisdiction over those Plaintiffs’
claims. Id.
Under California law, “initiating discovery
unrelated to the issue of jurisdiction” constitutes a
general appearance. Mansour, 38 Cal. App. 4th at
1757. Were Pfizer to claim it didn’t generally appear
when it sought “jurisdictional discovery” from
California Plaintiffs in the MDL court, Pfizer would be
mistaken. In evaluating whether a party has generally
appeared, California courts look not to the party’s
expressed intent, but to the character of the relief
sought. Hernandez v. Nat’l Dairy Prods. (1945) 126 Cal.
App. 2d 490, 492; see also Cal. Overseas Bank v. French
Am. Banking Corp. (1984) 154 Cal. App. 3d 179, 184-85
(superseded on other grounds by statute (Code Civ.

App. 88
Proc. § 418.10(e)). The discovery Pfizer sought was only
“jurisdictional” in the sense that Pfizer wanted it to
prove that Plaintiffs had no viable claim against
McKesson, not to establish the absence of personal
jurisdiction over Pfizer. Pfizer “initiated discovery to
establish jurisdiction,” not to refute it.
Pfizer also sought, and was granted, additional
discovery requirements against California Plaintiffs.
Specifically, at Pfizer’s request, California Plaintiffs
were obligated to participate in the depositions of socalled “common witnesses” in the MDL proceeding. Orr
Decl. at ¶ 21, Ex. T at 1 n.1 (“Pfizer submits that, to
the extent the Court stays Plaintiffs’ discovery
obligations, it should not exempt Plaintiffs from
participation in depositions of common witnesses in the
MDL . . . ”); Orr Decl. at ¶ 22, Ex. U (MDL CMO 10) at
1, ¶ 2 (granting California Plaintiffs’ motion to stay
discovery in part only and stating, “The Parties in
these cases are NOT exempt from participation in the
depositions of common witnesses in the MDL”). This
requirement, while seemingly sensible since the
California Plaintiffs were either going to litigate their
claims in the MDL or in California courts and might as
well participate in common witness depositions for the
sake of comity and efficiency, nevertheless reflected an
affirmative request by Pfizer to the MDL court – a
court with that level of personal jurisdiction only that
the California transferor courts had – for relief that
presumed the MDL court’s power to afford that relief.
Seeking a court order requiring the Plaintiffs to
participate in discovery is both a general appearance
under California law and a forfeiture of personal
jurisdiction under federal law. Mansour, 38 Cal. App.

App. 89
4th at 1757 (California law)27; Hamilton, 197 F.3d at 61
(federal law).
B.

Pfizer sought summary judgment
against California Plaintiffs without
raising PJ/FNC.

Pfizer didn’t just seek discovery against California
Plaintiffs in the MDL court – it also asked that court to
include California Plaintiffs in an omnibus summary
judgment motion. Orr Decl. at ¶¶ 29, 32, Exs. AA, DD.
As detailed above, Pfizer secured favorable rulings
from the MDL court on the admissibility of the MDL
plaintiffs’ general and specific causation experts and,
based on those rulings, asked Judge Gergel to grant
summary judgment against all plaintiffs in the MDL.
Orr Decl. at ¶ 29. Ex. AA. Because that omnibus
summary judgment was ambiguous as to whether
Pfizer meant to include California Plaintiffs, those
Plaintiffs filed a brief response asserting that they
should not be included within the scope of that
omnibus motion. Orr Decl. at ¶ 31, Ex. CC. Pfizer’s
reply removed all doubt: Pfizer asserted that the MDL
court had jurisdiction over every case in the MDL
(including the California and Missouri plaintiffs with
pending remand motions) and therefore was in a
position to enter summary judgment as to all plaintiffs
in the MDL. Orr Decl. at ¶ 32, Ex. DD. And if the MDL
court wasn’t prepared to enter summary judgment
27

Mansour indicates that “initiating discovery unrelated to the
issue of jurisdiction” constitutes a general appearance. It should be
even more the case that “initiating discovery to establish
jurisdiction” is a general appearance that waives personal
jurisdiction challenges.

App. 90
against California Plaintiffs because they still had a
pending remand motion, Pfizer had a ready solution:
“As to Plaintiffs with remand motions who asserted
that they did not intend to act under CMO 65 [i.e.,
California Plaintiffs], the [MDL] [c]ourt can issue a
similar order after addressing the remand motions.” Id.
at 19 n.9. Judge Gergel didn’t bite – he properly
refused to grant Pfizer summary judgment against
California Plaintiffs while Plaintiffs’ challenge to the
court’s subject matter jurisdiction remained
unresolved. Orr Decl. at 56, Ex. AAA (MDL CMO 82) at
1 n.1 (noting that Judge Gergel’s disposition of Pfizer’s
omnibus summary judgment motion does not apply to
California Plaintiffs). But that doesn’t obviate the fact
that Pfizer invoked the MDL court’s power to try to
prevail on the merits against California Plaintiffs, an
act that necessarily recognized the court’s personal
jurisdiction over Pfizer. Mansour, 38 Cal. App. 4th at
1756-57; see also California Overseas Bank, 154 Cal.
App. 3d at 185 (“Having addressed the merits of the
case, [defendant] submitted itself to the jurisdiction of
the court.”).
Pfizer should not be heard now to complain of this
Court’s power to adjudicate these cases in this
coordinated proceeding in light of Pfizer’s having
sought summary judgment against California Plaintiffs
instead of timely acting on its PJ/FNC challenge. See,
e.g., Hamilton, 197 F.3d at 61-63; Roy, 127 Cal. App.
4th at 344-45.

App. 91
V.

Pfizer waived/forfeited its PJ/FNC
challenge by repeatedly recognizing the
convenience afforded to the courts and the
parties from litigating the claims of all
California Plaintiffs in California forums.

At virtually every step in the long, tortured path
that these cases have taken, Pfizer has invoked the
efficiencies and conveniences for the courts, the parties,
and the witnesses that flow from litigating all Lipitor
claims in coordinated proceedings before California
courts (or in the MDL, which is functionally a
California court for personal jurisdiction purposes).
Having repeatedly invoked the benefits that flow from
coordination, Pfizer has forfeited its claim that
California isn’t a convenient forum after all and the
claims of non-resident California Plaintiffs should be
scattered across the other 49 states.28
For example, immediately after Pfizer removed the
cases in early 2014, Pfizer filed motions to stay some of
the actions in California federal court pending transfer
of the cases to the MDL.29 In such motions, Pfizer

28

Pfizer’s citation to two prior decisions in Los Angeles County
JCCPs in which timely asserted FNC motions were granted is a
non-sequitur. PJ/FNC motion at 10 (citing decisions in In re
Crestor Prod. Liab. Cases, JCCP No. 4713, and Accutane Drug
Cases, JCCP No. 4740). Had Pfizer timely asserted its FNC
challenge here, these authorities may have had some bearing on
this Court’s consideration of Pfizer’s FNC challenge. Neither
decision has anything to do with timeliness or waiver/forfeiture.
29

Pfizer didn’t need to file stay motions in most, if not all, of the
cases removed to the Central District, because that district already

App. 92
argued that a stay pending transfer would “promote
efficiency by allowing joint determination of common
issues,” and would “prevent prejudice to Pfizer,
including the risk of inconsistent rulings from different
courts and being forced to litigate the same issues in
multiple forums.” Orr Decl. at ¶ 10, Ex. I (Pfizer motion
to stay in Little case, filed in the Northern District of
California on March 20, 2014). Similarly, when
Plaintiffs objected to Pfizer’s notices of related case,
Pfizer’s response, while recognizing that Plaintiffs
raised jurisdictional objections that other Lipitor cases
did not have, nonetheless urged, “[T]here are . . .
substantial efficiencies to be gained by determination
of common substantive issues, such as causation and
warnings, by a single judge [in a coordinated
proceeding].” Orr Decl. at ¶ 49, Ex. TT (response to
objections to Pfizer’s notice of related cases in Banks,
filed March 19, 2014). Pfizer thereafter opposed
California Plaintiffs’ efforts to prevent transfer of the
cases to the MDL, arguing that the California cases
“share common questions of fact with the Lipitor
products liability actions already pending in the MDL,
[and] the resolution of those common questions in the
MDL would further the convenience of the parties and
witnesses.” Orr Decl. at ¶ 13, Ex. L (Pfizer opposition
to motion to vacate conditional transfer order).
Then, once the cases made their way back to this
JCCP after Judge Carney’s first remand order, Pfizer
established a pattern of invoking the benefits of
coordinating the cases even while resisting being the
had a pattern of sua sponte staying Lipitor cases pending transfer
to the MDL.

App. 93
party to move for that coordination (so that it could
continue its strategy of trying to get these cases into
federal court). For example, at the July 11, 2017 status
conference in this Court, Pfizer’s counsel told this
Court that “[Pfizer] fully support[s] the coordination
petition. It makes sense. We think there’s a lot of
reasons to have coordination. We’re not looking for
multiple types of litigation around the state or take up
different courts.” Orr Decl. at ¶ 50, Ex. UU (status
conference transcript) at 12:16-20. During that same
status conference, Pfizer’s counsel reiterated this point:
“We have a different view of what coordination would
be like. [But] [w]e all agree with coordination.” Id. at
25:6-8. Then again at the August 4, 2017 JCCP status
conference, Pfizer’s counsel stated, “We do want
coordination, your Honor. You know, and we’ve all
been, you know, candid with the Court.” Orr Decl. at
¶ 57, Ex. BBB (transcript) at 16:6-7.30
30

Pfizer’s PJ/FNC motion urges the alleged prejudice to Pfizer of
having to try cases where Pfizer cannot compel the in-person
attendance of critical witnesses. PJ/FNC motion at 14:3-14. Yet
Pfizer showed no concern for this prejudice while working up
potential bellwether cases in the MDL. To the contrary, Pfizer not
only waived its right under Lexecon Inc. v. Milberg Weiss Bershad
Hynes & Lerach, 523 U.S. 26 (1998) (MDL is limited by statute to
pretrial proceedings so party cannot be forced to try cases in MDL
unless party waives this right), to preclude cases from being tried
in the MDL, it criticized certain Plaintiffs’ firms for their refusal
to waive Lexecon in a significant number of their cases. Orr Decl.
at 19, Ex. R (transcript of MDL status conference) at 20:24-24:3. In
other words, Pfizer was more than happy to endure the prejudice
and inconvenience of trying cases in South Carolina federal court
involving plaintiffs from across the country; it just doesn’t want
that prejudice and inconvenience now, here in Los Angeles County
state court. Moreover, Pfizer’s PJ/FNC motion asserts that FNC is

App. 94
Pfizer cannot have it both ways. Pfizer cannot claim
on the one hand that it promotes efficiency and
convenience, for the parties and witnesses, for all the
Lipitor cases to be coordinated into a single MDL
proceeding in Charleston, South Carolina, but on the
other, a JCCP in Los Angeles County District Court is
so inconvenient that it warrants, well over four years
into the litigation, dismissal of Plaintiffs’ claims and
scattering them across the country in thousands of
different courts. Just as failure to timely assert
personal jurisdictional challenges results in forfeiture,
such unreasonable delay by Pfizer in asserting a forum
defense forfeits its forum challenge.31

proper so that this Court does not have to shoulder the difficult
choice of law issues that will come from likely having to apply the
home state law of non-resident plaintiffs. PJ/FNC motion at 18:916. But Pfizer told the JPML, when Plaintiffs opposed transfer of
their cases to the MDL, that “an appeal to unique state-law issues
is of no use, since MDL courts routinely issue decisions under the
law of multiple different states.” Orr Decl. at ¶ 13, Ex. L (Pfizer
opposition to Plaintiffs’ motion to vacate transfer to MDL) at 7 n.1.
This Court is just as capable of applying a different state’s laws to
any individual case in this JCCP as the MDL court.
31

Although Pfizer did not indicate in the name of its PJ/FNC
motion that it was moving to sever the Plaintiffs’ claims, Pfizer
essentially made such a motion in the course of its PJ/FNC motion.
The sole reason Pfizer seeks this relief is because it is an essential
condition precedent to this Court granting Pfizer’s FNC motion.
Since this Court should deny that motion, the Court need not, and
should not, reach Pfizer’s implied severance motion. If the Court
is inclined to reach that issue despite otherwise denying Pfizer’s
PJ/FNC challenge, Plaintiffs respectfully request that this Court
afford Plaintiffs the opportunity to separately respond to that
motion.

App. 95
CONCLUSION AND REQUEST FOR RELIEF
Pfizer knew how to raise personal jurisdiction and
forum challenges at the time it began removing
California Plaintiffs’ claims to federal court. Pfizer
raised just such challenges in identically situated cases
in Missouri state court. Pfizer made a strategic decision
in the California cases to go all in on trying to establish
that the federal courts had, and should exercise, the
power to adjudicate California Plaintiffs’ claims against
Pfizer.
It’s simply too late now, well over four years after
the March 2014 en masse removal by Pfizer of these
cases, for Pfizer to complain that this Court lacks
personal jurisdiction over it, or that Los Angeles
County is such an inconvenient forum that the cases
must be dismissed. Whatever the correct nomenclature,
Pfizer waived and/or forfeited those claims long ago.
Plaintiffs respectfully request that this Court enter
an order denying Pfizer’s PJ/FNC motion. Plaintiffs
further request such other relief to which they may be
justly entitled.
DATED: September 21, 2018
Respectfully submitted,
THE MULLIGAN LAW FIRM
By: /s/ Charles G. Orr
Charles G. Orr
Counsel for JCCP Plaintiffs

App. 96
***
[Proof of Service Omitted in the
Printing of this Appendix]

App. 97

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
CHARLESTON DIVISION
MDL No. 2:14-mn-02502-RMG
This Document Relates to
All Actions
[Filed June 24, 2016]
___________________________________
IN RE: LIPITOR (ATORVASTATIN )
CALCIUM) MARKETING, SALES
)
PRACTICES AND PRODUCTS
)
LIABILITY LITIGATION
)
___________________________________ )
DEFENDANTS’ OMNIBUS MOTION FOR
SUMMARY JUDGMENT AND
MEMORANDUM IN SUPPORT

App. 98
TABLE OF CONTENTS
Page
PRELIMINARY STATEMENT . . . . . . . . . . . . . . . . . 1
BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

SUMMARY JUDGMENT IS REQUIRED AS
TO PLAINTIFFS WHOSE CLAIMS ARE
BASED ON USE OF LIPITOR BELOW 80
MG BECAUSE THEY LACK ADMISSIBLE
AND SUFFICIENT EVIDENCE OF
GENERAL CAUSATION . . . . . . . . . . . . . . . . 6
II. SUMMARY JUDGMENT IS REQUIRED
BECAUSE ALL PLAINTIFFS LACK
ADMISSIBLE AND SUFFICIENT
EVIDENCE OF SPECIFIC CAUSATION . . . 8

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

App. 99
TABLE OF AUTHORITIES
Page
Cases
Andrews v. U.S. Steel Corp.,
250 P.3d 887 (N.M. Ct. App. 2011). . . . . . . . . . . . 6
In re Aredia & Zometa Products Liability Litigation,
483 F. App’x 182 (6th Cir. 2012), cert. denied,
133 S. Ct. 576 (2012). . . . . . . . . . . . . . . . . . . . . . . 9
In re Bausch & Lomb Inc. Contacts Lens Solution
Products Liability Litigation,
693 F. Supp. 2d 515 (D.S.C. 2010)
aff’d sub nom Fernandez-Pineiro v. Bausch &
Lomb, Inc.,
429 F. App’x 249 (4th Cir. 2011) . . . . . . . . . 1, 5, 7
In re Bausch & Lomb Inc. Contacts Lens Solution
Products Liability Litigation,
2010 WL 1727807 (D.S.C. Apr. 26, 2010)
aff’d sub nom Fernandez-Pineiro,
429 F. App’x 249 . . . . . . . . . . . . . . . . . . . . . . . . . . 7
In re Baycol Products Liability Litigation,
596 F.3d 884 (8th Cir. 2010). . . . . . . . . . . . . . . . . 9
Celotex Corp. v. Catrett,
477 U.S. 317 (1986). . . . . . . . . . . . . . . . . . . . . . . . 5
Chapman v. Procter & Gamble Distributing, LLC,
766 F.3d 1296 (11th Cir. 2014), cert. denied,
135 S. Ct. 2312 (2015). . . . . . . . . . . . . . . . . . . . 6, 9
Christian v. Cook Inc.,
2015 WL 3557242 (S.D. W. Va. June 4, 2015) . . . 8

App. 100
Cooper v. Smith & Nephew, Inc.,
259 F.3d 194 (4th Cir. 2001). . . . . . . . . . . . . 5, 8, 9
In re Darvocet, Darvon & Propoxyphene Products
Liability Litigation,
No. 2:11-md-2226 [Dkt. 1645] (E.D. Ky. Apr. 10,
2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Daubert v. Merrell Dow Pharmaceuticals, Inc.,
509 U.S. 579 (1993). . . . . . . . . . . . . . . . . . . . . . . . 3
Doe v. Ortho-Clinical Diagnostics, Inc.,
440 F. Supp. 2d 465 (M.D.N.C. 2006) . . . . . . . . . 8
Farris v. Intel Corp.,
493 F. Supp. 2d 1174 (D.N.M. 2007) . . . . . . . . . . 6
Fernandez-Pineiro v. Bausch & Lomb, Inc.,
429 F. App’x 249 (4th Cir. 2011) . . . . . . . . . . . 1, 7
In re Fosamax (Alendronate Sodium) Products
Liability Litigation,
No. 3:08-cv-00008 [Dkt. 2895] (D.N.J. Aug. 15,
2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Guinn v. AstraZeneca Pharmaceuticals LP,
602 F.3d 1245 (11th Cir. 2010). . . . . . . . . . . . . . . 9
In re Human Tissue Products Liability Litigation,
582 F. Supp. 2d 644 (D.N.J. 2008) . . . . . . . . . . . . 7
Jones v. Danek Medical, Inc.,
1999 WL 1133272 (D.S.C. Oct. 12, 1999). . . . . . . 8
In re Lipitor (Atorvastatin Calcium) Marketing,
Sales Practices & Products Liability Litigation,
2015 WL 6941132 (D.S.C. Oct. 22, 2015). . . 3, 6, 8

App. 101
In re Lipitor (Atorvastatin Calcium) Marketing,
Sales Practices & Products Liability Litigation,
2015 WL 7422613 (D.S.C. Nov. 20, 2015), motion
for reconsideration granted in part, amended by
2016 WL 827067 (D.S.C. Feb. 29, 2016) . . . . . . . 2
In re Lipitor (Atorvastatin Calcium) Marketing,
Sales Practices & Products Liability Litigation,
2015 WL 9165589 (D.S.C. Dec. 11, 2015) . 2, 4, 10
In re Lipitor (Atorvastatin Calcium) Marketing,
Sales Practices & Products Liability Litigation,
2016 WL 1251828 (D.S.C. Mar. 30, 2016) . . 1, 3, 6
In re Lipitor (Atorvastatin Calcium) Marketing,
Sales Practices & Products Liability Litigation,
2016 WL 2940782 (D.S.C. May 6, 2016) . . . . 4, 10
In re Lipitor (Atorvastatin Calcium) Marketing,
Sales Practices & Products Liability Litigation,
2016 WL 2851445 (D.S.C. May 11, 2016) . . . . 2, 4
McClure v. Wyeth,
2012 WL 952856 (D.S.C. Mar. 20, 2012) . . . 5, 8, 9
Miller v. Pfizer, Inc.,
356 F.3d 1326 (10th Cir. 2004), cert. denied,
543 U.S. 917 (2004). . . . . . . . . . . . . . . . . . . . . . . . 6
Milward v. Rust-Oleum Corp.,
2016 WL 1622620 (1st Cir. Apr. 25, 2016). . . . . . 9
Nelson v. Matrixx Initiatives, Inc.,
592 F. App’x 591 (9th Cir. 2015), cert. denied,
136 S. Ct. 76 (2016). . . . . . . . . . . . . . . . . . . . . . . . 9

App. 102
Norris v. Baxter Healthcare Corp.,
397 F.3d 878 (10th Cir. 2005). . . . . . . . . . . . . . 1, 6
In re Rezulin Products Liability Litigation,
441 F. Supp. 2d 567 (S.D.N.Y. 2006) . . . . . . . . . . 7
Rider v. Sandoz Pharmaceuticals Corp.,
295 F.3d 1194 (11th Cir. 2002), reh’g denied,
48 F. App’x 330 (11th Cir. 2002) . . . . . . . . . . . . . 7
Ruggiero v. Warner-Lambert Co.,
424 F.3d 249 (2d Cir. 2005) . . . . . . . . . . . . . . . . . 6
Rutigliano v. Valley Business Forms,
929 F. Supp. 779 (D.N.J. 1996), aff’d,
118 F.3d 1577 (3d Cir. 1997) . . . . . . . . . . . . . . . . 6
Siharath v. Sandoz Pharmaceuticals Corp.,
131 F. Supp. 2d 1347 (N.D. Ga. 2001),
aff’d, Rider v. Sandoz Pharms. Corp.,
295 F.3d 1194 (11th Cir. 2002),
reh’g denied, 48 F. App’x 330 (11th Cir. 2002) . . 7
Soldo v. Sandoz Pharmaceuticals Corp.,
244 F. Supp. 2d 434 (W.D. Pa. 2003) . . . . . . . . . . 7
In re Viagra Products Liability Litigation,
658 F. Supp. 2d 950 (D. Minn. 2009) . . . . . . . . . . 7
In re Viagra Products Liability Litigation,
No. 06-md-1724 [Dkt. 623] (D. Minn. Aug. 25,
2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Wade-Greaux v. Whitehall Laboratories, Inc.,
874 F. Supp. 1441 (D.V.I. 1994), aff’d,
46 F.3d 1120 (3d Cir. 1994) . . . . . . . . . . . . . . . . . 7

App. 103
Wells v. SmithKline Beecham Corp.,
601 F.3d 375 (5th Cir. 2010). . . . . . . . . . . . . . . . . 6
Zellers v. NexTech Northeast, LLC,
533 F. App’x 192 (4th Cir. 2013) (per curiam),
cert. denied, 134 S. Ct. 911 (2014) . . . . . . . . 1, 5, 6
In re Zoloft (Sertraline Hydrochloride) Products
Liability Litigation,
2016 WL 1320799 (E.D. Pa. Apr. 5, 2016) . . . . 6, 7
Statutes
Fed. R. Civ. P. 56 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

App. 104
Pursuant to CMO 79, Defendants Pfizer Inc., Pfizer
International LLC, and Greenstone LLC respectfully
move for summary judgment. A full explanation of the
motion is provided in the supporting memorandum
herein.
PRELIMINARY STATEMENT
Defendants are entitled to summary judgment
because Plaintiffs lack admissible expert testimony to
establish causation, an essential element of all of their
claims. Plaintiffs claim that Lipitor caused them to
develop type 2 diabetes. “‘[I]n order to carry the burden
of proving a plaintiff’s injury was caused by exposure to
a specified substance,’ a plaintiff must demonstrate
general and specific causation.” In re Lipitor
(Atorvastatin Calcium) Mktg., Sales Practices & Prods.
Liab. Litig., 2016 WL 1251828, at *1 (D.S.C. Mar. 30,
2016) (“CMO 68”) (quoting Zellers v. NexTech Ne., LLC,
533 F. App’x 192, 196 (4th Cir. 2013) (per curiam), cert.
denied, 134 S. Ct. 911 (2014)). “‘General causation is
whether a substance is capable of causing a particular
injury or condition in the general population and
specific causation is whether a substance caused a
particular individual’s injury.’” Id. (quoting Norris v.
Baxter Healthcare Corp., 397 F.3d 878, 881 (10th Cir.
2005)). In cases like these, “‘[w]here a medical causal
relation issue is not one within the common knowledge
of the layman,’” Plaintiffs must prove general and
specific causation through admissible expert testimony.
In re Bausch & Lomb Inc. Contacts Lens Sol. Prods.
Liab. Litig., 693 F. Supp. 2d 515, 518 (D.S.C. 2010)
(Norton, J.) (citation omitted), aff’d sub nom
Fernandez-Pineiro v. Bausch & Lomb, Inc., 429 F.

App. 105
App’x 249 (4th Cir. 2011) (per curiam). Plaintiffs
cannot do so here.
First, based on this Court’s general causation
ruling, summary judgment is warranted as to all
Plaintiffs who took doses of Lipitor below 80 mg before
developing diabetes because they lack admissible
expert testimony establishing general causation. The
Court excluded all of Plaintiffs’ experts’ general
causation opinions except for Dr. Sonal Singh’s opinion
that the 80 mg dose is capable of causing diabetes.
CMO 68, 2016 WL 1251828, at *19. All Plaintiffs who
took lower doses of Lipitor – including 10, 20, and 40
mg – lack the necessary expert proof of general
causation, and their claims thus fail as a matter of law.
Second, and independently, all Plaintiffs lack
admissible expert testimony to prove specific causation.
The Court excluded the specific causation opinions of
Plaintiffs’ experts in the first two cases prepared for
trial, Daniels v. Pfizer Inc., 2:14-cv-01400, and
Hempstead v. Pfizer Inc., 2:14-cv-1879. See In re Lipitor
(Atorvastatin Calcium) Mktg., Sales Practices & Prods.
Liab. Litig., 2015 WL 9165589 (D.S.C. Dec. 11, 2015)
(“CMO 55”); In re Lipitor (Atorvastatin Calcium) Mktg.,
Sales Practices & Prods. Liab. Litig., 2016 WL 2851445
(D.S.C. May 11, 2016) (“CMO 76”). After the Court
issued CMO 55, in which it excluded Dr. Elizabeth
Murphy’s specific causation opinion in Hempstead,
Plaintiffs’ lead counsel “advised the Court . . . that, if
the Court’s ruling [in CMO 55] is correctly decided,
then none of the cases now pending in the MDL will be
able to survive summary judgment on the issue of
specific causation.” CMO 65 [1352] at 1. In response, in

App. 106
CMO 65, the Court provided all Plaintiffs an
opportunity to come forward and dispute that
statement. No Plaintiff did so.1 Thus, summary
judgment is warranted because no Plaintiff has
“distinguished [her case] from the Court’s ruling in
CMO 55,” CMO 65 at 1, and, as a result, no Plaintiff
can prove specific causation.
BACKGROUND
The parties and Court agreed from the start of this
MDL that it was necessary to adopt a process for the
disclosure and discovery of expert opinions on general
and specific causation and a procedure for making and
hearing Daubert motions addressing those opinions.
See, e.g., Amended CMO 6 [148] at 7-11; CMO 19 [539]
at 4-6; CMO 29 [746]. The Court afforded Plaintiffs
ample opportunity to develop admissible and sufficient
causation evidence.
General Causation. Plaintiffs proffered general
causation opinions from four experts: Drs. Edwin Gale,
Michael Quon, Barbara Roberts, and Sonal Singh.2
After full discovery, briefing, and two days of argument

1

Certain Plaintiffs filed a notice stating that “they do not intend
to undertake any action in response to Case Management Order
No. 65” because their cases are subject to pending remand motions.
Pls.’ Notice Regarding CMO 65 [1373] at 1.

2

Plaintiffs also offered related opinions on association from Prof.
Nicholas Jewell, a biostatistician, the majority of which were
excluded. See In re Lipitor (Atorvastatin Calcium) Mktg., Sales
Practices & Prods. Liab. Litig., 2015 WL 7422613 (D.S.C. Nov. 20,
2015) (“CMO 54”), motion for reconsideration granted in part,
amended by 2016 WL 827067 (D.S.C. Feb. 29, 2016) (“CMO 67”).

App. 107
on Pfizer’s motion to exclude those opinions, the Court
requested supplemental briefing to address “whether
Plaintiffs’ experts have offered sufficient evidence to
support their opinions that Lipitor causes diabetes in
female patients at a dosage level less than 80 mg.”
Sept. 25, 2015 Text Order [1149]. Following
supplemental briefing and another hearing, the Court
ruled that “Plaintiffs must have expert testimony that
Lipitor causes, or is capable of causing, diabetes at
particular dosages.” In re Lipitor (Atorvastatin
Calcium) Mktg., Sales Practices & Prods. Liab. Litig.,
2015 WL 6941132, at *6 (D.S.C. Oct. 22, 2015) (“CMO
49”). The Court allowed Plaintiffs to submit
supplemental reports to address “whether Lipitor
causes diabetes at dosages of 10 mg, 20 mg, 40 mg, and
80 mg.” Id. Plaintiffs proffered supplemental reports
from Drs. Quon, Roberts, and Singh.
After briefing and another hearing on Plaintiffs’
experts’ dose-specific opinions, the Court excluded the
general causation opinions of Drs. Gale, Quon, and
Roberts in their entirety as unreliable and inadmissible
under Daubert v. Merrell Dow Pharmaceuticals, Inc.,
509 U.S. 579 (1993), and Rule 702. CMO 68, 2016 WL
1251828, at *19. The Court also excluded Dr. Singh’s
opinion that Lipitor 10 mg could cause type 2 diabetes.
Id. The Court held that “Dr. Singh’s 10 mg opinion is
not based on sufficient facts and data and that he did
not reliably apply the epidemiological/Bradford Hill
method.” Id. at *11. With respect to general causation
at the 20 mg and 40 mg dosages of Lipitor, “Dr. Singh
testifie[d] that he cannot reach an opinion about
whether 20 mg and 40 mg of Lipitor causes diabetes
without the conclusion that 10 mg of Lipitor causes

App. 108
diabetes.” Id. And “[b]ecause the Court . . . disallowed
Dr. Singh’s causation opinion for Lipitor 10 mg, . . . Dr.
Singh, by his own testimony, is unable to offer a
causation opinion regarding Lipitor 20 mg or Lipitor 40
mg.” Id. The Court permitted Dr. Singh to proceed with
his general causation opinion as to Lipitor 80 mg. Id. at
*7.
Specific Causation. As to specific causation,
Plaintiffs proffered the opinion of Dr. David Handshoe
in Daniels and Hempstead and the opinion of Dr.
Murphy in Hempstead. After full discovery, briefing,
and hearings, the Court granted Pfizer’s motions to
exclude both experts’ opinions in their entirety. See
CMO 55, 2015 WL 9165589; CMO 76, 2016 WL
2851445. In CMO 55, the Court held that Dr. Murphy’s
specific causation opinion was unreliable and
inadmissible under Daubert and Rule 702 because it
was “not based on ‘sufficient facts or data,’ and to the
extent that she purports to be applying a differential
diagnoses methodology, she has not reliably applied
this methodology.” CMO 55, 2015 WL 9165589, at *14.
The Court denied Plaintiffs’ motion for reconsideration
of its order. In re Lipitor (Atorvastatin Calcium) Mktg.,
Sales Practices & Prods. Liab. Litig., 2016 WL 2940782
(D.S.C. May 6, 2016) (“CMO 75”). The Court explained
in its rulings that while “Dr. Murphy recognized that
Plaintiff had a number of statistically significant risk
factors for diabetes beyond ingestion of Lipitor,” CMO
55, 2015 WL 9165589, at *13, “she never provided any
explanation as to why these other risk factors, alone or
in combination, were not sufficient to cause diabetes
independent of Lipitor exposure.” CMO 75, 2016 WL
2940782, at *2.

App. 109
After the Court issued CMO 55 excluding Dr.
Murphy, it held a conference and asked Plaintiffs’ lead
counsel if Plaintiffs “would have any class of cases or
factual presentation or new theory that might survive
specific causation, assuming the correctness of the
Murphy order.” 1/22/16 Hr’g Tr. at 9:12-20. Plaintiffs’
counsel responded: “The short answer is no, sir, Your
Honor, we don’t.” Id. at 9:21-24. The Court asked: “[I]f
we assume for a minute that the critical question then
is whether the Court is correct regarding the standard,
if you are telling me, Mr. Hahn, that if I’m correct, then
you are not going to have a case that survives summary
judgment?” Id. at 10:10-14. Plaintiffs’ counsel
responded: “Yes, sir.” Id. at 10:15. Plaintiffs’ lead
counsel also agreed at the conference that an order to
show cause would be an appropriate procedure to
determine if any other plaintiff or plaintiff’s counsel
disagreed with his representation. Id. at 10:16-13:10.
Following the conference, the Court issued CMO 65,
giving notice “that any Plaintiff who disputes the
position taken by Plaintiffs’ Lead Counsel and asserts
that her case can survive summary judgment on
specific causation even if the Court’s ruling in CMO 55
is upheld on appeal . . . shall provide notice to the
Court within 15 days of this order and set forth with
specificity how her case is distinguished from the
Court’s ruling in CMO 55.” CMO 65 at 1. The Court
stated that if a Plaintiff gave notice, the Court would
set a schedule for expert discovery and Daubert
briefing. Id. No Plaintiff provided notice that she could
offer specific causation testimony that would survive
the Court’s analysis in CMO 55 or that she could prove
specific causation without admissible expert testimony.

App. 110
In CMO 79, the Court permitted Defendants to file
“an omnibus summary judgment motion” based on “the
lack of general causation and specific causation expert
testimony.” CMO 79 [1548] at 1.
ARGUMENT
“The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56. The
“plain language” of Rule 56 “mandates the entry of
summary judgment . . . against a party who fails to
make a showing sufficient to establish the existence of
an element essential to that party’s case, and on which
that party will bear the burden of proof at trial.”
Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986). “[A]
complete failure of proof concerning an essential
element of the [plaintiff’s] case necessarily renders all
other facts immaterial,” id. at 323, and “necessitates a
grant of summary judgment in favor of the defendant.”
Zellers, 533 F. App’x at 200.
Causation is a required element of product liability
claims. See, e.g., Cooper v. Smith & Nephew, Inc., 259
F.3d 194, 203 (4th Cir. 2001). “To establish medical
causation in a product liability case, a plaintiff must
show both general causation and specific causation.” In
re Bausch & Lomb, 693 F. Supp. 2d at 518. Proof of
causation requires “relevant and reliable expert
testimony, as the health effects of toxic exposure to
chemicals are beyond the knowledge and experience of
the average layperson.” Zellers, 533 F. App’x at 200;
accord McClure v. Wyeth, 2012 WL 952856, at *1
(D.S.C. Mar. 20, 2012) (Herlong, J.); In re Bausch &

App. 111
Lomb, 693 F. Supp. 2d at 518.3 Because Plaintiffs lack
the expert testimony necessary to prove causation here,
Defendants are entitled to summary judgment.
I.

SUMMARY JUDGMENT IS REQUIRED AS
TO PLAINTIFFS WHOSE CLAIMS ARE
BASED ON USE OF LIPITOR BELOW 80
MG BECAUSE THEY LACK ADMISSIBLE
AND SUFFICIENT EVIDENCE OF
GENERAL CAUSATION

As this Court has explained, “Plaintiffs must
demonstrate, with general causation testimony, that
particular doses of Lipitor are capable of causing
diabetes.” CMO 49, 2015 WL 6941132, at *6. None of
the Plaintiffs who ingested Lipitor only at doses below
80 mg – including the 10, 20, and 40 mg doses – can
make this showing because this Court has excluded
their experts’ general causation opinions at those
doses. See CMO 68, 2016 WL 1251828, at *19. Because
these Plaintiffs lack admissible expert testimony on
general causation, “there is a complete failure of proof
on the critical element of causation,” and summary
judgment is warranted. Zellers, 533 F. App’x at 200.

3

Plaintiffs’ counsel recently asserted for the first time that New
Mexico may be an exception to the general rule that all states
require expert testimony to prove causation in cases like these. See
6/8/16 Hr’g Tr. at 11:13-18. New Mexico case law, however,
confirms that “[e]xpert testimony is necessary” to show general
and specific causation in cases that, like these, involve complex
medical and scientific issues outside the knowledge and experience
of a lay juror. Farris v. Intel Corp., 493 F. Supp. 2d 1174, 1186
(D.N.M. 2007); accord Andrews v. U.S. Steel Corp., 250 P.3d 887,
890 (N.M. Ct. App. 2011).

App. 112
It is well established that where “expert opinion
evidence regarding causation is inadmissible . . .
summary judgment must be granted to defendants.”
Rutigliano v. Valley Bus. Forms, 929 F. Supp. 779, 783
(D.N.J. 1996) (emphasis added), aff’d, 118 F.3d 1577
(3d Cir. 1997); accord Wells v. SmithKline Beecham
Corp., 601 F.3d 375, 381 (5th Cir. 2010). Courts around
the country routinely grant and affirm summary
judgment where, as here, plaintiffs failed to pass the
Daubert threshold on general causation. See, e.g.,
Chapman v. Procter & Gamble Distrib., LLC, 766 F.3d
1296, 1316-17 (11th Cir. 2014), cert. denied, 135 S. Ct.
2312 (2015); Wells, 601 F.3d at 381; Ruggiero v.
Warner-Lambert Co., 424 F.3d 249, 254-55 (2d Cir.
2005); Norris, 397 F.3d at 884-86; Miller v. Pfizer, Inc.,
356 F.3d 1326, 1335-36 (10th Cir. 2004), cert. denied,
543 U.S. 917 (2004); In re Zoloft (Sertraline
Hydrochloride) Prods. Liab. Litig., 2016 WL 1320799,
at *10-11 (E.D. Pa. Apr. 5, 2016), appeal filed, (3d Cir.
May 12, 2016); In re Bausch & Lomb Inc. Contacts Lens
Sol. Prods. Liab. Litig., 2010 WL 1727807, at *1-3
(D.S.C. Apr. 26, 2010) (Norton, J.), aff’d sub nom
Fernandez-Pineiro, 429 F. App’x 249; In re Bausch &
Lomb, 693 F. Supp. 2d at 517-19; In re Viagra Prods.
Liab. Litig., 658 F. Supp. 2d 950, 967-69 (D. Minn.
2009); In re Human Tissue Prods. Liab. Litig., 582 F.
Supp. 2d 644, 690-91 (D.N.J. 2008); In re Rezulin
Prods. Liab. Litig., 441 F. Supp. 2d 567, 579 (S.D.N.Y.
2006); Soldo v. Sandoz Pharms. Corp., 244 F. Supp. 2d
434, 577-78 (W.D. Pa. 2003); Siharath v. Sandoz
Pharms. Corp., 131 F. Supp. 2d 1347, 1373-74 (N.D.
Ga. 2001), aff’d, Rider v. Sandoz Pharms. Corp., 295
F.3d 1194 (11th Cir. 2002), reh’g denied, 48 F. App’x
330 (11th Cir. 2002); Wade-Greaux v. Whitehall Labs.,

App. 113
Inc., 874 F. Supp. 1441, 1485-86 (D.V.I. 1994), aff’d, 46
F.3d 1120 (3d Cir. 1994).
In the Zoloft MDL, for example, after excluding the
opinions of plaintiffs’ general causation experts as
unreliable and inadmissible, the court held that
summary judgment was warranted because “[a]t the
end of the day, Plaintiffs have failed to raise a jury
question on the necessary predicate to success in any
case: that Zoloft was capable of causing their injuries.”
In re Zoloft, 2016 WL 1320799, at *11. Likewise, in the
Bausch & Lomb MDL, in which plaintiffs alleged that
a contact lens solution caused their eye injuries, Judge
Norton granted summary judgment as to plaintiffs who
alleged that the product caused them to develop “nonFusarium” eye infections. In re Bausch & Lomb, 693 F.
Supp. 2d at 517. “With the exclusion of plaintiffs’
causation expert regarding eye infections other than
Fusarium keratitis, it has become clear that the
remaining plaintiffs have no admissible evidence to
support their allegation that defendant’s . . . contact
lens solution caused the eye infections they
experienced. Consequently, these plaintiffs cannot
prove an essential element in each of their cases.” Id.
at 517. The Fourth Circuit affirmed. FernandezPineiro, 429 F. App’x 249.
For the same reason, Defendants here are entitled
to summary judgment as to the claims of Plaintiffs who
took Lipitor doses below 80 mg.4

4

In addition, because “[e]vidence concerning specific causation in
toxic tort cases is admissible only as a follow-up to admissible
general-causation evidence,” In re Bausch & Lomb, 693 F. Supp.

App. 114
II.

SUMMARY JUDGMENT IS REQUIRED
BECAUSE ALL PLAINTIFFS LACK
ADMISSIBLE AND SUFFICIENT
EVIDENCE OF SPECIFIC CAUSATION

After Plaintiffs’ counsel acknowledged that no case
can “survive[] summary judgment” under this Court’s
order in CMO 55 excluding Dr. Murphy’s specific
causation opinion, CMO 65 provided all Plaintiffs
ample opportunity to come forward if any Plaintiff
disagreed and believed she could survive summary
judgment on specific causation.5 No Plaintiff did so. By
agreeing with Plaintiffs’ lead counsel and by declining
to file a notice in response to CMO 65, Plaintiffs have
conceded that Defendants are entitled to summary
judgment.
2d at 518 (citation omitted), “‘there can be no specific causation’”
in cases involving Plaintiffs who took Lipitor doses below 80 mg.
CMO 49, 2015 WL 6941132, at *1 (quoting Norris, 397 F.3d at
881).
5

Other MDL courts have employed a similar process of giving
notice and an opportunity to all plaintiffs to advise the court if any
plaintiff believes she should not be subject to a ruling that was
issued with respect to one or certain cases but as to which the
record and law support a finding that it applies more broadly to
cases in the MDL. See, e.g., In re Fosamax (Alendronate Sodium)
Prods. Liab. Litig., No. 3:08-cv-00008, Order to Show Cause Why
the Claims of Plaintiffs Alleging Injury Prior to September 14,
2010 Should Not Be Dismissed [Dkt. 2895] (D.N.J. Aug. 15, 2013)
(attached as Ex. 1); In re Darvocet, Darvon & Propoxyphene Prods.
Liab. Litig., No. 2:11-md-2226, Order Directing Plaintiffs to Show
Cause Why Claims as to Generic Defendants Should Not Be
Dismissed [Dkt. 1645] (E.D. Ky. Apr. 10, 2012) (attached as Ex. 2);
In re Viagra Prods. Liab. Litig., No. 06-md-1724, Order to Show
Cause [Dkt. 623] (D. Minn. Aug. 25, 2010) (attached as Ex. 3).

App. 115
Like general causation, specific causation is an
essential element of all of Plaintiffs’ claims. The Fourth
Circuit and district courts within it have repeatedly
held that summary judgment is warranted where a
plaintiff cannot demonstrate specific causation through
admissible expert testimony. See, e.g., Cooper, 259 F.3d
at 203; Christian v. Cook Inc., 2015 WL 3557242, at *2
(S.D. W. Va. June 4, 2015); McClure, 2012 WL 952856,
at *1-2; Doe v. Ortho-Clinical Diagnostics, Inc., 440 F.
Supp. 2d 465, 478 (M.D.N.C. 2006); Jones v. Danek
Med., Inc., 1999 WL 1133272, at *5 (D.S.C. Oct. 12,
1999) (Houck, J.). In Cooper, for example, plaintiff
claimed a pedicle screw fixation device caused his back
surgeries to fail and led to related side effects. Cooper,
259 F.3d at 196-98. The Fourth Circuit affirmed the
exclusion of plaintiff’s specific causation expert because
(like Plaintiffs’ specific causation experts here) his
differential diagnosis was not reliable. Id. at 202-03.
“And without [the expert’s] testimony, [plaintiff] could
not make the requisite showing of causation. The
district court therefore properly granted [the
manufacturer’s] motion for summary judgment on all
claims.” Id. at 203 (footnotes omitted). Similarly, in
McClure, plaintiff alleged that her ingestion of
hormone therapy medication caused her breast cancer.
2012 WL 952856 at *1. Judge Herlong excluded
plaintiff’s specific causation experts as unreliable and
then granted summary judgment because “expert
testimony is necessary to establish causation for cases
involving [] complex medical condition[s].” Id.
Federal appellate courts have repeatedly affirmed
similar rulings. For example, in Chapman v. Procter &
Gamble Distributing, LLC, in which plaintiff claimed

App. 116
that her use of a denture adhesive caused her to
develop a neurological disorder, the Eleventh Circuit
affirmed summary judgment based on the exclusion of
plaintiffs’ causation experts. 766 F.3d at 1316-17.
Plaintiffs “were required to have Daubert-qualified,
general and specific-causation expert testimony that
would be admissible at trial to avoid summary
judgment.” Id. at 1316; see also, e.g., Milward v. RustOleum Corp., 2016 WL 1622620, at *5-6 (1st Cir. Apr.
25, 2016); Nelson v. Matrixx Initiatives, Inc., 592 F.
App’x 591, 592 (9th Cir. 2015), cert. denied, 136 S. Ct.
76 (2016); In re Aredia & Zometa Prods. Liab. Litig.,
483 F. App’x 182, 191 (6th Cir. 2012), cert. denied, 133
S. Ct. 576 (2012); Guinn v. AstraZeneca Pharms. LP,
602 F.3d 1245, 1257 (11th Cir. 2010) (per curiam); In re
Baycol Prods. Liab. Litig., 596 F.3d 884, 892 (8th Cir.
2010).
Consistent with these authorities, CMO 65 made
clear that if, as Plaintiffs’ lead counsel asserted,
Plaintiffs lacked admissible expert testimony on
specific causation under this Court’s opinion in CMO
55, Plaintiffs’ cases would be subject to “summary
judgment on the issue of specific causation.” CMO 65 at
1. In CMO 55, this Court identified a number of flaws
in Dr. Murphy’s specific causation methodology that
rendered her opinion unreliable and inadmissible. The
Court concluded:
Dr. Murphy’s opinion is based only on (1) her
conclusion that Lipitor increases the risk of
diabetes and (2) . . . the fact that Ms. Hempstead
was diagnosed with diabetes after taking
Lipitor. She failed to point to any evidence, other

App. 117
than a (belated) temporal relationship, that
Lipitor contributed to the development of
diabetes in Ms. Hempstead’s case. She failed to
offer any explanation as to why Ms.
Hempstead’s other risk factors for diabetes . . . ,
alone or in combination, are not solely
responsible for Ms. Hempstead’s diabetes.
CMO 55, 2015 WL 9165589, at *14; accord CMO 75,
2016 WL 2940782, at *1-2.
Under CMO 65, Plaintiffs had the opportunity to
advise the Court that they disputed the position taken
by Plaintiffs’ lead counsel and that they would assert
that their cases can survive summary judgment on
specific causation even if the Court’s ruling in CMO 55
is affirmed on appeal. The Court further made clear
that it was prepared to set schedules for the disclosure
of experts and for Daubert motions in such cases. No
Plaintiff came forward purporting to distinguish her
case from the Court’s ruling on Dr. Murphy in CMO 55.
As a result, Defendants are entitled to summary
judgment in all cases.
CONCLUSION
For the foregoing reasons, this Court should grant
Defendants’ motion for summary judgment.
Dated: June 24, 2016

App. 118
By: /s/ Mark S. Cheffo
Mark S. Cheffo
Sheila L. Birnbaum
Bert L. Wolff
Rachel Passaretti-Wu
Mara Cusker Gonzalez
Quinn Emanuel Urquhart & Sullivan, LLP
51 Madison Avenue, 22nd Floor
New York, New York 10010-1601
Telephone: (212) 849-7000
Facsimile: (212) 849-7100
MarkCheffo@quinnemanuel.com
SheilaBirnbaum@quinnemanuel.com
BertWolff@quinnemanuel.com
RachelPassarettiWu@quinnemanuel.com
MaraCuskerGonzalez@quinnemanuel.com
Michael T. Cole
Nelson Mullins Riley & Scarborough LLP
151 Meeting Street/Sixth Floor
Post Office Box 1806 (29402-1806)
Charleston, SC 29401
Telephone: (843) 853-5200
Facsimile: (843) 722-8700
mike.cole@nelsonmullins.com
David E. Dukes
J. Mark Jones
Amanda S. Kitts
Nelson Mullins Riley & Scarborough LLP
1320 Main Street / 17th Floor
Post Office Box 11070 (29211-1070)
Columbia, SC 29201
Telephone: (803) 799-2000

App. 119
Facsimile: (803) 256-7500
david.dukes@nelsonmullins.com
mark.jones@nelsonmullins.com
amanda.kitts@nelsonmullins.com
Attorneys for Defendants Pfizer Inc.,
Pfizer International LLC, and Greenstone
LLC
***
[Certificate of Service Omitted in the
Printing of this Appendix]

